<html>
<title> - H.R. 4297, THE WORKFORCE INVESTMENT IMPROVEMENT ACT OF 2012</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
      H.R. 4297, THE WORKFORCE INVESTMENT IMPROVEMENT ACT OF 2012

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON EDUCATION
                           AND THE WORKFORCE
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

             HEARING HELD IN WASHINGTON, DC, APRIL 17, 2012

                               __________

                           Serial No. 112-58

                               __________

  Printed for the use of the Committee on Education and the Workforce


                   Available via the World Wide Web:
                       www.gpo.gov/fdsys/browse/
           committee.action?chamber=house&committee=education
                                   or
            Committee address: http://edworkforce.house.gov




                  U.S. GOVERNMENT PRINTING OFFICE
73-706                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




                COMMITTEE ON EDUCATION AND THE WORKFORCE

                    JOHN KLINE, Minnesota, Chairman

Thomas E. Petri, Wisconsin           George Miller, California,
Howard P. ``Buck'' McKeon,             Senior Democratic Member
    California                       Dale E. Kildee, Michigan
Judy Biggert, Illinois               Robert E. Andrews, New Jersey
Todd Russell Platts, Pennsylvania    Robert C. ``Bobby'' Scott, 
Joe Wilson, South Carolina               Virginia
Virginia Foxx, North Carolina        Lynn C. Woolsey, California
Bob Goodlatte, Virginia              Ruben Hinojosa, Texas
Duncan Hunter, California            Carolyn McCarthy, New York
David P. Roe, Tennessee              John F. Tierney, Massachusetts
Glenn Thompson, Pennsylvania         Dennis J. Kucinich, Ohio
Tim Walberg, Michigan                Rush D. Holt, New Jersey
Scott DesJarlais, Tennessee          Susan A. Davis, California
Richard L. Hanna, New York           Raul M. Grijalva, Arizona
Todd Rokita, Indiana                 Timothy H. Bishop, New York
Larry Bucshon, Indiana               David Loebsack, Iowa
Trey Gowdy, South Carolina           Mazie K. Hirono, Hawaii
Lou Barletta, Pennsylvania           Jason Altmire, Pennsylvania
Kristi L. Noem, South Dakota         Marcia L. Fudge, Ohio
Martha Roby, Alabama
Joseph J. Heck, Nevada
Dennis A. Ross, Florida
Mike Kelly, Pennsylvania

                      Barrett Karr, Staff Director
                 Jody Calemine, Minority Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on April 17, 2012...................................     1

Statement of Members:
    Kline, Hon. John, Chairman, Committee on Education and the 
      Workforce..................................................     1
        Prepared statement of....................................     3
    Miller, Hon. George, senior Democratic member, Committee on 
      Education and the Workforce................................     4
        Prepared statement of....................................     6

Statement of Witnesses:
    Harmsen, Sandy, executive director, San Bernardino County 
      Workforce Investment Board.................................    27
        Prepared statement of....................................    30
    Moran, Laurie S., president, Danville Pittsylvania Chamber of 
      Commerce; chair, National Association of Workforce Boards 
      (NAWB).....................................................    16
        Prepared statement of....................................    18
    Noble, Norma, on behalf of the Governor's Council for 
      Workforce and Economic Development.........................     8
        Prepared statement of....................................    10
    Van Kleunen, Andy, executive director, National Skills 
      Coalition..................................................    22
        Prepared statement of....................................    24
Additional Submissions:
    Foxx, Hon. Virginia, a Representative in Congress from the 
      State of North Carolina:
        Letter, dated April 16, 2012, from Associated Builders 
          and Contractors (ABC)..................................   102
        Letter, dated April 16, 2012, from Associated General 
          Congractors of America (AGC)...........................   103
    Ms. Harmsen, follow-up statement.............................   119
    Mr. Miller:
        Prepared statement of Richard T. Foltin, Esq., American 
          Jewish Committee.......................................   109
        Prepared statement of the Center for Law and Social 
          Policy (CLASP).........................................   110
        Letter, dated May 4, 2012, from Lac Courte Oreilles......   118
    Ross, Hon. Dennis A., a Representative in Congress from the 
      State of Florida:
        Prepared statement of Dwayne Ingram, Workforce Florida, 
          Inc....................................................   103
    Tierney, Hon. John F., a Representative in Congress from the 
      State of Massachusetts:
        Letter, American Association of Community Colleges 
          (AACC); Association of Community College Trustees 
          (ACCT).................................................    56
        Letter, National Council on Independent Living (NCIL)....    58
        Letter, dated March 8, 2012, from Georgetown Public 
          Policy Institute, Georgetown University................    59
        Press release, dated March 20, 2012, from the National 
          Center for Learning Disabilities (NCLD)................    60
        Letter, dated April 13, 2012, from the National 
          Association of State Directors of Career Technical 
          Education Consortium (NASDCTEc); Association for Career 
          and Technical Education (ACTE).........................    61
        Letter, dated March 25, 2012, from the National Skills 
          Coalition..............................................    63
        Press release from the North Shore Workforce Investment 
          Board..................................................    66
        Letter, dated March 27, 2012, from the Council for 
          Advancement of Adult Literacy (CAAL)...................    67
        Letter, dated April 13, 2012, from the American Library 
          Association (ALA)......................................    71
        Letter, dated March 27, 2012, from the Corps Network.....    73
        Letter, dated April 16, 2012, from the Council of State 
          Administrators of Vocational Rehabilitation............    75
        Letter, dated April 13, 2012, from the Association of 
          Farmworker Opportunity Programs........................    80
        Letter, dated April 16, 2012, from the National Council 
          of La Raza (NCLR)......................................    82
        Letter, dated April 16, 2012, from the Center for Law and 
          Social Policy (CLASP)..................................    84
        Letter, dated April 10, 2012, from the National Job Corps 
          Association............................................    86
        Letter, dated April 16, 2012, from the American 
          Federation of Labor and Congress of Industrial 
          Organizations (AFL-CIO), et al.........................    88
    Walberg, Hon. Tim, a Representative in Congress from the 
      State of Michigan:
        Prepared statement of Michael A. Finney, Michigan 
          Strategic Fund.........................................   106


      H.R. 4297, THE WORKFORCE INVESTMENT IMPROVEMENT ACT OF 2012

                              ----------                              


                        Tuesday, April 17, 2012

                     U.S. House of Representatives

                Committee on Education and the Workforce

                             Washington, DC

                              ----------                              

    The committee met, pursuant to call, at 10:05 a.m., in Room 
2175, Rayburn House Office Building, Hon. John Kline [chairman 
of the committee] presiding.
    Present: Representatives Kline, Petri, McKeon, Biggert, 
Platts, Foxx, Goodlatte, Roe, Thompson, Walberg, DesJarlais, 
Hanna, Bucshon, Gowdy, Roby, Heck, Ross, Kelly, Miller, Scott, 
Woolsey, Hinojosa, McCarthy, Tierney, Kucinich, Holt, Davis, 
Loebsack, Altmire, and Fudge.
    Also present: Representative Hurt.
    Staff present: Katherine Bathgate, Deputy Press Secretary; 
James Bergeron, Director of Education and Human Services 
Policy; Casey Buboltz, Coalitions and Member Services 
Coordinator; Heather Couri, Deputy Director of Education and 
Human Services Policy; Cristin Datch, Professional Staff 
Member; Lindsay Fryer, Professional Staff Member; Barrett Karr, 
Staff Director; Rosemary Lahasky, Professional Staff Member; 
Brian Melnyk, Legislative Assistant; Krisann Pearce, General 
Counsel; Linda Stevens, Chief Clerk/Assistant to the General 
Counsel; Alissa Strawcutter, Deputy Clerk; Brad Thomas, Senior 
Education Policy Advisor; Aaron Albright, Minority 
Communications Director for Labor; Tylease Alli, Minority 
Clerk; Kelly Broughan, Minority Staff Assistant; Jody Calemine, 
Minority Staff Director; John D'Elia, Minority Staff Assistant; 
Ruth Friedman, Minority Director of Education Policy; Livia 
Lam, Minority Senior Labor Policy Advisor; Brian Levin, 
Minority New Media Press Assistant; Megan O'Reilly, Minority 
General Counsel; Julie Peller, Minority Deputy Staff Director; 
Laura Schifter, Minority Senior Education and Disability 
Advisor; and Michele Varnhagen, Minority Chief Policy Advisor/
Labor Policy Director.
    Chairman Kline. A quorum being present, the committee will 
come to order. Today we will examine H.R. 4297, the Workforce 
Investment Improvement Act of 2012. The legislation will 
provide a more dynamic, effective, and accountable workforce 
development system.
    I would like to thank our witnesses for being with us. I 
also want to extend my appreciation to Representatives Virginia 
Foxx, Buck McKeon, and Joe Heck for their continued leadership 
on this issue.
    The committee has spent over a year examining the nation's 
workforce development system. We held four hearings and 
listened as more than a dozen witnesses described the successes 
and weaknesses in a system designed to provide job training and 
employment assistance for America's workers.
    Through these hearings we have learned an expansive network 
of competing programs operated by numerous federal agencies is 
failing to meet the needs of our workforce. Despite an effort 
to establish a unified workforce development system 14 years 
ago, employers and State and local leaders still grapple with a 
bureaucracy that squanders taxpayer resources, stifles 
innovations, and stands in the way of the help and training 
workers need.
    The problems within the current system are staggering. Each 
program has a separate set of rules, reporting requirements, 
and performance measures. Local leaders operating under 19 
federal mandates that dictate who can serve on the workforce 
investment board. Even if it is in their best interest workers 
can be denied immediate access to job training assistance, and 
even though thousands of One Stop Career Centers are spread 
across the country, some services are located in places chosen 
during the 1970s that are inconvenient, if not completely 
inaccessible, for today's workers.
    The systemic flaws help explain why 3.5 million jobs are 
unfilled despite the roughly 13 million Americans still 
searching for work. The Pittsburgh Post-Gazette recently issued 
a news report entitled, ``Manufacturing Jobs Available but 
Skills Rare, Exec Says.'' Similar reports have appeared in 
places like Macon, Georgia; Erie, Pennsylvania; and Green Bay, 
Wisconsin. Workers are needed in fields from truck driving to 
software development to nursing, but employers face a serious 
lack of skilled applicants.
    We are spending taxpayer dollars on red tape and 
bureaucracy instead of the skills and training workers need to 
succeed. During his State of the Union address President Obama 
recognized the need to ``cut through the maze of confusing 
programs,'' and expressed his desire for one program for 
unemployed workers.
    Yet still we see plans for more programs and hear calls to 
defend a fundamentally broken system. Simply doubling down on 
the status quo ignores the problems at hand and is a disservice 
to workers, employers, and taxpayers.
    The recent slowdown in hiring reflected in this month's 
jobs report demonstrates how urgently we need to move in a new 
direction. The Workforce Investment Improvement Act of 2012 
embodies the smart, responsible reforms that are critical in a 
modern job training system.
    The bill consolidates 27 programs into one flexible 
Workforce Investment Fund. If a governor can present a 
responsible plan to consolidate additional job training 
programs he or she is welcome to do so. This will allow us to 
move closer toward the president's goal of one program and 
provide more efficient employment and training services to 
workers.
    The legislation also rolls back unnecessary rules and 
strengthens the role of job creators in workforce training 
decisions. H.R. 4297 requires two-thirds of workforce 
investment board members be employers, helping ensure the 
skills and training offered to workers matches the needs of 
businesses. The bill grants States and local officials 
authority over filling the remaining slots on the board. If 
individuals from labor unions, community colleges, and youth 
organization offer the best voice to represent the local 
workforce they can have a seat at the table.
    Furthermore, the Workforce Investment Improvement Act of 
2012 ensures accountability without burying state and local 
officials in reams of paperwork. Under the bill States would be 
required to adopt a common set of performance measures to judge 
the success of all programs and the Department of Labor would 
be required to conduct an independent evaluation of its 
programs every 5 years. Workers will learn whether these 
programs are effective and taxpayers will know whether their 
money is being well spent.
    There are other positive reforms in the legislation, such 
as providing dedicated funds to assist at-risk youth and 
individuals facing difficult barriers to employment. No doubt 
other issues will be raised throughout the hearing.
    I expect we will also address a proposal introduced by my 
Democrat colleagues, one that offers their priorities for 
reauthorizing the Workforce Investment Act. Both sides 
recognize the challenges plaguing the current system and the 
need for improvement. Ultimately, we have a responsibility to 
advance reforms that will help Americans receive the skills and 
training they need to get back to work.
    I look forward to a lively discussion, a lively debate, and 
will now recognize my distinguished colleague, George Miller, 
the senior Democratic member of the committee, for his opening 
remarks.
    [The statement of Chairman Kline follows:]

            Prepared Statement of Hon. John Kline, Chairman,
                Committee on Education and the Workforce

    Today, we will examine H.R. 4297, the Workforce Investment 
Improvement Act of 2012. The legislation will provide a more dynamic, 
effective, and accountable workforce development system. I would like 
to thank our witnesses for being with us. I also want to extend my 
appreciation to Representatives Virginia Foxx, Buck McKeon, and Joe 
Heck for their continued leadership on this important issue.
    The committee has spent over a year examining the nation's 
workforce development system. We held four hearings and listened as 
more than a dozen witnesses described the successes and weaknesses in a 
system designed to provide job training and employment assistance for 
America's workers.
    Through these hearings, we have learned an expansive network of 
competing programs operated by numerous federal agencies is failing to 
meet the needs of our workforce. Despite an effort to establish a 
unified workforce development system 14 years ago, employers and state 
and local leaders still grapple with a bureaucracy that squanders 
taxpayer resources, stifles innovation, and stands in the way of the 
help and training workers need.
    The problems within the current system are staggering. Each program 
has a separate set of rules, reporting requirements, and performance 
measures. Local leaders operate under 19 federal mandates that dictate 
who can serve on a workforce investment board. Even if it's in their 
best interest, workers can be denied immediate access to job training 
assistance. And even though thousands of One Stop Career Centers are 
spread across the country, some services are located in places chosen 
during the 1970s that are inconvenient--if not completely inaccessible 
for today's workers.
    These systemic flaws help explain why 3.5 million jobs are 
unfilled, despite the roughly 13 million Americans still searching for 
work. The Pittsburgh Post-Gazette recently issued a news report 
entitled, ``Manufacturing jobs available but skills rare, exec says.'' 
Similar reports have appeared in places like Macon, Georgia; Erie, 
Pennsylvania; and Green Bay, Wisconsin. Workers are needed in fields 
from truck driving to software development to nursing, but employers 
face a serious lack of skilled applicants.
    We are spending taxpayer dollars on red tape and bureaucracy, 
instead of the skills and training workers need to succeed. During his 
State of the Union address, President Obama recognized the need to 
``cut through the maze of confusing programs'' and expressed his desire 
for one program for unemployed workers. Yet still we see plans for more 
programs and hear calls to defend a fundamentally broken system. Simply 
doubling down on the status quo ignores the problems at hand and is a 
disservice to workers, employers, and taxpayers.
    The recent slowdown in hiring reflected in this month's jobs report 
demonstrates how urgently we need to move in a new direction. The 
Workforce Investment Improvement Act of 2012 embodies the smart, 
responsible reforms that are critical in a modern job training system. 
The bill consolidates 27 programs into one flexible Workforce 
Investment Fund. If a governor can present a responsible plan to 
consolidate additional job training programs, he or she is welcome to 
do so. This will allow us to move closer toward the president's goal of 
one program and provide more efficient employment and training services 
to workers.
    The legislation also rolls back unnecessary rules and strengthens 
the role of job creators in workforce training decisions. H.R. 4297 
requires two-thirds of workforce investment board members be employers, 
helping ensure the skills and training offered to workers matches the 
needs of businesses. The bill grants state and local officials 
authority over filling the remaining slots on the board. If individuals 
from labor unions, community colleges, and youth organizations offer 
the best voice to represent the local workforce, they can have a seat 
at the table.
    Furthermore, the Workforce Investment Improvement Act of 2012 
ensures accountability without burying state and local officials in 
reams of paperwork. Under the bill, states would be required to adopt a 
common set of performance measures to judge the success of all 
programs, and the Department of Labor would be required to conduct an 
independent evaluation of its programs every five years. Workers will 
learn whether these programs are effective and taxpayers will know 
whether their money is being well spent.
    There are other positive reforms in the legislation, such as 
providing dedicated funds to assist at-risk youth and individuals 
facing difficult barriers to employment. No doubt other issues will be 
raised throughout the hearing. I expect we will also address a proposal 
introduced by my Democrat colleagues, one that offers their priorities 
for reauthorizing the Workforce Investment Act. Both sides recognize 
the challenges plaguing the current system and the need for 
improvement. Ultimately, we have a responsibility to advance reforms 
that will help Americans receive the skills and training they need to 
get back to work.
                                 ______
                                 
    Mr. Miller. Today the committee meets to examine a bill to 
reauthorize the Workforce Investment Act. This is no small 
matter. The need for robust federal investments in the nation's 
workforce is readily apparent. It is made apparent by the rise 
of local competition and it is made apparent by the deep impact 
that the last recession had on the employment opportunities for 
certain populations.
    Those investments need to be smart investments. They need 
to be made efficiently and effectively, ensuring job training 
and employment services to get people--to--get to the people 
who need them. And those services need to reflect the existing 
and future labor market demands.
    We need to demand greater accountability for those 
investments. We need to know whether or not we are working both 
for short-term reemployment needs and for long-term skills 
attainment and credentialing, and we need to support and foster 
innovation in the system, engaging partners and leveraging 
resources.
    Importantly, there is a bipartisan consensus that the law 
in this area needs updating. How the Congress reauthorizes WIA 
is of vital importance to working people, their families, 
businesses, and to our nation's economy. We must get it right.
    And so as we examine the legislation before us there are a 
number of important questions to consider. First, does the bill 
focus sufficient resources toward individuals with the greatest 
barriers to employment? We must not turn our backs on those who 
are in the most need of help from the workforce investment 
system, including workers with low income, the nation's youth, 
individuals with disabilities, English language learners, 
veterans, and long-term unemployed. Equity in the system will 
grow and strengthen the middle class.
    Second, does the bill contain strong accountability 
measures? Does it incentivize programs to improve the outcomes 
for individuals and businesses? Taxpayers must know that these 
programs are producing results. Workers and employers deserve 
to know, as well.
    And those accountability measures cannot be subject to 
gaming. They must not discourage helping those who are the 
hardest to serve.
    Third, does the bill seek to build on the successes to 
avoid replicating failures of the past? Successful innovation 
should be supported and new innovations must be encouraged. 
Inefficiencies must be wrung out of the system, and accurate 
and detailed data should be available to help people tell the 
differences.
    Fourth, does the bill effectively leverage the expertise 
and commitment of all stakeholders? A successful workforce 
investment system must value the voices of employers and 
educators, service providers, and those who represent people in 
need of training.
    Fifth, does the bill provide a vision for long-term skills 
attainment? A successful workforce investment system recognizes 
that mere job placement is not enough. People need careers. A 
system must provide even the lowest-skilled workers with 
pathways toward credentials and marketable skills beyond the 
first job they find.
    Sixth, does the bill effectively gauge the demand from 
industry? A successful workplace investment system is demand-
driven in both the short and long term and it must anticipate 
future needs and drive training toward where the demand is and 
will be. In other words, we should be investing in a real 
workforce development system, not a temporary staffing agency.
    On many of these questions I have serious concerns about 
H.R. 4297. It seeks efficiencies by rolling numbers of programs 
into a single, comingled fund, but in doing so it allows 
limited resources to be diverted away from where they are 
needed the most. Youth--especially the disadvantaged--older 
workers, foreign workers, workers with disabilities, and 
displaced homemakers, English language learners, veterans, and 
low-income workers are among those who face the greatest 
barriers to profitable employment, and yet all of these 
populations face the greatest risk of losing access to services 
under the bill as drafted when funds intended to serve 
different populations are comingled into a secret--a single 
program.
    The bill calls for innovation but it locks out key partners 
in developing that innovation, leaving the system with one hand 
tied behind its back, and in that sense it fails to build on 
what we have learned over the years.
    While the bill takes steps in the right direction I have 
fundamental--I have trouble with the fundamental flaws that I 
have outlined here that need to be fixed and I cannot support 
the bill in its current form. The Democrats understand and 
support the modernizing of WIC to serve--of WIA to serve 
clients more effectively and efficiently. Last month 
Congressman Tierney, Hinojosa, and I introduced a bill to 
reauthorize WIA with those needed reforms, and I hope our bill 
can be as much a part of today's discussion as the Republican 
bill. And I hope that today's hearing can help foster further 
discussion about these different approaches and work together 
toward a bipartisan WIA reauthorization.
    Before we close I would like to recognize the leaders from 
the local Goodwill agencies from Oakland, Los Angeles, Boston, 
Michigan, and San Francisco who are joining us in the audience 
today. Those agencies are examples of how federal investments 
can leverage additional resources and expertise to help get 
people back to work and onto career paths.
    Welcome to this hearing.
    And I welcome our distinguished panel of witnesses and I 
look forward to your testimony and the ability to ask you 
questions when you are done.
    Thank you.
    [The statement of Mr. Miller follows:]

  Prepared Statement of Hon. George Miller, Senior Democratic Member, 
                Committee on Education and the Workforce

    Today, the committee meets to examine a bill to reauthorize the 
Workforce Investment Act. This is no small matter. The need for robust 
federal investments in the nation's workforce is readily apparent. It's 
made apparent by the rise of global competition. And it's made apparent 
by the deep impact the last recession has had on employment 
opportunities for certain populations.
    Those investments need to be smart investments. They need to be 
made efficiently and effectively, ensuring job training and employment 
services get to people who need them. And those services need to 
reflect existing and future labor market demands.
    We need to demand greater accountability for those investments. We 
need to know whether they are working both for short-term reemployment 
needs and for long-term skills attainment and credentialing. And we 
need to support and foster innovation in the system, engaging partners 
and leveraging resources.
    Importantly, there is a bipartisan consensus that the law in this 
area needs updating. How the Congress reauthorizes WIA is of vital 
importance to working people, their families, businesses, and the 
national economy. We must get it right.
    And so, as we examine the legislation before us, there are a number 
of important questions to consider.
    First, does the bill focus sufficient resources toward individuals 
with the greatest barriers to employment? We must not turn our backs on 
those who may need the most help from a workforce investment system, 
including workers with low incomes, the nation's youth, individuals 
with disabilities, English language learners, veterans, and the long-
term unemployed.
    Equity in the system will grow and strengthen the middle class.
    Second, does the bill contain strong accountability measures? Does 
it incentivize programs to improve outcomes for individuals and 
businesses? Taxpayers must know that these programs are producing 
results. Workers and employers deserve to know as well. And those 
accountability measures cannot be subject to gaming. They must not 
discourage helping those who are hardest to serve.
    Third, does the bill seek to build on successes and avoid 
replicating failures from the past? Successful innovations should be 
supported, and new innovations should be encouraged. Inefficiencies 
must be wrung out of the system, and accurate, detailed data should be 
available to help people tell the difference.
    Fourth, does the bill effectively leverage the expertise and 
commitment of all stakeholders? For example, community colleges have 
often played forward-thinking roles in job training programs. A 
successful workforce investment system must value the voices of service 
providers and those who represent people in need of training.
    Fifth, does the bill provide a vision for long-term skills 
attainment? A successful workforce investment system recognizes that 
mere job placement is not enough. People need careers. The system must 
provide even the lowest skilled workers with pathways toward 
credentials and marketable skills beyond the first job they find.
    Sixth, does the bill effectively gauge demand from industry? A 
successful workforce investment system is demand-driven in both the 
short and long term. And, it must anticipate future needs and drive 
training toward where demand is and will be. In other words, we should 
be investing in real workforce development, not a temporary staffing 
agency.
    On many of these questions, I have serious concerns about this 
bill.
    It seeks efficiencies by rolling a number of programs into a 
single, co-mingled fund. But in doing so, it allows limited resources 
to be diverted away from where they are needed most.
    Youth, especially the disadvantaged, older workers, farm workers, 
workers with disabilities, displaced homemakers, English language 
learners, veterans, and low-income workers are among those who face the 
greatest barriers to profitable employment. And yet all of these 
populations face the greatest risk of losing access to services under 
the bill as drafted.
    The bill provides for a stronger accountability system. However, I 
question whether the system works when funds intended to serve 
different populations are comingled into a single program.
    The bill calls for innovation, but it locks out key partners in 
developing that innovation, leaving the system with one hand tied 
behind its back. And, in that sense, it fails to build on what we have 
learned over the years.
    I am also concerned that the bill does not sufficiently recognize 
the critical role that federal workforce investments play in meeting 
longer-term economic needs. Long-term planning to meet future industry 
demand will allow workers to be given careers, not just jobs.
    While the bill takes steps in the right direction, these 
fundamental flaws need to be fixed. I cannot support it in its current 
form.
    Democrats understand the need to modernize WIA to serve its clients 
more effectively and efficiently. For example, we believe WIA must 
streamline access and better align its programs. We need to demand real 
accountability, not subject to gaming, so everyone knows what works and 
what doesn't. We need to strengthen, not water down or eliminate, WIA's 
capacity to help those with the greatest barriers to employment.
    And, we must promote innovation that fully engages partners and 
existing infrastructures like the community college system, so local 
areas can respond more effectively to economic challenges and meet 
future industry needs.
    Last month, Congressmen Tierney, Hinojosa, and I introduced a bill 
to reauthorize WIA with these needed reforms. And I hope our bill can 
be as much a part of today's discussions as the Republican bill. And I 
hope that today's hearing can help foster further discussions about 
these different approaches and help us work together toward a 
bipartisan WIA reauthorization.
    Before I close, I would like to recognize leaders from local 
Goodwill agencies from Oakland, Los Angeles, Boston, Michigan, and San 
Francisco who are joining us in the audience today.
    Those agencies are an example of how federal investments can 
leverage additional resources and expertise to help to get people back 
to work and onto career paths.
    Welcome!
    And I welcome our distinguished panel of witnesses.
    I look forward to your testimony on how Congress can modernize the 
Workforce Investment Act for the benefit of all and move the economy 
forward.
                                 ______
                                 
    Chairman Kline. I thank the gentleman.
    Let me welcome to the committee our distinguished colleague 
from Virginia, Congressman Hurt. Without objection, Congressman 
Hurt will be permitted to participate in our hearing today, and 
I hear no objection.
    Pursuant to committee rule 7(c) all committee members will 
be permitted to submit written statements to be included in the 
permanent hearing record, and without objection, the hearing 
record will remain open for 14 days to allow statements, 
questions for the record, and other extraneous material 
referenced during the hearing to be submitted in the official 
hearing record.
    It is now my pleasure to introduce our distinguished panel 
of witnesses. First, Ms. Norma Noble is the current deputy 
secretary of commerce for workforce development for the State 
of Oklahoma, under Governor Mary Fallin, our former colleague. 
Prior to her appointment in 2003, Ms. Noble served as 
administrative coordinator for Oklahoma City's human resources 
department and center manager of Oklahoma County's Career 
Connection Center.
    Welcome.
    Ms. Laurie Moran is the president of the Danville 
Pittsylvania County Chamber of Commerce in Blairs, Virginia, a 
position she has held since January 2002. Ms. Moran is also the 
chair of the National Association of Workforce Boards and has 
served on the board of directors of NAWB for the past 8 years.
    Mr. Andy Van Kleunen is the executive director of the 
National Skills Coalition, which he founded in 1998 as the 
Workforce Alliance. Prior to founding the coalition, Mr. Van 
Kleunen was director of workforce policy for the National 
Paraprofessional Healthcare Institute.
    Welcome.
    And Ms. Sandy Harmsen is the executive director of the San 
Bernardino County Workforce Investment Board and director of 
the county's Workforce Development Department in San 
Bernardino, California. Ms. Harmsen also serves as the 
executive director for the San Bernardino County Workforce 
Investment Boards, which includes private business 
representatives and public sector partners appointed by the 
county board of supervisors.
    Before I recognize each of you to provide your testimony 
let me once again briefly explain our lighting system. You will 
each have 5 minutes to present your testimony. When you begin 
the light in front of you will turn green; when 1 minute is 
left the light will turn yellow; and when your time is expired 
the light will turn red, at which point I ask that you would 
wrap up your remarks as best as you are able.
    After everyone has testified the members will have 5 
minutes to ask questions of the panel. And as always, I will 
provide more latitude to the witnesses than to my colleagues.
    With that, let's get underway.
    Ms. Noble, you are recognized for 5 minutes.

  STATEMENT OF NORMA NOBLE, DEPUTY SECRETARY OF COMMERCE FOR 
           WORKFORCE DEVELOPMENT, WORKFORCE SOLUTIONS

    Ms. Noble. Good morning. Chairman Kline, and Ranking Member 
Miller, and members of the committee, I am Norma Noble and it 
is my honor to testify on behalf of the Governor's Council for 
Workforce and Economic Development. I have the privilege of 
serving as the deputy secretary of commerce for workforce 
development in the great State of Oklahoma.
    The Workforce Investment Act is, at its very core, about 
jobs. It equips States to attract, retain, and create jobs by 
serving three primary customers: workers, businesses, and the 
governments that serve them. In short, your action is necessary 
to better anticipate and meet the needs of businesses, to 
better educate and train workers, and to empower State and 
regional leaders to be cost-effective, innovative, problem-
solving.
    It has been more than a decade since Congress passed the 
Workforce Investment Act. Today, new challenges confront our 
nation and our economic position in the world. We need bold 
reforms in WIA if our--we are going to equip American workers 
with the skills necessary to remain competitive.
    Workforce development is the biggest issue impeding 
expansion and growth of employers today. In responding to the 
needs of both employers and workers we must have flexibility at 
the state and local levels to best provide services to our 
unemployed and underemployed Americans, getting them back to 
work quickly.
    It is my belief that H.R. 4297 takes a good step in that 
direction. In order to better understand the needs of 
Oklahoma's employers, Governor Mary Fallin led a State 
leadership team in conducting a business climate survey. We 
surveyed almost 5,400 employees and the results were very 
positive: 61 percent of the businesses are adding new products; 
51 percent are upgrading or expanding; 28 percent are adding 
new locations; 75 to 85 percent of the industries are 
optimistic about their future in Oklahoma; 75 to 85 percent 
ranked our postsecondary services as excellent or good.
    Yet, in spite of that and in spite of leading in America's 
childhood--early childhood education and higher than average 
high school graduation and 70,000 career ready certificates, 61 
percent of the businesses in our State rank the availability of 
the workforce as fair or poor. We need game changing.
    In response to the governor's call for game changing, the 
Governor's Council and its partner agencies is implementing 
www.OKJobMatch.com, and this is to provide an online, one-stop 
information and access to workforce programs and services 
across agency and program lines--access for job seekers and 
employers. Employers' needs, however, cannot be simply met by 
improving job matching or labor exchange. Workers need better 
skills and better career pathways to get to those skills.
    Specifically, workforce development needs to be centered on 
increasing an attainment of both degrees and industry-validated 
credentials. We are in a new economy--one in which companies 
and whole industries are being forced to continually adapt to 
rapidly accelerating changes. And workforce systems need to be 
flexible enough to meet and operate at that same rate of speed.
    Some of the key principles that are needed: simplify 
things. I agree with the core assumption in H.R. 4297 that we 
don't need to operate through dozens of separate programs, each 
with its own reporting and management rules. And it also makes 
sense to organize services and workforce boards at the regional 
labor market level.
    We need State and local control, integrating workforce 
development and educational opportunities through a governor-
led, State, regional framework that offers the greatest 
potential for economic expansion. Business-led is a key. H.R. 
4297 provides governors the authority and flexibility to design 
such a delivery system that reflects the economy of our State 
and the neighboring communities within the State that are 
unique for their workforce and their industries.
    Require unified planning. H.R. 4297 begins the process by 
allowing states to take this important step. I would encourage 
the proposal to go further. If consolidation is not being 
implemented I urge you to require unified planning. It is too 
hard for classroom teachers, social workers, job developers, 
rehabilitation staff to bridge their daily activities to 
employer and industry-recognized skills if that is not 
integrated into their expectations and performance systems.
    Manage for results, not process. Workforce development is 
overregulated in--on the process side--lots of monitoring and 
compliance. It underemphasizes performance.
    Be clear about your expected results, but also give us 
increased flexibility about how to retain those results, and of 
course, the funds necessary to do so.
    Integrate adult education and--fully with workforce 
improvement. We need to help the one-third of our workforce 
that have low basic skills. We need to go well beyond just 
literacy and GED attainment; we need to help people obtain 
degrees, credentials, and certificates.
    Restore flexible funds at the State level. Providing States 
with only 5 percent of WIA funds barely covers the cost of the 
required program management. Our employers are driving across 
our State--and some flying--so that they can meet on committees 
for innovation, service delivery, career pathways, and 
policies. We won't be able to implement that if we don't have 
statewide funds.
    I end by saying if we are not going to take workforce 
development serious in our country we are losing--we are 
shortchanging our citizens. We have to have everybody at the 
table. And workforce development is the only federal system 
that provides a mechanism where employers, workforce-related 
agencies, and community partners are there at the table 
designing a system.
    To get it right--if we don't get it right we won't be able 
to recognize or obtain Thomas Jefferson's dream. After all that 
he accomplished--president, statesman, writer of the 
Declaration of Independence and Constitution--at the end of his 
life he said, ``I look to the diffusion of light and education 
as the resource most to be relied on for ameliorating our 
condition, promoting our virtues, and advancing the happiness 
of man.''
    Thank you so much.
    [The statement of Ms. Noble follows:]

Prepared Statement of Norma Noble, on Behalf of the Governor's Council 
                 for Workforce and Economic Development

    Chairman Kline, Ranking Member Miller, and members of the 
Committee: I am Norma Noble and it is my honor to testify on behalf the 
Governor's Council for Workforce and Economic Development. I have the 
privilege of serving as the Deputy Secretary of Commerce for Workforce 
Development in the great state of Oklahoma. While this is my current 
position, I want to share that I previously worked as Director of 
Operation and Director of a local Workforce Investment Board/Private 
Industry Council in central Oklahoma.
    The Workforce Investment Act is, at its very core, about jobs. It 
equips states to attract, retain, and create jobs by serving three 
primary customers: workers, businesses, and the governments that serve 
them. The nation's workforce system as it currently exists requires 
real change on these same three fronts. In short, your action is 
necessary to help better educate and train workers, to anticipate and 
meet the needs of businesses, and to empower state and regional leaders 
to be cost-effective, innovative, problem solvers. It has been more 
than a decade since Congress passed the Workforce Investment Act. 
Today, new challenges confront our nation and our economic position in 
the world. Without bold reforms to WIA, such as program and funding 
consolidation, our workforce system will fall further and further 
behind in our ability to equip American workers with the skills 
necessary to remain competitive in the global economy.
Workers
    Today's modern economy dictates a shift in the way states approach 
the primary component of any workforce development system; the worker. 
States must have the flexibility to implement programs that both serve 
the individual and meet the demands of emerging markets. In short, we 
must be able to match the training and education needs of workers with 
the jobs that actually exist on the ground.
    Our jobs picture has changed from a pyramid to an hourglass.
    <bullet> High Skill Jobs--35% (was 25%)
    <bullet> Middle Income Jobs--27% (was 35%) But--much of this middle 
skilled work will be done by outsourcing and a contingent workforce)
    <bullet> Low Skill, Low Wage Jobs 38% (was 40%)
    <bullet> 82% of manufacturers report a moderate-to-serious skills 
gap in skilled production.
    <bullet> 74% of manufacturers report that this skills gap has 
negatively impacted their company's ability to expand operations.
    <bullet> 69% of manufacturers expect the skills shortage in skilled 
production to worsen in the next 3-5 years.
    Integrating workforce development and educational opportunities 
through a governor-led state-regional framework offers the greatest 
potential for economic expansion and industry competitiveness, while 
providing job growth, stability and career advancement opportunities 
for workers. H. R. 4297 is establishing this framework. It provides 
governors the authority and flexibility to design a delivery system 
that reflects the economy of the state and neighboring communities 
including the unique dynamics of industries and the workforce.
    Our nation cannot afford to separate education and workforce 
development as they are truly one in the same. States have taken the 
lead in developing industry partnerships to educate and train workers 
critical skills in key sectors like energy, healthcare, and 
manufacturing.
    Congress should support these strong state-led public-private 
endeavors by providing governors the authority and funds to cultivate 
these partnerships and engage industry in the delivery and formation of 
worker education and training. Governors need the discretion to 
identify targeted industries and the flexibility to expend workforce, 
education, and economic development assets and resources accordingly, 
and have done so effectively through the use of statewide discretionary 
funds.
    How do you measure success? The numbers trained or even served look 
miniscule when compared with the numbers to be served. And because 
regions within states are as different as states are from each other, 
impact on populations is difficult to obtain in persuasive longitudinal 
numbers. I want to be clear; workforce investment is about jobs and job 
creation. Job creation and growth is about talent development. An 
ongoing system of learning that results in both degrees and credentials 
is central to success of both the workforce and employers as we move 
forward.
Business
    I commend the Committee's proposal to consolidate and streamline 
the delivery and funding of state workforce development programs. 
Today, the number of workforce programs provides an inefficient 
framework that is simply too complex for workers and businesses to rely 
upon.
    Businesses are key to any successful state-based workforce 
development model; that is, just as we must ensure that education and 
training opportunities are tailored to make all workers employable, in 
Oklahoma, we are working hard to also ensure that we are serving our 
businesses. A business-driven approach to workforce development is 
appropriate and helps guarantee that public workforce dollars are spent 
efficiently and the ultimate goal, putting people back to work, is 
attainable.
    Chesapeake Energy, based in Oklahoma City and a global leader in 
energy production, has implemented a revolutionary internship and 
apprenticeship program. The program equips interns and future employees 
with the tools, guidance, mentorship, and education they need to be 
prosperous employees. Chesapeake's program is unique. I have no doubt 
that this success is a direct product of the company's ability to see 
the training process from the very beginning all the way through full 
employment. This company is ensuring that its workers are prepared to 
thrive in accordance with the demands of this 21st century energy 
economy. It uses all of the resources available to it including 
staffing services. Those of us that serve the public workforce 
development system should take heed. This is a prime example of the 
success that can be had when workers, business, and state government 
are empowered with the tools to succeed.
    In Georgetown's recent study for the Southern Growth Policy Board, 
the pressing enigma/conundrum of Oklahoma and similar states is 
discussed. A majority of workers in our workforce are unskilled. A 
majority of the jobs in the labor market are unskilled. The need for 
skilled workers in 2020 will be 57% post-secondary skilled workers. 
Post-secondary graduates today don't see those jobs now so they leave 
the state. Companies who are looking to locate in Oklahoma don't see a 
surplus of post-secondary trained workers now so they are hesitant to 
come. Hence, we proclaim the need for college graduates infuriating the 
employers who are looking for skilled/credentialed workers. A unified 
plan for all workforce/education would show a consolidated assault on 
the problem.
    In my home state of Oklahoma, we've seen this business-driven 
approach succeed.
    Specific Oklahoma examples of collaboration creating systemic 
change, is the way partners are currently working on state policy 
around the issue of career pathways. The intent is to ensure that every 
agency has consistent policy to support this effort. This included the 
education agencies, workforce agencies and social service agencies. 
This is a true systemic approach that will have lasting effect for the 
entire state. This type of work must be done at the state level.
    Likewise, partners are and have been acquiescing around the use of 
the Career Readiness Certificate as a base credential. They are all 
using it in their own agencies and programs--creating a state system of 
assessment and credentialing that employers are recognizing more and 
more.
    In addition, we have seen the ability to better engage employers 
when it is done by industry sector. We have had excellent results with 
industry sector gap analysis in heath care and aerospace. As a result, 
many of our regional areas have also had great success with creating 
strategic plans and conducting business services around industry 
sectors.
    Most recently, the Governor's Council for Workforce and Economic 
Development is working on a comprehensive Workforce Portal that 
includes an enhanced job matching feature. The Governor has endorsed 
this effort and the partners are working jointly to get it implemented. 
A joint application design team, representing all of the agencies plus 
local boards, worked on the format and implementation strategy and it 
is now being implemented as www.OKJobMatch.com.
    Developing this deep level of partnership at the state and local 
level would not have been possible without a strong business led state 
board, and flexible funding through the statewide activities funds.
Good Government and Governance
    Effective workforce development programs require state and local 
governments to have the flexibility to provide needed services. 
Oklahoma embodies this reality. As a state with disparate economic 
conditions driven by geography, we need the ability to implement 
regional solutions for regional problems. Today, we do not have that 
flexibility.
    For example, western Oklahoma has experienced extraordinary growth 
as a result of an abundance of energy resources both renewable and 
fossil fuel. As a result, the regional unemployment rate is roughly 
three percent. In southeast Oklahoma, however, poverty is prevalent and 
unemployment ranges 9 to 12 percent. Fortunately, the Oklahoma 
Department of Commerce recognizes these differences. Unfortunately, the 
federal law does not.
    A ``one size fits all'' or ``cookie cutter'' approach to funding, 
state board composition, planning areas, and the like are simply 
untenable. States need more flexibility, not less. In Oklahoma, we 
heavily relied upon the governor's set-aside to support successful 
innovation. In fact, many of today's best ideas were germinated through 
governors' WIA set-aside funds, such as state sector strategies, green 
jobs programs, and innovations in public-private partnership. The set-
aside funds are the only federal funding available at the state level 
under WIA and comprise the most flexible funding under the statute. 
Matching funds from other state sources and from the private sector 
enhance the impact of the set-aside funds and strengthen the ownership 
and involvement of businesses, industries, and communities in the state 
workforce development system. Like many of my colleagues across the 
country, I am deeply concerned about the reduction in the governors' 
set-aside for statewide activities. This could have a chilling impact 
on workforce innovations and most importantly, at a time of continuing 
economic hardship, the reduction in the governors' set-aside for 
statewide activities will make it more difficult for Americans to get 
back to work.
    Skills the Energy Industry wishes were taught:
    <bullet> New technical graduates:
    Organization skills, platform skills, team management, time 
management, leadership
    <bullet> New non-tech graduates:
    Math aptitude, finance and economics, leadership, collaboration and 
conflict management. Simple to fix? Maybe, but it requires industry, 
education, a convening WIB, and partners to do so.
    Flexibility at the state and local level is needed to best provide 
services to unemployed and underemployed workers and others in the 
talent pipeline. We must help them get back to work quickly and fill 
the workforce needs of industries that are in demand in our state. This 
is a K-20 connection to industry and economic development. It is our 
belief that HR 4297 takes a good step in that direction.
Conclusion
    Workforce development is complex. The driving question for those of 
us who work in the workforce development arena everyday must always be, 
``what does it take to get everyone employable and a good paying job?'' 
In the same vein, we also hear the very real concerns of business, 
which asks ``why does it take so long for the pieces to come together 
and for us to find talent?'' Oklahoma has seen success in the state's 
private sector, and the nationwide public workforce development system 
should take note.
    In closing, the Workforce Investment Act, at its core, is about 
jobs. If there was ever a time for a ``must pass'' piece of 
legislation, now would be that time to fix America's workforce system 
and get America back to work. The Workforce Investment Improvement Act 
like its predecessor is in fact the only federal legislation that 
provides a formal mechanism to put all of the players at the table: 
employers, workforce-related agencies, community partners and citizen 
representatives to design a talent development system for its state and 
regions.
    If we don't get it right, we cannot realize Thomas Jefferson's 
dream. Mr. Jefferson had been through the Revolutionary War, the 
framing of the Declaration of Independence and the United States 
Constitution, served as President of the United States and Ambassador 
to other nations. But, at the end of his life, he said, ``I look to the 
diffusion of light and education as the resource most to be relied on 
for ameliorating the condition, promoting the virtue and advancing the 
happiness of man''. (1822)
The Need for Funding Statewide Activities
    We have hard questions: What is ready to work? How can employer 
credentials pair with education, common core, STEM requirements and new 
legislation for workforce agencies? How can we achieve the American 
Dream: A Job! 5% unemployed in Oklahoma is really 15%. Fourteen percent 
unemployment for Veterans is really 25% and if you are between 18-25 it 
is as high as 50%. How can we restore HOPE to these Americans that they 
will get a job to our businesses that we can supply them with quality 
workers.
    In Oklahoma we have used statewide funding to provide planning 
tools (i.e., EMSI) and consultants for local areas, Industry Sector 
Reports, evaluations, regional planning, Certified Work Ready 
Communities, Regional Industry Sector Partnerships, support Career 
Pathway pilots, establish Business Service teams, incent OJT and 
internships, enhance infrastructure, statewide licenses for WorkKeys 
and KeyTrain to increase baseline credentialing for Oklahomans. Other 
states have carried out similar projects that make their citizens more 
employable and their economies more viable.
    Without statewide funding the potential is to have duplicative 
infrastructures in each WIB area. Local WIB representation is at both 
our State Council and our inter-agency staff team. We have a shared 
outcome system. The attached Strategic Plan of the Governor's Council 
for Workforce and Economic Development further illustrates this 
structure and shared-outcome system.
    We have some of the partnerships but we also have barriers. We ask 
that you remove the legislative barriers to innovation, efficient 
service delivery, employer validated credentials and career pathways. 
H. R. 4297 is great step toward achieving this end.
  governor's council for workforce and economic development strategic 
                                  plan
    The Governor's Council for Workforce and Economic Development has 
developed a strategic plan. As you can see WIA is not the only work of 
the Council. We are working to develop systemic policies that bridge 
economic development, education and workforce programs/services.
    The Council's plan is the result of employer focus groups, Game 
Changer committee work and other stakeholder group participation.
    Overarching Issue: Workforce/Talent Development is complex and 
convoluted. There are many players with sometimes competing agendas. 
But, at the end of the day, we need talent that meets Oklahoma employer 
skill/credential needs now and into the future.
Overarching Theme/Vision:
    1. Oklahoma employers can expect that graduates of Oklahoma 
education/training programs have the skills and credentials they need 
and are work ready.
    2. Oklahoma will be able to supply the workforce needs of current 
and future Oklahoma employers.
Goals:
    1. Improve the outcome of Oklahoma skill development systems 
through the use of on-line tools and data bases that will improve 
efficiency and measure effectiveness.
    2. Increase credentials, certificates and skills by deepening the 
public/private partnerships that will improve the match between 
employer-demanded skills and the skills of job applicants through the 
use of Career Pathways and Career Readiness Certificates.
Strategies for Achieving these Goals:
    1. Develop common outcomes: Joint planning/development of a 
business plan that includes outcomes and metrics that all partners play 
a part in meeting--for the good of the state of Oklahoma's business 
retention, expansion and attraction efforts:
    Examples:
    a. What is Work Ready? Common definition and metric
    b. More direct & systemic involvement by employers in P-20- Adult/
education and training issues and in establishing desired outcomes.
    c. % increase in employer validated credentials and degrees 
obtained
    2. Implement/expand on-line/virtual systems and processes: In order 
to provide efficient and effective service delivery, and to link and 
leverage various programs, we MUST have common virtual tools and a 
linked longitudinal data system. This includes a portal that will 
provide a single access to talent and services available to employers 
and a ``data base'' or some process that will more readily provide 
information, including real time information, on talent supply and 
demand.
    3. Develop and implement career pathways: Career Pathways is an 
organizing process that can link employer validated credential and 
degree needs to the education and training supply chain. This would 
involve public/private regional partnerships between employers and 
service providers. This will ensure that the workforce pipeline will 
support business retention and attraction.
    4. Re-invent workforce investment boards and one-stop career 
centers: Defining their role, enhancing their efforts to engage 
employers by sector within regions. Involving all system partners and 
creating WIN-WIN and value added regional planning and service delivery 
system. Workforce boards include a majority of employer members. If 
properly constituted and functioning, these employers can provide a 
great foundation for regional partnerships. Certified one-stops will 
ensure that a standard of service exist and partners are connected 
within a region in order to provide coordinated service delivery.
Action steps being taken/Recommended through Committees:
    Data/Portal Committee:
    1. Fully implement OKJobMatch.com. Replace the current Job Link 
system with OK Job Match in order for OK Job Match to become the new 
state labor exchange system.
            Current Status
    a. Job seeker portal fully up and operational. Resume numbers are 
increasing. Currently, total accounts are at 5,000. Thanks to all 
partners for promoting this, and using the posters, business cards and 
other education and outreach materials.
    i. OESC and ODOC staff are working with the vendor to convert and 
use Job Match in place of Job Link and open up the employer module.
    b. Test version available to OESC/ODOC by May 1, 2012
    c. INITIAL TEST: Small pilot group (5-10 companies/
employers+OESC+ODOC) performs initial testing for 7-10 days
    d. RE-DEVELOPMENT: Vendor makes changes pursuant to test (2-5 days)
    e. BETA-TEST: Small pilot group (same as above) retests the system 
for 7-10 days
    f. FINAL DEVELOPMENT: Vendor makes changes pursuant to beta-test
    g. MODULE DEPLOYMENT: Mid-Late May 2012; Focus will be on self-
service employers; Employers can tap OK talent pool; Added ability to 
search for those with military experience
Contingency:
    h. Legislation signed that allows OESC Data to be shared with a 
private entity.
    i. Talent pool (job seeker resumes) is closer to a critical mass 
recommended at 30,000 (this will occur when current Job Link resumes 
are quality checked and included in OKJobMatch.com system.)
    j. As needed, a ``stand alone'' version of the employer portal may 
be implemented for the Veterans connection project. (Assisting 
returning veterans and connecting them to jobs.)
    2. Establish a state workforce portal. This portal will ultimately 
provide on-line one-stop information and access to workforce programs 
and services across agencies and program lines. This will incorporate 
the current OKCareerPlanner.com site. It will also include the menu of 
Workforce employer services requested by employers in the employer 
focus group/survey report ``Building Blocks for an Employer-Responsive 
Workforce System''.
Current Status
    a. OKWorks.org ( www.okworks.org). Has been established as the 
state workforce portal. While it is now live--it is just the beginning 
and will be continuously improved. It will take users to OKJobMatch.com 
for job search help.
    b. OKMilitaryConnection.com (www.okmilitaryconnection.com) has been 
established to provide military specific information and services to 
our returning military personnel. OKMilitaryConnection.com will take 
people to OKJobMatch.com for job matching.
    3. Develop plan and cost estimates for an enterprise system.* This 
would include connecting to the P-20 data system. (This is probably a 2 
year+ process. The expectation for 2012 is to develop the plan, 
including cost estimates and develop the needed agency agreements.)
---------------------------------------------------------------------------
    * Enterprise system = an on-line integrated program information 
system. It would connect workforce data with education data for better 
decision making, provide a common data pool and more efficiently 
deliver on-line services via use of KIOSK. It would provide clients a 
tool to help them determine what programs/services they might be 
eligible for and how and where to apply.
---------------------------------------------------------------------------
Current Status
    a. A $6 million DOL grant proposal for a longitudinal data system 
has been submitted that would include most of these efforts. Also, a $1 
million DOL grant proposal for a Workforce Innovation fund grant has 
also been submitted. It would help support some of this effort as well.
Career Pathways Committee:
    1. A statewide framework for career pathways is adopted.
    2. Career pathways are formally integrated into the K-20 education 
system.
    3. Effective career pathways practices are part of every student's 
education, beginning with career awareness and career exploration in K-
8. Before a student enters the 9th grade, all students and their 
parents/guardians in every school receive career counseling assistance 
that leads to a meaningful individual career and education plan, 
including requirements needed for post-secondary education.
    4. Trained career navigators are available in every partner agency 
to help clients, dislocated workers, and other adults seeking workforce 
assistance make training and education decisions based on a career 
pathway model.
    5. An effective messaging plan is in place to help create awareness 
and buy-in.
    6. All regions are working on at least one career pathway,
    7. In workforce-related state agencies, including all levels of 
education, policies that support the integration of career pathways are 
in place and are reviewed on a regular basis.
    8. Provide technical assistance and support to regions in their 
career pathways efforts (i.e., tool kits, process guides, best 
practices, etc.)
    9. The National Association of Manufacturing (NAM) Skills 
Certification System is the basis for all manufacturing career pathway 
initiatives, including the National Career Readiness Certificate 
(NCRC).
    10. Pilot the manufacturing pathways initiative in one or more 
regions.
Communications Committee:
    1. Develop and distribute talking points through the State Chamber 
to encourage employers to contact legislators regarding funding for 
Career Readiness Certificates (WorkKeys) and KeyTrain.
Key Messages to Stress:
    a. CRC is about job creation;
    b. CRC demonstrates ROI for employers in terms of retention, 
reduced training/re-training, and finding, hiring, and promoting 
qualified employees;
    c. Job seekers receive a credential now endorsed nationally by the 
National Association of Manufacturers, National Institute of 
Metalworking Skills, the Manufacturing Institute, and by local 
employers and education/training providers; the CRC is a foundational 
credential for manufacturing and aerospace programs and required for 
employment in these sectors.
    d. CRC is being used as an alternative to End of Instruction tests; 
Shawnee example (small school district) 15 students, who would have 
failed to receive a high school degree, have a diploma and a CRC 
because of the use of KeyTrain and WorkKeys at their school.
    2. Talking points will be used as a blog entry discussing the 
importance of the CRC for SHRM (Society for Human Resources 
Management).
    3. Prepare an information packet for the SHRM-sponsored Ready to 
Work Conference, stressing how the CRC can help employers improve 
retention and find qualified employees.
    4. Update the Communications Plan with a new focus on use of social 
media, blogs and other current communications strategies.
    5. The updated plan will be a living document that will guide the 
communications activities, products and deliverables.
Workforce Systems Oversight Committee:
    1. Re-certify Workforce Investment Boards based on revised policy
    2. Initiate a one-stop evaluation process including survey and on-
site visits to help inform certification, continuous improvement and 
one-stop certification processes.
    3. Initiate a one-stop certification process. One-stop 
certification intended to be a joint effort of all partners, to provide 
one-stop standards for consistency, and to help provide stakeholder 
buy-in, and create service delivery efficiency.
    4. Identify and conduct service delivery efficiency pilot 
projects--to see what works.
    5. Continue to research and identify operational and organizational 
strategies that will help make Workforce Boards stronger and service 
delivery better (in conjunction with Data/Portal committee work).
    6. Revise the State Plan that is due this year to the Department of 
Labor using the Council's plan of work as a guide.
    7. Work with regional areas to develop regional planning 
documents--in conjunction with regional partners.
                                 ______
                                 
    Chairman Kline. Thank you.
    Ms. Moran, you are recognized.

  STATEMENT OF LAURIE MORAN, PRESIDENT, DANVILLE PITTSYLVANIA 
                   COUNTY CHAMBER OF COMMERCE

    Ms. Moran. Chairman Kline, Ranking Member Miller, and 
members of the committee, I am Laurie Moran. I am president of 
the Danville Pittsylvania County Chamber of Commerce, which is 
located in Virginia on the North Carolina border, and I am the 
chair of the National Association of Workforce Boards.
    I want to applaud members of the committee from both sides 
of the aisle for introducing Workforce Investment Act, WIA, 
reauthorization bills this year. I would like to strongly 
encourage WIA reauthorization to become a bipartisan process 
moving forward as supplying the needs of short-term and long-
term unemployment and employment of our nation should be the 
shared goal of all of us in business, workforce, and for 
members of Congress.
    It has been 15 years since WIA was enacted. The original 
legislation was designed in a very different time, when our 
nation had low unemployment and employers were starving for 
workers at all levels in our workforce. Our nation's core 
workforce legislation needs to be upgraded to ensure that 
employers have the opportunity to find and hire skilled workers 
and that job seekers have a chance to regain employment in a 
difficult market.
    As chamber president I represent a predominantly rural 
region whose economy was built on tobacco and textiles, which 
created significant challenges when both sectors simultaneously 
fell into decline. Our chamber has been actively engaged in 
workforce development for the past decade, working closely with 
our workforce investment board to develop strategies--
strategies that are employer-driven with training dollars 
allocated for in-demand occupations.
    For the past 2 years our chamber has subcontracted with our 
one-stop operator to provide business services by connecting 
employers to employees, saving our employers time and reducing 
their cost. Our partnership is making a difference in our 
community.
    I am also chair of the National Association of Workforce 
Boards, NAWB, which is comprised of business-led workforce 
investment boards from around the nation. During my tenure as 
board chair of NAWB we have actively reached out to over 100 
local chambers of commerce from across the country, 
representing over 70,000 employers who employ nearly 5 million 
workers. These chambers have indicated that workforce 
development is a top concern for their businesses.
    Today the workforce system faces competing challenges. 
Employers are desperately seeking to fill 3.5 million skilled 
jobs that are currently vacant while millions of Americans are 
unemployed or underemployed due to the recession's lingering 
effects and due to job seekers lacking employable skills. We 
believe that a reauthorized WIA bill this year will help both 
job seekers and employers.
    The committee has a copy of NAWB's priorities for WIA 
reauthorization, so today I want to highlight a few of the 
guiding principles which we hope will be included in any 
legislation that is enacted.
    First, we believe that the workforce development system 
should continue to be governed by effective, business-led 
workforce investment boards that make data-driven decisions. 
Business-led boards are in the best position to understand the 
dynamics of local economies and labor markets.
    Second, we believe that local boards should determine how 
much of their WIA funding is devoted to training based on their 
local labor market needs. The focus should be on outcomes 
rather than on a mandated method to achieve our outcomes. Local 
boards are best positioned to help get people back to work and 
allocate resources based on those local needs.
    We also believe that additional funds leveraged for 
training from other resources, such as Pell Grants, 
philanthropy, or private sector investments, should be 
reflected in WIA reporting to provide a fuller sense of the 
amount of training being provided through the workforce system.
    Finally, whether it is the efforts to return the long-term 
unemployed back to work or training that leads to the startup 
of businesses, the successes that we celebrate across this 
great nation are all important and many are specific to their 
local communities. Previous WIA legislation was crafted to 
maintain the delicate balance between States and local areas. 
As the committee moves forward we believe that it is imperative 
that there be a collaborative process between the States and 
local areas for both automatic designation of WIBs and single 
State designation.
    On behalf of NAWB and on behalf of the Danville 
Pittsylvania County Chamber of Commerce, we look forward to 
working with all members of the committee to support a bill 
that incorporates these core principles. For 40 years programs 
and funding for workforce initiatives and skills development 
have received bipartisan support. The future of our workforce 
is not a political party's issue; it is America's issue.
    Thank you for allowing me to have the time to speak today.
    [The statement of Ms. Moran follows:]

Prepared Statement of Laurie S. Moran, President, Danville Pittsylvania 
 Chamber of Commerce; Chair, National Association of Workforce Boards 
                                 (NAWB)

    Chairman Kline, Ranking Member Miller, and the Members of the 
Committee. I am Laurie Moran, and I am here representing two 
organizations. I am President of the Danville Pittsylvania County 
Chamber of Commerce, which is located in Virginia on the North Carolina 
border, and I am also the Chair of the National Association of 
Workforce Boards.
Danville Pittsylvania County Chamber of Commerce
    The Danville Pittsylvania County Chamber of Commerce is a local 
chamber of commerce with approximately 700 business members. 85% of our 
members are small businesses with 50 or fewer employees. Our chamber is 
located in a predominantly rural region that spans more than 1,000 
square miles with a population of 106,561. The economy was built on 
tobacco and textiles, which created significant challenges when both 
sectors simultaneously fell into decline. From 2001 through 2011, our 
region's unemployment was one to two percentage points higher than the 
national average and four to five percentage points higher than the 
average for the Commonwealth of Virginia. In the past 12 months, our 
region's unemployment has been consistent with the national average; 
however, we are still averaging an unemployment rate that is two to 
three percentage points higher than the state's.
    With a labor force of 51,000, we have approximately 6,000 
unemployed and 5,700 underemployed. 25% of the adult population does 
not have a high school diploma or GED. Only 14% has a bachelor's degree 
or higher.
    In 2001, our chamber of commerce was formed from the merger of two 
chambers. At that time, the chamber's board of directors identified 
workforce development as the top priority for our region. Through the 
focus of our board and through our involvement in our local workforce 
investment board, our chamber has been actively engaged in workforce 
development for the past 11 years. Our chamber advocated for 
improvements to our local workforce system at a time when our region's 
system was ineffective. Today our workforce investment board is 
employer-driven with training dollars allocated for in-demand 
occupations in our region. Decisions are based on labor market data. We 
have two comprehensive one stop centers in our workforce region, which 
house the WIA programs, the employment commission, vocational 
rehabilitation, and representatives from adult education and the 
community college system.
    For the past two years, our chamber has subcontracted with our one 
stop operator to provide business outreach for Danville and 
Pittsylvania County. Our chamber has a full-time staff member who is 
dedicated to connecting employers to employees, saving our employers 
time and reducing their costs. We have assisted employers with 
recruitment through job fairs, job registration, and pre-employment 
screening. We have placed WIA clients with private sector employers 
through job placement, work experiences, and on-the-job training 
opportunities. We have worked with employers who required customized 
and incumbent worker training. We have conducted wage and benefit 
surveys. We also have a proactive layoff aversion strategy to assist 
employers. In the past two years, we have met with over 200 employers 
and regularly share feedback to assist the workforce investment board 
in shaping policy and strategies that meet the needs of our employers.
National Association of Workforce Boards (NAWB)
    The National Association of Workforce Boards (NAWB) represents 
business-led Workforce Investment Boards (WIBs) that coordinate and 
leverage workforce strategies with education and economic development 
stakeholders within their local communities to ensure that state and 
local workforce development and job training programs meet the needs of 
employers.
    NAWB connects workforce development professionals, workforce 
investment board members, and policymakers with the knowledge, 
training, and tools to help make informed, smart decisions about how to 
invest in workforce strategies that advance the economic health of 
their communities through a skilled, competitive workforce. These 
investments in workforce development create a comprehensive system to 
provide America with a highly skilled workforce that competes in the 
global economy.
    Nationally, there are over 550 local WIBs, with each state also 
having a state workforce investment board. These boards are required to 
be both business majority and have a business chair. Over 12,000 
employers volunteer their time to serve on local and state WIBs.
    Our surveys tell us that the vast majority of local WIB members are 
small employers with less than 250 employees that reflect the local/
regional labor markets the WIBs oversee. While these volunteer business 
leaders represent all sectors of the economy, they have one common 
bond--putting Americans back to work and helping employers compete. As 
WIB members they direct the gathering and analysis of labor market 
needs and trends; communicate these findings to policy makers, 
employers, training providers, and job seekers; plan the investment 
strategies for federal and state dollars; and track outcomes to prepare 
their workforce for the skills needed in their local and regional 
economies.
Bridging the work of workforce boards and chambers of commerce
    I was appointed to my local workforce investment board 11 years ago 
where I have served as chair and continue to serve on the executive 
committee. I do not believe that I am an anomaly in my profession. I 
believe that if you look at workforce boards across our country, you 
will find many local chambers of commerce represented on their boards 
and engaged in meaningful collaboration in the area of workforce 
development.
    During my tenure as board chair of NAWB, we have actively reached 
out to local chambers of commerce to ensure that the voice of the 
business community is heard by the workforce system. Our outreach 
efforts have included over 100 local chambers from across the country, 
representing over 70,000 employers who employ nearly five million 
workers. These chambers have indicated to us that workforce development 
is a top concern of their business members.
    It is because of the strong partnership that my chamber of commerce 
shares with our local workforce investment board that I became chair of 
the National Association of Workforce Boards.
The need for reauthorization
    On behalf of both organizations I represent today, I want to 
applaud Members of the Committee from both sides of the aisle for 
introducing Workforce Investment Act (WIA) reauthorization bills this 
year. I have been asked to comment today on H.R. 4297, but strongly 
urge that WIA reauthorization is a bipartisan process moving forward as 
supplying the needs of short-term and long-term employment of our 
nation is the goal of all members of Congress.
    We encourage the Committee to move forward in partnership in this 
effort. It has been fifteen years since WIA was enacted. The original 
legislation was designed in a very different economy and time when our 
nation had low unemployment and employers were starving for workers at 
all levels in our workforce.
    Workforce legislation needs to be upgraded and the bill that is the 
subject of today's hearing makes major strides to ensure that employers 
have the opportunity to hire skilled workers and that jobseekers have a 
chance to regain employment in a difficult job market.
The dual challenges facing our workforce system today
    Today the workforce system faces competing challenges. Employers 
are desperately seeking to fill 3.5 million skilled jobs that are 
currently vacant, while millions of Americans are unemployed or 
underemployed due to the recession's lingering effects and due to job 
seekers lacking employable skills.
    Workforce boards from around the nation have been on the front 
lines of this effort to help both employers and job seekers. The most 
recent annual data from the Department of Labor (DOL) indicates that 
nearly 8.7 million job seekers nationally have utilized WIA services--
an amazing 252% increase over the past three years despite dwindling 
federal investments to pay for these services. Along with the increase 
in utilization of WIA services, the success of WIA programs is measured 
through results. Over 55% of WIA program participants--over 4.7 million 
individuals--were placed in jobs this past program year despite the 
fact there are over four job seekers for every available job.
    Most importantly, employers find value in the services from WIA as 
DOL's annual data indicates that nearly eight out of ten employers are 
satisfied with the services they have received from the workforce 
system.
    The workforce system, however, is far from perfect. Clearly, we 
would like to have more resources available so that more job seekers 
could benefit from training services. In addition to direct tuition 
dollars, WIBs provide support services such as transportation vouchers, 
books, supplies, testing fees, placement, counseling, and services for 
health, housing, and childcare to ensure the individual not only 
completes training but enters and retains employment. Additionally, 
WIBs monitor their clients up to one year after job placement.
    We believe that a reauthorized WIA bill this year will help both 
job seekers and employers. The Committee has a copy of NAWB's 
priorities for WIA reauthorization, so today I want to highlight a few 
of the guiding principles which we hope will be included in the any 
legislation that is enacted:
Business-led workforce investment boards
    We believe that the workforce development system should be governed 
by effective business-led workforce investment boards that make data-
driven decisions. Business-led boards are in the best position to 
understand the dynamics of local economies and labor markets. They 
possess the innate ability to determine where investment of monies 
committed to workforce development will support and contribute to the 
success of dynamic regional labor markets.
    We believe that business-led boards with input from across a 
community's efforts in transportation, housing, education, and from its 
citizens are in the best position to ascertain and align investment 
decisions and hold providers accountable for outcomes.
    We also support a reduction in the size of the workforce investment 
boards, which we believe will help to attract higher caliber private 
sector board members. For boards to have the greatest productivity and 
creativity with participation by all members, boards must be manageable 
in size. We appreciate H.R. 4297 strengthening the business engagement 
in state and local workforce decisions.
    While there are many boards across the country that are doing great 
work despite their cumbersome size, it takes tremendous effort, focus, 
and vision for these boards to change a culture of agency-driven to 
employer-driven.
Flexibility over use of funding at the local level
    The needs of locales and regions across the U.S. vary 
significantly. While the economy has improved in some areas, there are 
many areas where unemployment is still stubbornly high. One size does 
not fit all. Job seekers who lost jobs during the 'dot-com' crash did 
not have the same workforce needs as job seekers who lost jobs when 
textiles moved offshore.
    Because of the role of local workforce investment boards, the local 
boards are best positioned to make informed decisions about the 
allocation of funds at the local level. We are in agreement with the 
provisions in H.R. 4297 that allow local boards to determine how much 
of their WIA funding is devoted to training based on their labor market 
needs. The focus should be on outcomes rather than on a mandated 
percentage of training. If the goal is to get people back to work, then 
the local boards should know if their labor pool requires minimal 
support through core and intensive (non-training) services, which 
include advanced assessment, basic skills remediation, and work 
readiness or whether they need enhanced skills and training to help job 
seekers enter/retool to reenter the workforce.
    We also believe this will encourage the continuation and expansion 
of funds leveraged from other sources, including federal resources such 
as Pell grants, TANF employment and training, or non-federal resources 
such as philanthropy or private sector investments. We would encourage 
WIA reporting to reflect non-WIA funds that local WIBs leverage or 
receive and the workforce training and/or services that are delivered 
as a result of non-WIA funds. In a time of limited resources, we 
believe that there should be a process to reward those boards that are 
collaborative and innovative in working beyond WIA funding to leverage 
additional resources for job training and/or placement.
    There are numerous examples of WIBs leveraging private and 
foundation funding to increase their ability to serve employers and job 
seekers.
    The WorkPlace, a WIB in southwest Connecticut, was featured on 60 
Minutes in February for an innovative initiative that addressed 
individuals with 99 weeks of unemployment. The Workplace raised over 
$500,000 from private investors to implement Platform to Employment 
(P2E), an eight-week work experience program. After five weeks of 
classroom training that includes a self-assessment, change management, 
effective communication, and successful job search strategies, 
individuals are placed on The WorkPlace's payroll, eliminating the 
expenses and risks businesses associate with hiring a new employee and 
allowing businesses to evaluate and consider job candidates. Within 
weeks after completion of the program, over 70% of P2E participants 
were placed in employment. This is significant when you consider that 
individuals with 99 weeks of unemployment have less than a 10% chance 
of finding employment within a month.
    In our region over the past three years we have secured over $2 
million in non-WIA funds to support workforce development initiatives. 
Our WIB is working collaboratively to leverage funding and/or training 
through local foundations, our community colleges, the Virginia Tobacco 
Commission, and our employers. Funds have been targeted for sector 
strategies in healthcare, advanced manufacturing, energy, and 
information technology. Initial training efforts have focused on energy 
auditors and manufacturing technicians. In addition to providing 
industry-recognized credentials to participants that assisted in job 
placement and advancement, we've also had three businesses start up as 
a direct result of the training.
The importance of local decision-making
    Whether it's the efforts to return the long-term unemployed back to 
work or training that leads to the start-up of businesses, the 
successes that we celebrate across this great nation are all important, 
and many are specific to their local communities. Employer-led boards 
that have local decision-making authority and funding flexibility to 
invest resources in the most relevant areas will be those boards that 
represent regions that thrive. Previous WIA legislation was crafted to 
maintain the delicate balance between states and local areas. As the 
Committee moves forward, we believe that it is imperative that there be 
a collaborative process between the states and local areas for both 
automatic designation of WIB's and single state designation.
    I don't have to look at other states to see the diversity of 
challenges and opportunities that face our workforce system. I can 
simply look at my own state, the Commonwealth of Virginia. While 
Northern Virginia struggles with gridlock, my neighbors complain when 
the one stoplight in our town is red. But for job seekers in my town 
who are unemployed and have no car, the lack of gridlock also signals 
the lack of public transit to get to a job interview or to get to work. 
When Northern Virginia deals with its unemployed, statistically their 
job seeker is college-educated as 55% of the population has a college 
degree. When my region discusses the education levels of our 
unemployed, more than 50% of our job seekers have a high school 
education or less. I'm not sharing our differences to insinuate that 
one situation is better than the other. We're simply different which is 
why workforce decisions need to be made at the local level to address 
the needs of employers and job seekers who are local.
    Our regions require innovative solutions that utilize the insight 
and investment acumen of business leaders in collaboration with elected 
officials, economic development professionals, educators, and other 
workforce partners.
    This past weekend, Danville hosted 700 MBA students who were 
competing in the Duke MBA World Rugby Tournament. 30 teams representing 
six nations were in Danville for three days. To many people, it was a 
sporting event. For our local workforce investment board, the chamber 
of commerce, economic development office, a foundation, employers, and 
other workforce partners, it was a recruitment event. We set up an 
information booth, utilized young professionals who work in our region 
to help us market our region, and gathered information to determine 
which students might have an interest in returning to Danville for an 
internship, a job, or a site location for their future business. Where 
else would this type of innovative thinking occur but around a local 
table with business and economic development leaders discussing talent 
recruitment?
Thank you
    Thank you for the opportunity to testify before the Committee. I've 
told just a little of the story. There are hundreds of stories about 
local solutions at www.WorkforceInvestmentWorks.com.
    On behalf of NAWB and on behalf of the Danville Pittsylvania County 
Chamber of Commerce, we look forward to working with all of the Members 
of the Committee to support a bill that incorporates these core 
principles. For 40 years, programs and funding for workforce 
initiatives and skills development have received bi-partisan support. 
The future of our workforce is not a political party's issue. It's 
America's issue. We strongly encourage bi-partisan support for WIA 
reauthorization.
    Thank you again for allowing me this time today.
                                 ______
                                 
    Chairman Kline. Thank you.
    Mr. Van Kleunen?

  STATEMENT OF ANDY VAN KLEUNEN, EXECUTIVE DIRECTOR, NATIONAL 
                        SKILLS COALITION

    Mr. Van Kleunen. Thank you. Chairman Kline, Ranking Member 
Miller, members of the committee, National Skills Coalition is 
a national network of business leaders, union affiliates, 
community colleges, community-based organizations, and public 
workforce agencies who want to see every worker and every 
industry in this country gain the skills they need to compete 
and prosper. On behalf of those members, I want to thank you 
for inviting me to testify today and for your efforts to 
strengthen and modernize the Workforce Investment Act for the 
21st century.
    We are encouraged that this issue has prompted introduction 
in this committee of two comprehensive reform bills. While 
these bills share some common goals they adopt significantly 
different approaches in the pursuit of reform. We would welcome 
the opportunity to discuss some of the key differences between 
the two bills as well as places where we think they potentially 
align; however, for the purposes of my testimony today I am 
going to focus on H.R. 4297, Chairwoman Foxx and Representative 
McKeon's and Heck's bill, to identify some areas where our 
members have concerns or recommendations for improvement.
    First, in the name of alignment and improving efficiency, 
necessary goals for a future workforce system, H.R. 4297 adopts 
the blunt instrument of program consolidation, eliminating at 
least 27 federal programs that collectively provide a variety 
of services to support the training and employment of many 
different types of workers. Consolidation, in and of itself, 
will unfortunately not produce reform. We need a more targeted 
approach that fixes what is not working and invests in what is.
    Pulling together a list of funding streams will, in and of 
itself, not guarantee that workers or businesses are going to 
be better served, particularly if the consolidated investments 
are not guided by the effective practices developed by the 
workforce field over the past 15 years. Unfortunately, the 
consolidated fund would do little to require states that have 
not been innovators in the past to adopt the effective 
practices of their peers, and it may even create perverse 
incentives for past high-performing states to abandon the 
effective models that they have already developed.
    Second, the bill emphasizes the need for workforce programs 
to be more closely aligned with employer needs, another goal 
with which we strongly agree. However, we feel the mechanism 
proposed--increasing the percentage of employers sitting on 
workforce investment boards while decreasing representation 
from other key community, education, and labor stakeholders--
will actually do little to increase employer involvement or 
market responsiveness.
    Increasing from 13 to 17 the number of employers on a 25-
person WIB will not dramatically increase the number of 
employers throughout a region collaborating to define common 
industry-recognized credentials or vetting shared training and 
employment strategies to fill open positions in their 
companies. Such have been the accomplishments of States and 
regions that have adopted a sector partnership strategy, in 
which such partnerships are a planning priority, in which there 
is a participation by a wide enough range of firms and other 
stakeholders to make them legitimate, and in which there is 
funded capacity to sustain them so they can rapidly respond to 
changing industry needs over time.
    While we do appreciate the Republican bill acknowledges the 
value of sector partnerships, it does not prioritize this 
approach. By contrast, the Tierney-Miller-Hinojosa bill 
incorporates several of the above standards to promote sector 
partnerships, as does Congressman Loebsack's and Congressman 
Platts' SECTORS Act, which passed the House under the last 
Congress.
    Third, the bill seems to ignore the diversity of Americans 
who are part of our rapidly changing workforce. With mounting 
skill demands and the pending retirement of millions of skilled 
baby boomers, our economic future depends on our moving every 
available U.S. worker toward skilled employment.
    Young people struggling with particularly high 
unemployment, laid off workers with 30 years experience, 
mothers who stay and home with their children but now must find 
employment, any of the over 80 million hardworking Americans, 
about half of our workforce who lack the basic reading, math, 
or English language skills to enroll in a technical training 
course in order to keep up with a changing economy. There is no 
one workforce development strategy or funding stream that can 
meet the need of all of these workers or guarantee the full 
menu of services that each might need in different combinations 
and settings at different points in their lives.
    Not only does the bill eliminate the various programs that 
have served these different types of workers, it sets a very 
low 2 percent spending requirement for assistance to the hard-
to-serve. It removes the provision of support services, like 
child care or transportation, to help people stay in school or 
on the job, and it sets an 18 percent cap on services to low-
income youth and would not hold states accountable if they 
spent significantly less.
    In all, while some States would continue to assist the 
hard-to-serve under this bill, we fear many states might not.
    Finally, regarding national investment in skills, we want 
to thank Chairwoman Foxx for her commitment to not use this 
bill to reduce overall funding to workforce programs, the 
amount for the consolidated Workforce Investment Fund being 
close to the sum of current appropriations for consolidated 
programs. However, we do have great concerns about how this 
proposal might be used by others in Congress to implement 
deeper, devastating cuts.
    Chairman Ryan's budget blueprint cited an earlier version 
of this bill as rationale for dramatic disinvestment across 
adult education, job training, career and technical education, 
and higher education programs. The House's recently passed 
budget resolution cuts over $16 billion from education, 
workforce, and social service programs under Budget Function 
500 and we fear the passage of H.R. 4297, regardless of the 
intentions of its authors, could be used to target much of that 
impact on the skills of the American people and U.S. 
industries.
    We look forward to working with the committee in pursuit of 
the goals to get all of our workers into skilled jobs and to 
help meet the skill gaps that currently face our U.S. 
industries.
    [The statement of Mr. Van Kleunen follows:]

      Prepared Statement of Andy Van Kleunen, Executive Director,
                       National Skills Coalition

    Chairman Kline, Ranking Member Miller, Chairwoman Foxx, and Ranking 
Member Hinojosa: National Skills Coalition is a national network of 
business leaders, union affiliates, community colleges, community-based 
organizations, and public workforce agencies working together to help 
every worker and every industry in this country gain the skills they 
need to compete and prosper in today's economy.
    On behalf of our members, I want to thank you for inviting me to 
testify before the committee today, and for your efforts to strengthen 
and modernize the Workforce Investment Act (WIA) for the 21st century. 
With nearly two-thirds of all jobs created between 2008-2018 expected 
to require at least some form of postsecondary education or training--
including millions of well-paying ``middle-skill'' jobs that the 
workforce system is particularly well-suited to help fill--we must 
ensure that all U.S. workers have access to education and training 
leading to skills and industry-recognized credentials that will allow 
them to get and keep family-supporting jobs. And, with U.S. employers 
struggling to fill even current job openings because of a lack of 
qualified candidates, it is clear that we must act sooner rather than 
later to ensure that we have a workforce system that can respond 
quickly and effectively to the demands of today's labor market.
    It is a testament to the importance of this issue that we have two 
alternatives before this committee to consider for purposes of WIA 
reauthorization. The Workforce Investment Improvement Act of 2012 (HR 
4297), introduced by Subcommittee on Higher Education and Workforce 
Training Chairwoman Foxx and Representatives McKeon and Heck, and the 
Workforce Investment Act of 2012 (HR 4227), introduced by 
Representative Tierney, Ranking Member Miller, and Subcommittee on 
Higher Education and Workforce Training Ranking Member Hinojosa. Both 
offer visions for the nation's workforce system that share some key 
commonalities, but also underscore some stark differences.
Core Goals for Reform
    National Skills Coalition believes that any federal workforce 
policy reforms, such as those being considered by the committee, should 
be driven by three core goals:
    1. Enhancing the effectiveness of our nation's workforce system in 
meeting the skill needs of all U.S. workers and businesses, through 
expanded access to training and greater industry involvement in 
determining what that training should entail;
    2. Strengthening accountability across all of our workforce and 
education programs, so that states and localities are aligning limited 
federal resources with labor market demand, while also ensuring that 
the needs of all individuals, including those who are harder-to-serve, 
are met; and
    3. Promoting innovation by building on the lessons learned and best 
practices developed over the past 15 years by the workforce field, so 
that high-performing states, localities and practitioners can bring 
those innovations to scale, and so that others are encouraged to adopt 
these effective practices to better meet the needs of local workers and 
industries.
    We are encouraged to see that similar goals inform both the 
legislation that is the focus of today's hearing, as well as the bill 
introduced last month by the committee Democrats. However, National 
Skills Coalition has significant concerns that some of the policy 
changes proposed under HR 4297 may not actually achieve these goals.
Impacts of Proposed Consolidation
    In the name of alignment and reducing inefficiency--necessary goals 
for our future workforce system--HR 4297 adopts the blunt instrument of 
program consolidation, eliminating 27 federal programs that 
collectively provide a variety of services to support the training and 
employment of many different types of workers, as well as key functions 
like our 50-state Wagner-Peyser system that connects the unemployed to 
unemployment insurance and re-employment services. But after 
eliminating these programs, the resulting consolidated Workforce 
Investment Fund block-grant does not actually require states or 
localities to adopt proven practices like the reforms the authors 
encourage elsewhere in their bill.
    Consolidation, in and of itself, is not reform. Simply combining 27 
funding streams into one will not automatically result in a more 
effective, efficient system if nothing changes in how those funds are 
being used at the state and local level. Congress should make specific, 
targeted investments in key strategies that we know work, and require 
all states--not just the high-performing innovators--to implement those 
strategies as is appropriate for their local and regional labor market 
needs. This will better drive system-wide change. Even among the states 
that have been first adopters of these practices over the past decade, 
we fear that consolidation may create unintended incentives that will 
shift them from the very models they have developed to bring a wide 
range of people into the skilled labor market.
    Furthermore, it not clear that the programs that are consolidated 
under HR 4297 will actually result in the kind of system alignment that 
will facilitate seamless transitions across programs and institutions. 
National Skills Coalition believes that, rather than simply 
consolidating a list of programs culled from a Government 
Accountability Office report, a better approach would be to promote and 
support career pathways models that align adult education, job 
training, postsecondary education, and supportive services at the 
system level to provide well-defined employment and training pathways 
for individuals, with multiple exit and entry points for workers at 
various skill levels and stages in their careers. These career pathways 
strategies have demonstrated strong results in helping workers--
particularly low-skilled individuals and other vulnerable populations--
persist and succeed in education and training, and have enhanced 
employer engagement in the design and implementation of programs that 
help prepare new workers for entry-level positions, while helping 
incumbent workers move up the career ladder. Numerous states, regions, 
and local communities have already begun this work, and federal policy 
should support the progress that has already been made in the field.
    But our greatest concern, beyond not providing clear direction or 
standards on how federal funds should be used, is the impact that 
consolidation will have on the populations who may no longer be served 
once these programs are eliminated.
Programs and Services for a Diverse Workforce
    HR 4297 seems to ignore the diversity of individuals who are in, or 
aspire to be part of, our rapidly changing U.S. workforce. With 
mounting skill demands and the pending retirement of millions of 
skilled baby boomers, we need to ensure that every U.S. worker--even 
those with the greatest skill needs--can qualify for skilled employment 
in U.S. industries. That means we need a diversity of programs and 
pathways to match the wide range of people who need to be part of that 
solution: young people struggling to find jobs out of high school; mid-
career dislocated workers who have been employed for 20 years but who 
now must re-train for a new occupation or even to remain in their own 
industry; and older workers who are postponing retirement and need some 
skills and support to continue earning a living. We have nearly 90 
million workers who need some upgrading of their reading, math and/or 
English language skills--in addition to whatever new technical skills 
they will need--if they're going to fill or re-train for open skilled 
positions.
    There is no one workforce development strategy or funding stream 
that can meet the needs of all of these workers, or guarantee access to 
the range of services that each of them will need in different 
combination in order to succeed. Many of them will require not just 
technical training, but also possibly income support if they're not 
working, or childcare or transportation services to help them stay in 
school or on the job after placement, or basic skills and /or English 
language instruction, or any of a number of other types of assistance. 
HR 4297 eliminates programs that have guaranteed that a full diversity 
of workers--including those with the highest skill needs--have access 
to these federally funded employment and training services. In 
addition, vulnerable populations like disconnected youth, Native 
Americans, migrant and seasonal farmworkers, and other hard-to-serve 
populations would almost certainly lose access to vital services under 
HR 4297.
    In the place of these eliminated programs, HR 4297 requires states 
set aside a very low 2% of their funding allocation for services for 
individuals with barriers to employment--a substantial drop from the 
already inadequate resources devoted to those job-seekers. It removes 
the provision of support services. It eliminates the current priority 
of services for low-income individuals. It sets an 18% cap on services 
to low-income youth, and would not hold states accountable if they 
spent significantly less than that. And, beyond what provisions and 
programs it eliminates through its consolidation proposal, it opens the 
door for states to use super-waivers to roll other federal programs 
that serve our most vulnerable into the same undifferentiated pot--
including TANF, TAA, Vocational Rehabilitation services for those 
living with disabilities, and the Community Services Block Grant.
    As such, it seems almost certain that the consolidation of programs 
proposed under HR 4297--particularly when coupled with the numerous 
policy changes in the bill that reduce protections for low-skilled, 
low-income, and other targeted populations--will reduce access to 
education and training services for our nation's most vulnerable 
workers.
Employer Engagement and Sector Partnerships
    HR 4297 emphasizes the need for federal workforce programs to be 
more closely aligned with the changing needs of industry--another goal 
with which we strongly agree. However, the mechanism proposed by HR 
4297 to achieve greater employment engagement--that is, increasing the 
percentage of employers sitting on Workforce Investment Boards (WIBs) 
while decreasing representation from other stakeholders--will likely do 
little to actually increase the number of local employers involved in 
the local definition of industry-recognized credentials, or in the 
vetting of the design of related training and employment strategies. At 
the same time, by decreasing the role of other community stakeholders' 
participation on the WIBs--including community-based organizations, 
service delivery providers, labor representatives and youth advocates--
HR 4297 actually threatens to limit the necessary input of a range of 
perspectives in the planning out of workforce services that will meet 
the needs of both employers and workers within local communities.
    Under current law, there are WIBs with 51% employer membership who 
are actively collaborating with multiple firms and other stakeholders 
in industry-specific sector partnerships--partnerships that are held up 
as models of employer engagement for the rest of the country--and there 
are WIBs with the same 51% employer stake who are not. The number of 
employers on these WIBs is not the determinant factor. Rather, it is 
how many employers are meaningfully engaged through industry-specific 
planning and deployment efforts. Also key is whether the development of 
such sector partnerships is a state or local planning priority, whether 
there is participation by a wide enough range of firms and other 
stakeholders to make them legitimate, if there is funded capacity to 
help maintain these partnerships to respond to changing industry needs, 
and if there are rewards for those systems that use them effectively to 
increase employer engagement.
Accountability and Performance Measures
    National Skills Coalition appreciates and supports the increased 
attention to accountability and performance measures under HR 4297. The 
bill makes a number of important improvements to the current 
performance and accountability system, including the implementation of 
common performance measures across WIA core programs. The inclusion of 
a new credential measure, and a measure of progress toward a credential 
that potentially encourages longer-term training critical for low-
skilled workers, are important improvements of current law, as is the 
required state adjusted level of performance for each of the core 
indicators.
    However, even with these changes, there are concerns that HR 4297 
will still lead to the kinds of ``creaming'' that sometimes occurs 
under the current performance measures. For example, HR 4297 uses a 
measure of median wages rather than wage gains. The use of median wages 
tends to push toward focusing on individuals with higher earning 
potential--and thus higher median wages--while a measure of wage gains 
potentially rewards programs that serve low-income individuals who have 
the greatest opportunity to increase their earnings. Under HR 4297, 
states could potentially meet performance requirements without ever 
addressing the needs of those with the greatest barriers to employment. 
We know from experience that so long as performance measures do not 
reward states that make the commitment to serve low-income, low-
skilled, or otherwise vulnerable populations, these populations will 
often not have access to the education and training they need to obtain 
skilled employment.
    Furthermore, even under current law, data collection and program 
oversight are already difficult. The diversity of local policies for 
registering participants and tracking program outcomes has complicated 
federal oversight because it is difficult to obtain nationally 
comparable data. Under HR 4297, it is likely that the consolidated 
block-grant funding structure will further exacerbate this issue. As a 
rule, we know less about how block-grants funds are spent than other 
types of funds. Our ability to evaluate access to employment and 
training services by population, type of jobseeker, income level, or 
skill level will almost certainly be less under a consolidated block 
grant than under current law.
Putting Investments in Skills at Risk
    Finally, the level of investment in a skilled workforce provided 
under HR 4297 must be considered in the context of the current fiscal 
debate. We want to thank subcommittee Chairwoman Foxx for her 
commitment to maintaining current funding levels for what are already 
significantly under-invested programs. The authorization for the 
proposed Workforce Investment Fund appears to be close to the sum of 
current appropriations for programs consolidated under the bill. While 
we do not agree with the consolidation or believe that this funding 
level is adequate--witness the near tripling of clients using our One-
Stop services just over the past two years--we appreciate that HR 4297 
does not further contribute to the more than $1 billion in workforce 
funding cuts that we have already seen over the past two years.
    That said, our much greater concern is how consolidation proposals 
like that proposed under HR 4297 have been cited by others in 
Congress--including Chairman Ryan in his budget blueprint--as rationale 
for continuing our nation's disinvestment in the skills of its people, 
across a range of programs: adult education, job training, career and 
technical education, and even higher education. The House's recently 
passed budget resolution would cut over $16 billion from our nation's 
education, workforce and social service programs under Budget Function 
500, and we fear the passage of HR 4297--regardless of the intentions 
of its authors--would be used to justify extremely deep cuts in skills 
investments.
Conclusion
    It is our hope that this Committee can bring this debate back to 
what we think are shared goals: investing effectively in all of our 
country's workers, ensuring those investments are guided by the active 
involvement of employers and other industry stakeholders, holding our 
states and localities accountable and rewarding those who continue to 
be workforce innovators, and ultimately closing skills gaps that will 
help more people find good employment and help more U.S. industries 
grow. We look forward to working with the committee in pursuit of these 
goals.
                                 ______
                                 
    Chairman Kline. Thank you.
    Ms. Harmsen, you are recognized.

  STATEMENT OF SANDY HARMSEN, DIRECTOR, SAN BERNARDINO COUNTY 
              DEPARTMENT OF WORKFORCE DEVELOPMENT

    Ms. Harmsen. Chairman Kline, Ranking Member Miller, and 
distinguished members of the committee, it is my privilege and 
honor to testify before you today regarding the Workforce 
Investment Improvement Act of 2012. My name is Sandy Harmsen 
and I am the executive director of the San Bernardino County 
Workforce Investment Board.
    The San Bernardino County WIB and I are passionate about 
WIA and workforce development. I personally believe there is no 
better work done in the world. As one of our members so 
eloquently said, ``Work restores a person's self confidence, it 
builds character, provides opportunity, promotes self reliance, 
and is the backbone of our country.''
    The San Bernardino County WIB fully supports a workforce 
development system that has local board control and a strong 
majority of private sector business members within a united 
workforce system. We believe in the engagement of business in 
State and local workforce decisions, increasing local 
flexibility, and in supporting training needs for all 
populations.
    I believe that strengthening business engagement in local 
workforce decisions is a key tenet of this legislation. Our WIB 
has maintained a strong local connection due it--due to its 
majority of private sector business owners, which has enabled 
it to focus on the needs of both business and job seekers in 
our economy.
    The board was recognized in the January 2012 GAO report for 
its innovative approach to serving business through process 
improvement. The program utilized federal funds to assist local 
businesses with job creation and retention. Many of the 
programs developed would not have been successful without the 
engagement of business in local workforce decisions.
    The program resulted in saving 1,100 jobs, created more 
than 200 new jobs, and infused $25 million back into the 
economy. Again, this is the result of local control.
    We believe local control could be enhanced even further. 
One challenge our county has experienced is in managing the 
side of--size of the board, and we appreciate that this bill 
emphasizes local control over decision-making about which 
partners serve on the board.
    We also agree that local flexibility must be fully 
supported in the workforce system. Local flexibility enabled 
the county WIB to consistently maintain an active business 
services program. The connection to the local business 
community and its workforce needs coupled with maintaining a 
dedicated business services team empowers the board to respond 
to business needs quickly even during times of recession.
    Local control and private sector leadership enables the 
board to effectively identify and respond to the needs of local 
business. The strong business presence provides pertinent, 
timely leadership and decision-making regarding workforce 
issues.
    Because of this strong business focus the WIB partners with 
local industry councils, chambers of commerce, educational 
providers, and community organizations to provide information 
and resources that aid growing as well as struggling 
businesses. Local flexibility is what has made it possible to 
serve those needs in a designated area in ways specific to the 
needs of both business and job seekers.
    Jon Novack, from Patton Sales, said in 2009 for the first 
time in his company's 58-year history he lost money and faced 
major layoffs. Then a customer who could not afford to stay 
open any longer came to Jon hoping to sell his company. Jon 
felt if he could acquire the company he could make it 
successful by combining it with his existing company.
    Through WIB support he trained the company staff in 
modernized manufacturing processes and assisted him with 
recruiting new employees. He also utilized the WIB's on-the-job 
training program with newly hired employees.
    Jon became a member of the WIB last year because, as he put 
it, ``This is how government works with business at its best--
proactive partnering with business and education to provide a 
well-trained and smart workforce.''
    Malena Bell was laid off from a job and was forced to go 
apply for public assistance. She went from $1,800 a month to 
$500 a month. She discovered the Work Readiness program through 
the county's workforce investment board's employment resource 
centers, attended job seeker workshops, and was hired into one 
of those OJT positions. Two years later she is still employed 
by this same company and is moving up into a sales position.
    The WIB's relationships with local business community, 
education providers, and community organizations support the 
business community and job seekers like Malena. The stories 
cited above directly tie in with important tenets of this act: 
strengthening business engagement and local workforce 
decisions, increasing local flexibility, and promoting 
innovation and best practices.
    WIBs across the nation work to streamline the workforce 
system by working together with various partners to meet the 
needs of their local businesses and job seekers. We invest our 
funds to develop and seek reports to identify local demand 
occupations and we support the tenets of improving services 
through on-the-job training.
    San Bernardino County WIB has utilized the on-the-job 
training system to a great degree and since 2009 to date have 
placed over--nearly 2,000 people into on-the-job training 
positions. The WIB partners with other crucial partners to 
serve special populations, as well, and contracts with the 
Department of Aging, the Probation Department, the Sheriff's 
Department, Department of Corrections, the Head Start program, 
Transitional Assistance to Needy Families, and the Department 
of Behavioral Health to provide services to those specialized 
populations.
    We do agree with the GAO report of 2011 that there is 
better opportunity for better coordination of workforce 
programs. Strategic decisions on services that get individuals 
in our community who are unemployed or underemployed back to 
work should be made at the local level. This legislation places 
focus on results and closing a growing skills gap by 
identifying and meeting the workforce needs of both employers 
and job seekers.
    Supporting training opportunities for all is another 
important tenet of this legislation. Our WIB and other WIBs, 
again, across the nation work with local industry councils to 
develop programs to provide a skilled workforce that directly 
meet the needs of business. The San Bernardino County WIB works 
specifically with community colleges to help support a growing 
mining industry and create jobs--job training for that specific 
industry.
    The WIB and Manufacturers Industry Council worked with two 
community colleges to develop and implement an electrical and 
mechanical training program, again, specific to the needs of 
business in advanced manufacturing. We have worked with 
vocational school, Technical Employment Training Inc., which 
provided skilled machinists for the manufacturing industry, 
which was also recognized in the GAO report of 2012.
    I will wrap up by saying that another--one of the final 
tenets of this bill that we support absolutely is 
accountability. We need to have a workforce system that serves 
customers, business, and job seekers alike in an effective and 
efficient manner, maximizing resources and training customers 
for jobs available with business. We support performance 
measures based on outcomes related to the services provided.
    We are happy to say that we have been recognized by several 
entities for doing just that across the nation and believe that 
the recognition demonstrates the local board control of the 
workforce system with strong majority of private sector and 
collaborative projects with workforce programs are key 
components for success.
    One thing Mr. Miller said: The manner in which we 
reauthorize WIA is vital and important. WIA is such a strong 
program and it is the best workforce program. We agree with 
that 100 percent. It is vital how we reauthorize this bill, and 
I thank you so much for the opportunity to be able to testify 
on behalf of this.
    [The statement of Ms. Harmsen follows:]

        Prepared Statement of Sandy Harmsen, Executive Director,
            San Bernardino County Workforce Investment Board

                           executive summary
    The San Bernardino County Workforce Investment Board believes in a 
workforce system that serves customers--businesses and job seekers 
alike--in an efficient manner that maximizes resources. To that end, 
the San Bernardino County WIB fully supports a workforce development 
program that has local board control and a strong majority of private 
business members within a united workforce development system. We 
believe The Workforce Investment Improvement Act of 2012 contains these 
tenets.
    The San Bernardino County WIB supports the tenets of improving 
services through On-the-Job Training, contracting with community 
colleges and institutions of higher learning to provide specialized 
group training that is designed for businesses looking to hire 
individuals with specific skills, and training for those who need it 
the most within our communities. The WIB contracts with other entities 
and provides their clientele with workforce training, job development 
and job placement services. We work with local industry councils to 
create a skilled workforce that meets their specific needs.
    Jon Novack is the President and CEO of Patton Sales. Jon became a 
member of the WIB last year because, as he puts it, ``This is how the 
government works with business at its best--proactive partnering with 
business and education to provide a well-trained and smart workforce. 
Training is great, but worthless without a job.''
    Malena Bell was a single mom who was laid off and tried to survive 
on $500 a month in Unemployment Insurance. She was hired by Patton 
Steel through the WIB's On-the-Job Training program. After her training 
period ended, she was hired full-time and is now celebrating her second 
year with the company.
    San Bernardino County WIB members represent each major industry in 
our County and participate in monthly meetings with local industry 
councils. Private sector business owners are invaluable to our Board. 
They have their finger on the pulse of local business, they are 
experienced business managers, and they understand the skills local 
businesses need to grow and diversify.
    The WIB and the Manufacturers Industry Council worked with two 
community colleges to develop and implement an Electrical/Mechanical 
Advanced Manufacturing training program. Multiple local manufacturing 
businesses have utilized this program to upgrade the skills of their 
lower-level employees, moving those employees into higher level 
positions and then hiring new employees through the WIB One Stop 
Centers.
                         full written statement
    Chair John Kline and distinguished members of the Committee, thank 
you for the opportunity to speak today about the Workforce Investment 
Improvement Act of 2012 (H.R. 4297). My name is Sandy Harmsen, and I am 
the Executive Director of the San Bernardino County Workforce 
Investment Board and Director of the County's Workforce Development 
Department. The San Bernardino County WIB fully supports a workforce 
development program that has local board control and a strong majority 
of private business members within a united workforce development 
system. We believe in business engagement in state and local workforce 
decisions, increasing local flexibility, and supporting the training 
needs of all populations.
Strengthening Business Engagement in State and Local Workforce 
        Decisions
    The San Bernardino County Workforce Investment Board consists of a 
majority of business owners who helped establish a local Manufacturing 
Industry Council and a Transportation and Logistics Council. The WIB is 
also active as members of the Aviation Industry Council, the Healthcare 
Workforce Advisory Board, and the California Clean Energy 
Collaboration. Their connection to the local business community and its 
workforce needs, coupled with a dedicated Business Services Unit, 
empowered the WIB to quickly respond to the severe economic downturn. 
Because of the local connection, the WIB focuses on the needs of all 
populations in the county. We believe local control could be enhanced 
even further. One challenge our county has experienced is managing the 
size of the board. We appreciate that H.R. 4297 emphasizes local 
control over decision making about which partners serve on the board.
Promoting Innovation
    The San Bernardino County Workforce Investment Board was recognized 
in the January 2012 GAO Report to Congressional Committees for its 
innovative approach to serving businesses through its process 
improvement program. San Bernardino County WIB has a dedicated and 
comprehensive business support program that deploys federal funds to 
assist local employers with job creation and retention. Many of the 
programs developed and implemented would not have been successful 
without the engagement of business in local workforce decisions.
    Maintaining a business focus, the WIB developed relationships with 
San Bernardino employers in high-demand industries that promise job 
growth and opportunities for county residents. The business services 
staff meets regularly with employers to identify specific workforce 
needs, discover job openings and negotiate subsidized and On-the-Job 
Training contracts. They also help employers avert layoffs through 
business efficiency training. The results of local control, with a 
strong business focus, enabled the San Bernardino WIB to implement a 
process improvement program that resulted in saving 1,106 jobs and 
hiring 204 residents into newly created jobs. The impact of this 
program was to infuse $25M back into the local economy.
    Local control enables the WIB to effectively identify and respond 
to the needs of local businesses. The strong business presence provides 
pertinent, timely leadership and decision making regarding workforce 
issues. Because of the strong business focus, the WIB partners with the 
local industry councils, chambers of commerce, educational providers 
and community organizations to provide information and resources that 
aid growing, as well as struggling, businesses. The WIB business 
services staff developed and implemented Business Survival Workshops 
throughout the County. Workshops are conducted in varying locations to 
reach as many businesses as possible given the large geographic area of 
San Bernardino County that consists of 20,000 square miles (the largest 
County in the contiguous U.S.) with more than 62,000 businesses.
    The Business Survival Workshops receive an overwhelming response by 
the local business community. Twenty-nine partners offered free initial 
consultations to businesses in their respective areas of expertise. 
More than 400 businesses have taken advantage of a free on-site 
assessment that identifies their strengths and weaknesses in sales, 
business processes, customer service, and employee performance and 
productivity. To date, the WIB's weekly workshops have assisted more 
than 1,100 businesses. Utilizing the results of their assessment, a 
business can request additional targeted assistance available through 
the WIB:
    <bullet> Process Improvement for streamlining the manufacturing 
process to reduce production cost and increase productivity. These 
services also led to increasing the capacity of the participating 
manufacturers to increase sales.
    <bullet> Strategic and Financial Planning for evaluating the 
manufacturers' current state and establishing long-term business and 
strategic goals based on sound financial planning. Referrals to other 
agencies like the SBA for loans were also made to manufacturers who 
needed operating and investment capital.
    <bullet> Quality Management System implementation that improved 
product quality, on-time delivery and met industry ISO 9001 and AS9100 
certification requirements. Many of the at-risk manufacturers lost 
customers because they lacked certifications or could not enter new 
markets.
    <bullet> New product development and diversification of products to 
foster innovation and growth. Innovation is a key for small 
manufacturers to stay competitive and gain market share.
    As highlighted in the January 2012 GAO Report, manufacturers who 
received these targeted services were surveyed six months after they 
had implemented recommended changes by an independent survey from NIST/
MEP and reported:
    <bullet> $8 million in increased sales
    <bullet> $18 million in retained sales
    <bullet> $2.6 million in cost savings
    <bullet> $2.1 million of investment in equipment, IT and workforce 
skills development
    <bullet> 600 retained jobs
    <bullet> 117 created jobs
Increasing Local Flexibility
    The WIB's business focus is a necessary component to the workforce 
development system. Local flexibility is necessary to serve specific 
needs in a designated area. Local flexibility enabled the San 
Bernardino County WIB to fund business services even during the 
recession and made a difference for businesses struggling to keep their 
doors open and to people who needed jobs to keep their homes and 
support their families.
    Jon Novack from Patton Sales said that in 2009 ``the wheels came 
off the bus'' for his company. The value of his inventory fell, 
customers stopped buying, no one could get credit from banks for 
building, the phones stopped ringing and his trucks sat idle. For the 
first time in his company's 58 year history, he lost money and faced 
major layoffs, selling of assets, and went into survival mode. Then a 
Patton customer who could not afford to stay open any longer came to 
Jon hoping to sell him his company. Jon felt the customer's company had 
been neglected, was inefficient and had no vision of the future. To 
quote Jon, ``Enter the SB County WIB''. The WIB worked with him every 
step of the way as he acquired the company. Through WIB support, Jon 
trained the company's staff in modernized manufacturing processes, 
assisted him with recruiting new employees, and reduced the cost impact 
of the new hires' reduced productivity level through its on-the-job 
training program. Jon became a member of the WIB last year because, as 
he puts it, ``This is how the government works with business at its 
best--proactive partnering with business and education to provide a 
well-trained and smart workforce. Training is great, but worthless 
without a job.''
    When Malena Bell was laid off from her non-profit organization, she 
was in the situation that every parent fears--having come one month 
short of living on the street. ``When I lost my job, I was forced to go 
apply for public assistance,'' she said. ``I went from making $1,800 a 
month to $500 a month.''
    Malena wasted no time utilizing the work readiness program offered 
by staff at the county's Employment Resource Centers, and immediately 
went to work on her resume and interviewing skills. By attending job 
seeker workshops offered through the WIB's Employment Resource Centers, 
she had her ear to the ground when Patton Sales Corporation would be 
hiring through the On-the-Job Training program.
    ``She hated being on government assistance and took it 
personally,'' said Jon Novack, president of Patton. ``She said, 'Give 
me a chance and let me show you what I'm about'.'' Malena has now been 
with Patton for two years and is moving up to sales training. She plans 
to stay with Patton until her retirement.
    Local flexibility and the WIB's relationships with the local 
business community, educational providers and community organizations 
support the business community and job seekers like Malena. The stories 
cited above directly tie in with important tenets of the Workforce 
Investment Improvement Act of 2012:
    <bullet> Strengthening business engagement in local workforce 
decisions
    <bullet> Increasing local flexibility
    <bullet> Promoting innovation and best practices
Supporting Training Opportunities for All Adults, Dislocated Workers, 
        and Youth
    WIBs across the nation work together with various partners to meet 
the needs of local businesses and job seekers. San Bernardino County 
WIB and other WIBs invest their funds in researching and seeking 
reports to identify local demand occupations and growing and emerging 
industries. We support the tenets of improving services through On-the-
Job Training, training for those who need it the most within our 
communities, and contracting with community colleges and institutions 
of higher learning to provide specialized group training that is 
designed for businesses looking to hire individuals with specific 
skills. These initiatives under H.R. 4297 will ensure that customers 
are trained in necessary skills to match jobs available with business.
    Since 2009, the San Bernardino County WIB has worked with local 
businesses to develop On-the-Job Training (OJT) opportunities and has 
placed 1,845 job seekers into these training positions. These positions 
not only assisted the job seekers in obtaining needed skills and 
gaining employment, they also assisted businesses involved in the 
program by helping them with costs associated with bringing a new 
employee up to the desired productivity level.
    In 2009, after receiving special funding to implement a Summer 
Youth Employment Training Program, the San Bernardino County WIB 
provided employment skills training to over 1,800 youth and placed them 
into summer jobs. Many of these youth were retained by the businesses 
at the end of the program. In the summer of 2010, utilizing TANF 
funding, the WIB served 800 youth through a similar program. Annually, 
the WIB contracts with local providers to serve youth utilizing its WIA 
Youth allocation.
Streamlining the Maze of Job Training Programs
    Many of the OJT positions developed by the San Bernardino County 
WIB were filled with recipients of public assistance, not because we 
are mandated to do so, but because this is one of the populations our 
local area has determined is in need of workforce services. The WIB 
partners with other entities to serve special populations. The 
following entities contract with us to serve their clientele for 
workforce training, job development and job placement:
    <bullet> Department of Aging and Adult Services
    <bullet> Probation Department, Sheriff and Department of 
Corrections
    <bullet> Head Start
    <bullet> Temporary Assistance to Needy Families
    <bullet> Department of Behavioral Health
    We agree with the GAO report of 2011 that there is opportunity for 
better coordination of workforce programs. Strategic decisions on 
services that get individuals in our community who are unemployed or 
underemployed back to work should be made at the local level. This 
legislation places focus on results and closing a growing skills gap by 
identifying and meeting the workforce needs of both employers and job 
seekers. We do need to meet the workforce needs of each community at 
the local level and the workforce system needs to be funded at an 
appropriate level to provide effective services for all.
Improving Employment and Training Services at One-Stop Career Centers
    The San Bernardino County WIB works with local industry councils to 
develop training programs designed to provide a skilled workforce that 
meets their specific needs. Recently, the WIB worked with a local 
community college to implement a training program for the growing 
mining industry. The WIB and the Manufacturers Industry Council worked 
with two other community colleges to develop and implement an 
Electrical and Mechanical training program in Advanced Manufacturing. 
The WIB also worked with a vocational school, Technical Employment 
Training Incorporated (TET), to develop a work-based training program 
to provide skilled machinists for the manufacturing industry. The TET 
initiative was recognized in the January 2012 GAO Report.
Ensuring Accountability for the Use of Taxpayer Funds
    The San Bernardino County Workforce Investment Board believes in a 
workforce system that serves customers--businesses and job seekers 
alike--in an effective and efficient manner that maximizes resources. 
The San Bernardino County WIB supports performance measures that are 
based upon outcomes related to the services provided. Our WIB has been 
recognized for its best practices by the National Association of 
Counties, the Department of Labor and the California State Association 
of Counties. This recognition demonstrates that local board control of 
the workforce system with a strong majority of private business members 
and collaborative projects with workforce programs are key components 
for success.
                                 ______
                                 
    Chairman Kline. Thank you.
    I thank all of you for your testimony. Your entire written 
testimony will be included in the record.
    We will move now to my colleagues for some questions and 
answers. We will limit ourselves--I will help you with this 
part--to 5 minutes so that all members have a chance to engage 
in the discussion.
    Let me start with Ms. Harmsen.
    As you were giving your testimony you talked about 
strategic decision-making and more strategic approaches and 
local control. H.R. 4297 specifically removes the federal 
requirements for board representation except for the business 
representation. It is our belief that that streamlines the 
boards. We have been hearing for some time in this committee, 
out in the field and here, from State and local workforce 
boards about how they are getting very bloated; they keep 
growing in size and get pretty cumbersome.
    Can you address that streamlining provision of this bill 
and how that will affect the board's ability to do more 
strategic thinking?
    Ms. Harmsen. Yes. Thank you.
    As I did state partially in my testimony, we do believe 
that the strong majority of business sector on the board is 
absolutely vital to the success of this program. Having those 
business members on the board to guide decisions as to how the 
workforce dollars are spent is so very important.
    We know, for example, in San Bernardino County, 63,000 
small businesses in our county--they make up the majority, over 
90 percent of the businesses in our county. So to have that 
voice on the board is absolutely important.
    I do believe that the other members of the board should be 
also a local decision, that at that actual local, on-the-ground 
level, however, for the balance of the members of that board so 
that the local areas can make decisions about who is important 
to be on those boards and have a voice at that table.
    Chairman Kline. Our thought was that by requiring, as the 
current law does, all this membership--18, 19 sort of different 
members--that the boards were getting cumbersome, and I am 
trying to get at your point that if the decision is made at the 
local level about who is on that board it can be a more 
streamlined operation. I don't want to put words in your mouth, 
although I guess I am trying to here. [Laughter.]
    Ms. Harmsen. Yes, that is what I am saying.
    Chairman Kline. Perfect.
    Ms. Harmsen. Yes.
    Chairman Kline. It is great how that worked out. 
[Laughter.]
    Ms. Noble, again, pass our regards to your governor. She 
was our colleague for some years and a great friend to many of 
us on this committee.
    This legislation consolidates 27 federally funded job 
training programs into a single Workforce Investment Fund. We 
think that is in line with what we heard the president say the 
other night in the thinking that many of us have on this 
committee that we have allowed these programs to proliferate 
and become unwieldy.
    So my question to you is, how do you think this 
legislation, the way it is put together with that 
consolidation, can help State and local workforce investment 
boards in administering these employment and training services? 
Is it helpful to you?
    Ms. Noble. Yes. I believe it is helpful because the--
separately, programs are intent on whatever the legislation 
tells them to do. And believe me, the individuals programs are 
doing their best. And there are many good programs but they are 
independent. They have to meet whatever their management and 
their--whatever their guidance and whatever their performance 
is.
    And when you are focused, secondary comes, how do I do that 
with someone else? Putting programs together based on what that 
community perceives the needs of their industries and their 
unemployed population is allows everyone to become focused at 
the primary goal, which is, what helps us to get jobs?
    It is efficient in that each program now has separate 
procurement, separate contracting services, separate buildings. 
And while some of those buildings will remain, many can be used 
across purposes or same purposes.
    In Oklahoma, for example, we have been able to reduce some 
of our local areas by combining--we didn't consolidate them; we 
said--the council said, ``Find ways to be more efficient.'' And 
sometimes that was by having--sharing a director; sometimes it 
was by having the same fiscal agent; sometimes it is by having 
the same service provider, and through your contracting 
process.
    But that is, at the State level, asking people--incenting 
people to do things that were more cost effective. By combining 
from the top you started in the right direction.
    Chairman Kline. Thank you.
    I see my time has expired.
    Mr. Miller?
    Mr. Miller. I would like to just follow up on that.
    I have two questions, but hopefully we can just follow up 
on that, Mr. Van Kleunen.
    One of my concerns is, Ms. Noble, is in that situation, we 
have some very difficult populations to train and have them 
acquire the skills to become employable, and my concern is that 
you get sort of a more homogeneous board here and then the 
question is, how do you make sure that those populations 
continue to be a priority? One, they may be more expensive; 
two, they may not look like the people that the employers are 
seeking to employ at that particular moment and all of a sudden 
they drift down.
    And I just wondered if, Mr. Van Kleunen, if you would like 
to comment on that, and Ms. Noble. But I have a second 
question, too, so----
    Mr. Van Kleunen. Sure. Well, I do think--I mean, there have 
been some valid critiques of the current system that those who 
are hard to serve, some systems serve them very well and some 
do not. I mean, there is flexibility in the current system to 
do that. There have been things that have not been encouraging 
systems to actually make that a priority.
    I think that ways--by reducing even the funding streams 
that are already making some of those populations a priority--I 
think we are going to be moving further into that direction. I 
think setting some standards and giving some performance 
measures that actually make it easier for partners to come 
together, such as Norma has mentioned, to work together to move 
folks along a career pathway, I think that is where it is that 
we can bring a bunch of different programs and streams together 
to----
    Mr. Miller. Ms. Noble?
    Ms. Noble. When you set the standard as, what is it that we 
can do to help this number of jobs with these kinds of skills, 
and then you say, for this population, how do you get that 
population into that--into those jobs? That is how you get that 
standard met. You require every pathway, every industry sector 
to have a way to--you must show, how are you going to do it?
    Mr. Miller. I am going to stop you there. I don't know that 
that happens in this bill but we will look at it again.
    Mr. Van Kleunen, I want to ask you, one of the concerns we 
have, and the chairman raised this question of what we have 
heard about all throughout the recession is this mismatch of 
people and really how do we develop what has become, in some 
areas, to be the pathways, the models if you develop a linear 
model where people can plug into the system, acquire additional 
skills as they acquire additional work experience, and that is 
kind of a continuum that helps both employers renew the skills 
of those individuals and find people along different parts of--
--
    Mr. Van Kleunen. And I think that there are two different--
the first part--and I will agree with Norma on this--the first 
part is to figure out how to get the business community, 
members of the same industry, different firms--small firms, 
large firms--to say, ``What are the credentials that we are 
looking for?'' We currently do not have a mechanism funded by 
the federal government, encouraged by current law that actually 
encourages those partnerships to happen.
    We have a lot of those things that have been happening in 
the system over time and it seems like now is the time to make 
that a priority practice throughout all 50 States here in the 
country. And I think that once we do that then we need to 
figure out how to work with the education and training 
providers--those who are providing basic education, those who 
are doing job training, those who are working in the higher 
education field--to figure out, how do we work with the 
business community so that we have a variety of people who can 
get different types of education and support on the job, off 
the job, and develop a plan over time so that somebody who may 
take 2 or 3 years to get to that kind of good paying 
credential, but they are still employed while they are doing 
it.
    It is hard to do that unless we bring industry players 
together to make that happen, and I think--unfortunately, I 
think eliminating the programs that are prioritizing some of 
those populations that we think otherwise won't get served, 
they are just not going to be part of that solution. And I 
think that ultimately a company is first interested in training 
its own workers, which is completely appropriate, and I think 
that, you know, greater provisions for incumbent worker 
training makes sense, but it is the public sector's 
responsibility, government's responsibility for making sure 
that we are also building a pipeline of new workers so that 
other folks can actually enter into that industry down the 
road.
    Mr. Miller. Just quickly, how does the sort of what we see 
on the horizon here now, the increased use of badges for very 
specific certifications--how does that play into this and 
again, employers looking for people with specific skills? And 
there are a lot of new entities out there awarding badges----
    Mr. Van Kleunen. Right.
    Mr. Miller [continuing]. From some of the largest companies 
in the country to some of the smallest nonprofit organizations. 
How do you factor these into a modern----
    Mr. Van Kleunen. Well, yes. We have a lot of credentials 
out there. How many of them are actually recognized by industry 
as valid, I think that we need to create a mechanism at the 
local or regional level to come to that determination.
    It seems that having employers come together by industry to 
make some of those decisions would help us decide which badges 
are appropriate, which are not. And in some cases getting--you 
know, if each employer is working with a different job training 
provider and they are each coming up with their own credential 
saying, you know, to serve our community we need to kind of 
figure out what it is that we have in common here. What is the 
85 percent of the skills that we all agree we want when we hire 
a person for this particular job title? And if we do that then 
it creates a more rationale system whereby a range of education 
training providers can train to that spec.
    Mr. Miller. Thank you.
    Chairman Kline. Thank the gentleman.
    Mrs. Biggert?
    Mrs. Biggert. Thank you, Mr. Chairman, and thank you for 
holding this hearing.
    According to a recent-released report by the Labor 
Department this month, unemployment soared to 12.1 percent in 
2011 for veterans who had served in Iraq and Afghanistan since 
September of 2001. In my district the hardworking staff at Will 
and DuPage County Workforce Investment Boards, as well as the 
great faculty at the College of DuPage and Joliet Junior 
College, they all proposed a pilot program to connect veterans 
with the employment opportunities, and it is--I think it is a 
really good idea and I think we can all agree that there needs 
more to be done to support our veterans as they transition from 
military to civilian life.
    Could you each talk a little bit about the way in which 
your ability to serve unemployed veterans could be enhanced by 
the flexibility offered under H.R. 4297?
    Ms. Noble?
    Ms. Noble. I would be happy to. Thank you.
    In Oklahoma we have created the OK--this for Oklahoma, of 
course--OKMilitaryConnection.com, which ties to our OKJobMatch. 
And the OKMilitaryConnection.com is a place where veterans and 
their families can go to find all of the services they--that 
they need. The job portion is through OKJobMatch, but veterans 
and their families also need support systems and supportive 
services, and housing, and counseling. And we believe in 
Oklahoma that we should now serve those who have served us, and 
so we have a--we have brought together all of the agencies, 
both workforce agencies and military or veterans agencies 
together. The----
    Mrs. Biggert. Would the flexibility of this bill help at 
all?
    Ms. Noble. The flexibility of the bill helps in that all--
whether we are talking about Food SNAP or about the veterans 
employment and training services, it is all in the same 
umbrella. So that really helps us to meet the needs of the 
veterans.
    Mrs. Biggert. Ms. Moran, do you have any comments on that?
    Ms. Moran. Certainly. I believe that as we have local, 
business-led boards and we are making decisions at the local 
levels we are able to address those populations that are 
prevalent in our own communities. I come from a region where we 
don't have a lot of veterans but we really do focus on trying 
to help those that return to our community. We have case 
managers who are quite aware of veteran services, but by 
working closely hand-in-hand with our businesses we are able to 
identify those employers that are willing to put them to work 
and to help to transition them back into the mainstream of our 
communities.
    And again, I think that comes back by having that local 
flexibility we can help to identify those populations that need 
our greatest support. Thank you.
    Mrs. Biggert. Thank you.
    Mr. Van Kleunen, I don't know with your program if you get 
into the----
    Mr. Van Kleunen. Well, we certainly work with a lot of 
folks who work with veterans on the ground. I mean, I think 
that that is a tremendously great need that we have right now, 
as you know, because of folks who have been coming back from 
our wars. I think that while flexibility certainly will help I 
think the problem isthat there is going to be no way that we 
know for sure that veterans are going to be well served unless 
there is some way that we are measuring outcomes relative to 
veterans.
    The problem about this particular proposal, 4297, is that 
we will no longer have a way to measure whether or not we are 
serving veterans significantly or not. There is not a--there is 
not a performance measure that is targeted to their services.
    Mrs. Biggert. Okay.
    Ms. Harmsen?
    Ms. Harmsen. Yes. We do serve many veterans, and 
particularly those that are returning veterans, and one of the 
challenges that we have found is there are many programs out 
there. Every department that we have in our county and 
surrounding cities have programs for the newly released 
veterans, and I think that better coordination of those 
programs would certainly help because I think it--number one, 
it is confusing for the veteran--the newly released veteran; 
and number two, with all of those services available, just 
trying to get them linked into the services that we 
specifically are providing because we are discussing this issue 
here is--makes it also challenging and difficult.
    So I think that, again, allowing the local areas to really 
work together to try to identify how to serve that is a good 
idea.
    Mrs. Biggert. Thank you. Thank you.
    And then I have just one quick question: There has been 
broad agreement on the need to avoid a one-size-fits-all 
approach to the workforce development. Are there ways in which 
the federal government can help to disseminate best practices 
or help State boards or locals to disseminate ideas that work 
so others have the ability to coordinate and collaborate? 
Anybody like to address that, or----
    Chairman Kline. The gentlelady's time has expired. If one 
of you would like to address that we would love to have the 
response for the record. Anybody want to take that for the 
record?
    Mr. Van Kleunen. I will say that the Democratic proposal 
actually does make some provisions for that, particularly on, 
for instance, on the adult education side, where we are trying 
to create a national clearinghouse of excellence on some of 
those issues. So I think that is one area where it is by having 
some capacity at the national level that we can get 
practitioners----
    Chairman Kline. Thank you.
    Mr. Scott, you are recognized.
    Mr. Scott. Thank you, Mr. Chairman.
    Mr. Van Kleunen, can you tell me how the bills differ on 
use of community colleges and how flexible they can be in terms 
of technology and creating jobs that actually exist in the 
local areas?
    Mr. Van Kleunen. Well, the Democratic proposal does include 
some specific investments particularly targeted at community 
colleges, and it goes to a point that Norma was making earlier, 
which is that we believe that community college programs that 
work in partnership with other partners to provide a range of 
services makes sure that both those who are college ready and 
those who are still not college ready but want to be going to 
college to get some kind of technical training have the ability 
to do so.
    And so creating partnership grants where we can bring 
community-based organizations, folks who are working in 
unionized industries can work with their local community 
colleges to develop some pathways over time, I think that that 
is where it is that we will get some outcomes. And it is 
different than what has been the typical community college 
program up until now.
    Mr. Scott. Do the proprietary or trade schools have a role 
in this?
    Mr. Van Kleunen. Absolutely. I think that, you know, we 
have not enough capacity to train people for the number of jobs 
that are open in the economy today, and so I think there is a 
range of education and training providers who could play a role 
in solving some of those skill gaps, and that is allowed under 
both pieces of legislation.
    Mr. Scott. Okay.
    Let me ask any of the members of the panel, what happens to 
disconnected youth if they don't get job training? What kind of 
trajectory are they on if they drop out of school and they 
don't get job training?
    Ms. Noble. Well, it is happening now, sir. Our young people 
are not getting--not only are they not getting the skills 
training that they need, they also are not getting the jobs 
through just working, which is also a way of getting training.
    And as a result we have increased the number of young 
people who are in the underground markets of, whether it is 
crime, or just--they are now living at home with you.
    Mr. Scott. Anybody else want to----
    Ms. Harmsen. I would like to address that, as well. The 
youth programs, when we have had the--those additional youth 
dollars to assist with putting the youth to work with those 
youth summer programs, it has had amazing results for those 
youth because once they get that first job, they get that first 
paycheck and they see the value of that, that has given a lot 
of them just that impetus to turn around and want to get that 
education that is needed so that they can go further.
    Mr. Scott. My other committee is the Judiciary Committee, 
where I serve on the Crime Subcommittee, and these youth are, 
without the job training, on a trajectory that is 
disproportionately involved in crime. And therefore, I think 
since we are going to be on the hook for them anyway we need to 
make sure we focus them on the right track.
    I served on a job training committee way back in the 1980s 
and we talked--we kind of alluded to it, about the credentials, 
and the idea was to try to get credentials for every job so 
that employers looking for people knew what they were getting, 
but even if it was just a waiter--something like a waiter you 
could be Class A, B, C, where some might just need to take 
orders, you might want somebody more qualified, knows something 
about wines or something like that, so you can get 
credentialed--auto mechanic, various levels.
    Is there any attempt to get credentials for virtually every 
job position out there?
    Mr. Van Kleunen. So I would say that particularly in this 
country I don't think that we are looking for somebody to 
define for employers what the credentials should be. I think 
that the activity that we should be funding is how it is that 
we bring employers together by industry to get them to figure 
out what are the credentials that they are looking for, what 
are the skills standards that they are looking for?
    The Democratic proposal does--both proposals actually talk 
about that. I think there are actually some greater vehicles to 
actually achieve that in the Democratic proposal.
    There are some opportunities to identify credentials. For 
instance, some of the things that Norma was talking about that 
they are doing in Oklahoma, where they are using career 
readiness credentials, where it is really just kind of a way to 
certify that folks have received a certain type of basic skill 
that employers can think, ``Okay, this person is ready to take 
an entry level job or to enroll in a course.''
    It seems to me that a way we would measure performance and 
whether or not a State or locality is doing a good job is we 
actually find out whether or not they are increasing credential 
attainment. That is a performance measure--a system-wide 
performance measure in the Democratic----
    Mr. Scott. I don't want to cut you off, but I am about to 
run out of time. I would like to just ask a question for the 
record, because you won't have time to answer it in the time 
allotted, and that is if you could comment for the record on 
the effect of funding levels that are in the various bills and 
whether or not we need more money to get the job done.
    Chairman Kline. The gentleman's time has expired.
    If you could take that for the record, Mr. Van Kleunen or 
others.
    Dr. Foxx, you are recognized.
    Mrs. Foxx. Thank you, Mr. Chairman.
    And I want to thank the members of the panel for being here 
today, and also send my greetings to Governor Fallin, Ms. 
Noble, if you will----
    Ms. Noble. Certainly will.
    Mrs. Foxx [continuing]. And I thank Ms. Moran for bringing 
me greetings from a former colleague, George Daniel, in the 
State senate. Always nice to have folks here with whom we have 
connections.
    I am really intrigued by some of the comments that have 
been made by Mr. Miller and some by Mr. Van Kleunen, and I am 
going to hope to get to respond to those in a moment.
    But one particularly I wanted to point out to Mr. Van 
Kleunen, I assume you are not familiar with the fact that the 
administration has recommended itself that seven programs be 
done away with--seven of the 27 we are talking about--and that 
five of those--five additional programs have not been funded, 
one of them since 2003, and is the only program that our 
colleagues on the other side of the aisle have recommended be 
done away with.
    So while you are talking about the blunt instrument of 
consolidation being a problem, there are already 12 of the 27 
that either have been recommended to be done away with by the 
administration or haven't been funded, some of which for a long 
time, so they are effectively gone away or could be done away 
with, it seems to me, without too much--coming about as a 
result of them.
    I wanted to ask Ms. Noble and then also Ms. Moran and Ms. 
Harmsen if you would respond to this: Ms. Noble, you mentioned 
that one of the problems with the existing situation is that it 
over regulates process and that there is very little emphasis 
on accountability and performance, and that is certainly a 
major concern of ours and one reason why we are doing what we 
are doing.
    I want to ask you if there are some other examples of ways 
that the--either the Labor Department, or the Education 
Department, or any--whoever is administering the program 
focuses on the wrong things. We have heard you all say the top-
down administration, in terms of the development of the boards 
or the composition of the local boards, but can you give 
another example of some things that specifically you would like 
to see changed?
    Ms. Noble. In terms of performance, I think having the 
ability to look at impacts or outcomes rather than counting the 
numbers of people served or the numbers of people in the seat 
in a classroom. And that is why it has to be really at the 
regional level, so that you can determine what does that region 
need?
    We have some areas of Oklahoma with 12 percent unemployment 
and we have other areas of Oklahoma with 3 percent 
unemployment.
    Mrs. Foxx. I read that in your----
    Ms. Noble. And so regionally we--they have to determine 
what is best for them. In one area they are talking about 
really their pipeline in the fourth grade and preparing, and 
they want to know what you are doing to bring in labor; in the 
other they are trying to do something different. So looking at 
impacts, outcomes, and outputs, and being able to do that at 
the regional level.
    Mrs. Foxx. Regional. All right.
    Ms. Moran?
    Ms. Moran. I think also it is a focus on having the right 
outcomes that we measure, and typically in WIA you get measured 
for the number of people who go through training, and there are 
WIBs that look like they haven't done a lot. Well, the really 
effective WIBs have learned how to leverage other dollars, yet 
we don't get credit for that as a system. And yet, if we want 
to be innovative and collaborative I think that is what we have 
to start to look at is the overall system.
    Mrs. Foxx. Ms. Harmsen?
    Ms. Harmsen. Yes. Thank you.
    I believe that workforce development in and of itself 
should be recognized as a profession, that there are so many 
different programs across the board that also understand that 
their populations need assistance with workforce development, 
that there needs to be standards for workforce development that 
need to be set, and I think that the boards have been--very 
instrumental in bringing together already some of those 
programs because there is such a need.
    You have the local folks that are on your board that care 
about your community so your boards are already partnering with 
those programs. But if there were certain standards that we all 
adhered to for that workforce piece that would be outstanding.
    Mrs. Foxx. Thank you, Mr. Chairman.
    Chairman Kline. I thank the gentlelady.
    Mr. Hinojosa, you are recognized.
    Mr. Hinojosa. Thank you. Thank you, Mr. Chairman.
    I want to thank the panelists for coming to this hearing 
and participating. I want to ask my first question of Andy Van 
Kleunen.
    In your testimony you indicate that the blunt instrument of 
program consolidation will do far more human damage than the 
illness it poses to cure. But given our increasingly diverse 
workforce, what impact would H.R. 4297 have on the low-skilled 
workers, minority communities, and disadvantages youth, which 
have such a high unemployment rate? And also address what it 
would do to migrant and seasonal farm workers, also those who 
are limited English proficient, Native Americans, and older 
workers, populations that desperately need this education and 
job training programs to improve their lives.
    Mr. Van Kleunen. Well, Congressman, I think that you point 
out just by the list that you have read that we have a great 
diversity of people who are trying to either stay in our 
current labor market or get back into our labor market and 
advance in some way, and I think the concern for many folks in 
the community, and particularly people who are working with the 
types of workers that you are talking about, is that some of 
these folks are going to be higher cost than your average, say, 
WIA participant, they may take longer to actually advance 
toward some kind of a credential or a good-paying job than the 
average WIA participant.
    And once you take all those programs and put them into one 
big pot and you say there is going to be a standard for 
placement, a standard for wage gains, a standard for credential 
attainment that we are going to measure across this entire 
number of people who are served by that pot, those who are 
going to take longer to succeed are going to be typically not 
served. It is not in a State's or a locality's interest to 
actually serve them because it is going to bring their 
performance measures down. And even today, in the current WIA 
system, systems that do that do that at their own peril.
    It seems to me that we should recognize moving forward that 
we should set very high standards for accountability but we 
should reward systems that are actually serving those who are 
the harder to serve and to give them some credit for what we 
think will be a great payoff for the worker and for the local 
community if they succeed in getting a skilled job.
    Mr. Hinojosa. I agree with you.
    Why is it vitally important to create career pathways for 
the adult learners and improve adult literacy in America? I 
have been working with Congressman Roe on this particular group 
of adults who have a very low literacy of reading and writing--
maybe third grade level--and how difficult it is to retrain 
them. Give me your thoughts.
    Mr. Van Kleunen. Well, this issue about basic skills in our 
current workforce--I often use the example, in Michigan--when 
Michigan decided after all of the layoffs in the local economy 
to give anybody who wanted who had been laid off from a job an 
opportunity to go back to community college--it was anybody--
they found that a third of their dislocated workers--these were 
folks who had been working 20, 30 years in a skilled job in an 
industry that was changing--could not even take their first 
community college course. And those were people who were 
working.
    As you know, we have a lot of other folks who have not been 
working very well for quite a while. The only way they are 
going to get a skilled job is if they can get some of that 
reading and math learning in order to be able to qualify for 
some technical training.
    Mr. Hinojosa. I agree with you. Those are very important 
keys and recommendations that you are making.
    I want to ask another question of Laurie Moran.
    Ms. Moran, you mentioned that our workforce system is far 
from perfect and in great need of additional resources to 
assist those job seekers. Tell me, why are support services 
as--like counseling, transportation vouchers, placement, child 
care placement services--why are they critical for job seekers?
    Ms. Moran. I think as we look at the different regions of 
this country it comes back to why it is important that we have 
to address the local issues of a community. I live in a rural 
community in Virginia, and when you think about our State and 
you look at Northern Virginia, the issue there is gridlock.
    I laugh and share the example that when you look at my 
hometown the traffic concern we have is when the one stoplight 
catches you and it is red. But the difficulty in not having 
gridlock is that you also don't have public transit to get you 
to jobs.
    So it is important that we--as we look at the barriers that 
keep people from getting to work that we are able to serve job 
seekers at all levels. Training is important but we also have 
to help overcome the other barriers, whether it is 
transportation, or child care, or elder care, which is a 
growing concern in this country. We have got to help job 
seekers to get beyond all of those issues.
    Mr. Hinojosa. Thank you.
    My time is expired.
    Chairman Kline. I thank the gentleman.
    Dr. Heck?
    Mr. Heck. Thank you, Mr. Chairman, and thank you for the 
opportunity to work on this bill. And also, I thank you again 
for bringing the field hearing out to my district. I represent 
Southern Nevada, which unfortunately still has the highest 
unemployment rate in the nation, so this is obviously a very 
critical issue.
    Thank all the panelists for being here.
    We recently held a job fair just last week. We had over 50 
employers that had hundreds of open jobs. And as I walked 
around the job fair and was talking with them about why they 
had these job openings when we have the highest unemployment 
rate in the nation they said because when people come in to 
apply they can't find the person who is ready to go to work. 
And these were jobs ranging from entry level to--one of them 
was a six-figure income job that they were at a job fair trying 
to fill.
    So I believe that trying to get this system in place and 
modified and improved to get these people connected to jobs is 
critically important.
    And I know, Mr. Van Kleunen, you talked about the 
importance of getting businesses to agree on credentials, and I 
wholeheartedly agree, but I think other than perhaps trying to 
make a comparison with the military training, of which there is 
a national standard, it is going to be very difficult and that 
probably has to be driven by the local business community of 
what credential they want to agree on for that local community. 
I mean, we can't even get two high school diplomas from 
different States to be equivalent at this point.
    So with that, I would like to ask--Ms. Harmsen, you talked 
about the business owner who joined the WIB board because he 
said this is the way government was supposed to work. What 
perspective can local business leaders lend to the boards when 
deciding where to focus their training dollars and how can 
State and local boards better engage the business community in 
these workforce activities?
    Ms. Harmsen. Well, I think one of the--the best way that I 
can answer that question is just the example that we have used 
in our county. Because we maintained the business services team 
even through the time of the recession, during the time of the 
recession, when it first started, we went from having 2,000 
people a month coming into our centers to nearly 7,000 people a 
month, which was a dramatic, as you can imagine, impact into 
our centers.
    What a lot of my colleagues were forced to do was bring 
their folks who were out making contact with business into the 
centers just to address that need in the centers for those job 
seekers, so we didn't--they didn't have folks out there with--
making contact with business.
    What we have done is maintain that business services team 
who keeps that connection with business, and so what we do by 
maintaining that team is collecting that data and that local, 
real-time information as to what is going on with those 
businesses so that then what they have done is they have put 
together--when I identified and mentioned the Manufacturing 
Industry Council, that we also put--were part of putting 
together the Transportation and Logistics Council and part of 
the Aviation Council in our area, so that that means all these 
businesses from our local area come together on a monthly basis 
with WIB involvement, and the WIB works together to convene 
them, and we find out--the community colleges are there, 
institutions of higher learning--what are those specific 
training needs, so that we can then work together with them to 
design those courses specific to those business needs, and 
then, of course, the WIB will assist in funding. And I think 
that is an outstanding way to do that and keep all--many of the 
tenets that you have put into this bill as far as being that 
business-led--addressing those needs are met.
    Mr. Heck. And I would agree. I think when you have over 50 
employers saying that they can't find employees that are ready 
to go to work that probably they need to have more of an input 
in how we are trying to set up the credentials and get 
employees trained.
    In the hearing that I--field hearing I previously mentioned 
we had heard that Southern Nevada lost over 70,000 construction 
jobs during this recession, primarily because our construction 
workforce was about 12.5 percent of our total workforce when 
the national average is closer to 5. And so the question posed 
to the analyst was, ``Do you expect these construction jobs to 
come back?'' to which he said, ``No, we will probably never see 
that level of construction again.''
    So I turned to a representative of the construction 
industry and said, ``What are you doing to get your workers 
ready for the jobs that will be here, not necessarily the jobs 
that were here?'' And the answer was a little disappointing, 
and it was just that, ``Well, we just need to spend more money 
on infrastructure so I can put them back to construction 
work.''
    But with that, I mean, there has been a lot of debate about 
targeted programs.
    Ms. Noble, you brought up in your testimony that you felt 
that there wasn't necessarily need for targeted programs, but 
how can--give us some examples of how your State and local area 
would use these flexible funds--improve services to dislocated 
workers and individuals with limited English proficiency, 
veterans, or Native Americans.
    Ms. Noble. Let me take each one of those. For our veterans, 
for example, we are doing a couple of things. Our education 
community is working with our employer community and we are 
actually converting the skills that the veterans acquired while 
they were in service so that they will apply to the jobs that 
we do have. We are doing that by having them--the licensing 
provisions, the ability to test out so that they don't have to 
repeat a lot of their education.
    In terms of our Native American populations, which we have 
a lot of in Oklahoma, we have joined--they have joined with our 
other workforce programs by industry. In the health care 
industry, for example, in the eastern part of our State all of 
the hospitals now have joined together and determined, what are 
those steps for each one of them, and both eastern and--both 
the work----
    Chairman Kline. Sorry to interrupt, but the gentleman's 
time has expired--the old ``ask the question with 10 seconds 
left trick.''
    Ms. Fudge?
    Mr. Fudge. Thank you, Mr. Chairman.
    And thank all of you for your testimony and certainly what 
I believe is a genuine concern to improve WIA, so I thank you.
    Ms. Noble--and I am going to follow up on some questions 
that were asked by my colleagues--adult illiteracy is a huge 
problem in this country. I represent the city of Cleveland, 
Ohio, where the majority of adults are functionally illiterate. 
This means that folks are incapable of writing a brief letter 
or even finding a way, sometimes, to use a bus schedule. And it 
is not unique to my district.
    Adult illiteracy is common in so many areas, and so in your 
testimony you say that our nation cannot afford to separate 
education and workforce development because they are one and 
the same. So my question is, if this is the case, how can 
States use WIA to ensure that those in need of adult basic 
education are encouraged to return and to continually use the 
services provided at a one-stop center?
    Ms. Noble. Thank you, Congresswoman. I am an educator 
first. I started my career in education, and so I am a great 
believer that that is the way out.
    Adult education cannot--in my opinion--cannot stand alone 
because people, one, get focused on getting--I got my ABE, or I 
got my GED, and they don't see that what I am really looking 
for is a career. That is why, one, it needs to be together.
    The other part is that it is a long process, as Andy talked 
about. We have to be able, through this joint connection, to 
have a person work on learning to read but apply that reading, 
and that is why the system that looks at what is it not just 
that you know but how do you use what you know? I can then get 
a job. I can get a job while I am continuing to learn, but the 
system has to not terminate me before I get there. It has to 
allow me to get those credentials along the way.
    Mr. Fudge. But how do we get people to use it? How do we 
get the illiterate adult into the centers? Because that is as 
big a part of the problem as anything else.
    Ms. Noble. And part of, if I may, part of the answer is 
that you don't deliver services just in a center.
    Mr. Fudge. That is a big part of the problem with this 
bill.
    I am going to ask another question, then if anyone else 
wants to answer that one you may.
    Mr. Van Kleunen, back to the veterans issue: The 
unemployment rate among veterans is higher, obviously, than the 
national average. Nineteen percent of the more than 36,000 
veterans in my district are unemployed. Veterans obviously have 
served, and many continue to serve, this country honorably.
    As members of Congress we must make it a point to help vets 
whenever possible, and I think we all agree on that--especially 
when we address their education and employment needs. In your 
opinion, would consolidating--with this whole consolidation we 
have been talking about in this bill--would consolidating the 
Veterans Workforce Investment Program help reduce unemployment 
among veterans, and what impact do you believe that such a 
consolidation would have on veterans?
    Mr. Van Kleunen. Well, I do think--and again, because this 
is such an important issue, and I think that if we have to 
unpack it a bit to see, okay, if you have somebody who has come 
back as a veteran who is looking for a job, what are the things 
that we have offered to do for them so far? We have offered to 
send them to college through the G.I. bill. Many of them are 
not ready to go to college or not interested in pursuing a 4-
year degree; they are looking for some kind of technical 
training. Some of them actually do have those kind of reading 
and math challenges that we need to address.
    And to go back to your prior question, the way we get folks 
to--adults, like myself, to increase our reading and math is we 
don't ask us to sit in a classroom for 6 months, you know, 
reading books. We figure out how to train us to be able to do a 
job. That is the research says how----
    Mr. Fudge. But it is time-consuming and goes back to what 
you were saying----
    Mr. Van Kleunen. It is time-consuming----
    Mr. Fudge [continuing]. Penalized for taking on those----
    Mr. Van Kleunen. Right. So right. So that is where I think 
that--so clearly we need to make sure that we have the 
investment available for folks to do both basic skills and 
technical training at the same time.
    And I just think the other part of it is that our veterans 
need other things besides training. They also do need some 
support services----
    Mr. Fudge. Right. But I do want you to answer the question: 
Does it help or hurt if we consolidate?
    Mr. Van Kleunen. And so part of the proposal is that we are 
now taking support services out of what is a fundable service 
under what would be the consolidated workforce fund. So those 
veterans that were looking for supportive services beyond 
training in order to help them to get back into a job, develop 
a career path, we have now taken that out as a fundable 
activity.
    Mr. Fudge. So the answer is, they would be hurt?
    Mr. Van Kleunen. It would be more difficult. It would more 
be difficult----
    Mr. Fudge. I am just trying to get there.
    If anybody else wants to answer I have about a minute. I 
guess I would do either of the questions.
    Chairman Kline. You have about 2 seconds.
    Mr. Fudge. Then I yield back. [Laughter.]
    Chairman Kline. Thank the gentlelady.
    Mrs. Roby?
    Mrs. Roby. Thank you, Mr. Chairman.
    Thank you all for being here today. And I am going to start 
with Ms. Noble.
    If you would just shed some light on whether or not you 
feel the current workforce investment system is spending enough 
money on training, and will eliminating the burdensome sequence 
of services provision and reducing burdensome requirements for 
trainers--excuse me, for training providers help increase 
access to training?
    Ms. Noble. Okay. Depends on where you live as to whether it 
is spending enough on training, and I say that because we have 
areas that--where the workforce board has said, 40 percent, 50 
percent must be spent on training. But in those areas where 
they don't have enough workers they don't want people to be in 
long-term training; they want people to work and train. And so 
it is what is going on in that area that should determine what 
the menu should look like.
    Mrs. Roby. Well, and then what else do you think that the 
committee could contain in this bill as it relates to that?
    Ms. Noble. I think training should be encouraged by 
determining what kinds of and how many credentials and 
certificates the participants are receiving. That way they can 
get it through apprenticeships, internships, as well as 
classroom training and combinations of work-based training.
    Mrs. Roby. Okay. Thank you, Ms. Noble.
    Ms. Moran, in your testimony you discuss the specific 
education and job training needs in your community, citing that 
50 percent of job seekers in your area have a high school 
education or less. Can you describe how your locally driven 
system would ensure the needs that--of your area are 
specifically met?
    Ms. Moran. Certainly. Thank you.
    Because we have a very active and engaged workforce board 
that has strong collaboration throughout the community, both 
with businesses as well as with community college, adult 
education, and other programs, we work to address those issues 
that are of critical need. Most of our employers today require, 
at a minimum, a high school education. So if we can't bring the 
education level up to at least that level we are doomed before 
we start.
    So we look at how do we work with K-12, how do we work with 
the community college and higher education, how do we work with 
training providers, adult education, and we really focus our 
efforts on that, because it is difficult to get into the skills 
training without also having the basic educational levels. And 
I think that is where that local, business-led board has been 
important.
    Mrs. Roby. And how does this bill, H.R. 4297, offer a step 
in the right direction to ensure local control and decision 
making are in place?
    Ms. Moran. This bill does allow for that local control and 
decision making. It allows for the local boards to determine 
the amount of training, so as we look at some of the needs that 
might not be classified as training, whether that would be the 
literacy or adult education, those decisions would come back to 
the local boards to decide how much should be training and how 
much should be allocated for other areas.
    Mrs. Roby. Thank you.
    And quickly, Ms. Harmsen, we often hear in Washington that 
if there is no dedicated federal funding program or funding 
stream to aid specific populations with employment and training 
services then this will permit states and locals to skirt their 
responsibilities in helping those individuals find and retain 
employment. Can you speak to this issue specifically?
    Ms. Harmsen. Yes. I think that--and I had stated this in my 
testimony, as well--that we respect our partners. Our partners 
have a role in each of those specialized populations and that 
workforce is such an important key issue for each of those 
specialized populations. And I think that if, again, we are 
able to identify what the tenets of workforce development 
should be that those guidelines can be followed to ensure that 
all of those population's needs are met.
    I think that it is coordination together is really what 
needs to happen with all of the funding. How the workforce 
dollars go out into each of those different programs is 
coordination together to say, here are--and that is where I 
think the local system is so good because it is that direct 
connection to business that say, here is where the business 
needs are, here is where we need to train, here is what we need 
to do, and here is how we can help each of those populations.
    Because we know that the members that are on our board live 
in these areas, as well, and they are concerned about those who 
are underemployed, those who are receiving assistance and 
getting subsidized employment and the parolee populations, and 
that sort of thing. And I think that they are not--they are 
very concerned--they are very concerned about all of those 
populations.
    Mrs. Roby. Right. Thank you so much.
    Mr. Chairman, I yield back.
    Chairman Kline. Thank the gentlelady.
    Ms. Woolsey, you are recognized.
    Ms. Woolsey. Thank you, Mr. Chairman.
    I think one of the things we have to keep in front of us 
while we are talking about this is one of the major values of 
WIA is that employer willingness--Ms. Moran referred to willing 
employers--I mean, willing to what? To train, to support, to 
hire what populations?
    I think it is important that WIA has replaced willingness 
with expectations--actual expectations and the support systems 
that will be available using federal funds and measured by 
outcomes and outputs. I mean, we cannot overlook that one of 
the reasons we have WIA in the first place is that populations 
were going underserved, and for us to even suggest using 
federal funds and not address the underserved and not have a 
way to measure this is something we cannot allow.
    So, Mr. Van Kleunen, one of the populations I am 
particularly concerned about is the workers with disabilities, 
and when I say that I mean also--I include recovering substance 
abusers in that population, of course. And we know, willing 
employers may not want to deal with substance abusers who are 
being rehabilitated and could fall off the wagon, or whatever. 
So, I mean, it is a worry and it is going to take more.
    So I believe there is--and you can correct me if I am 
wrong--there are about 1 million individuals with disabilities 
and another 35,000 waiting on a list for services, and so my 
concern is if--what this Republican bill will do if it allows 
states to divert vocational rehab funds away from individuals 
with disabilities.
    Mr. Van Kleunen. Well, this is one of the parts of the bill 
that we have not talked about yet. So we have talked a lot 
about the 27 programs that are federally charged to be put into 
the consolidated fund, but it does also create an opportunity 
for states to take a whole other list of programs, including 
vocational rehab services, to also include them, so it could be 
a much longer list than 27 within any particular State. And 
certainly for folks who are living with disabilities or serving 
people who are living with disabilities this is a great concern 
precisely because, back to the issue of--these are--for those 
who are seeking employment it is a--some, for them, a long 
process.
    And the reality isthat there is a great diversity within 
our disabled community that is currently served by the V.R. 
program, and to set one standard that we are going to--across 
all of those clients for employment outcomes is actually not 
recognizing that there are different folks with different needs 
within that population. So that current program, as it exists, 
kind of recognizes those dual purposes of people who are served 
by V.R.
    Ms. Woolsey. Right. Could you give us an idea of which 
services would be at risk if we did this, or is it just getting 
on the will----
    Mr. Van Kleunen. Well, I think that it is a matter--it is 
as much a matter of breadth as it is--so I think that what will 
happen is if the vocational rehab services are pulled within to 
a State's consolidated fund I think that the range of services 
that are going to be provided to people currently qualified for 
V.R. is going to be narrower; I can't say specifically which 
ones are going to be gone. And it probably is that those that 
are easier to serve within the V.R. population are most likely 
to be served as opposed to those who are the harder to serve, 
even within that particular category.
    Ms. Woolsey. Thank you.
    Ms. Moran, in your testimony you state that we should judge 
job training programs by their results. And you mentioned that 
over the past 3 years 8.7 million Americans have used WIA 
services, a 252 percent increase, and that 55 percent of these 
workers have found jobs despite the fact that there were four 
job seekers for every job. That seems to be a pretty good 
number to me.
    Do you think that these results justify scrapping the 
entire WIA program and turning it into a block grant or would 
it not be better to fix--maybe making your panels smaller or 
something?
    Ms. Moran. We believe there have been some good results in 
this system. We also believe there is always room for 
improvement.
    I don't know that I would refer to saying that we should 
scrap the entire system but I think we need to look at how to 
continuously improve the entire system. How do we put together 
those efforts and programs to build on the successes, to look 
around the nation at those areas that have been successful and 
replicate that so that all areas of our nation are having these 
success levels? But we do believe there have been successful 
outcomes due to the collaboration and the innovation that has 
happened at the local level, you know, in present day.
    Ms. Woolsey. Thank you, Mr. Chairman.
    Chairman Kline. Gentlelady's time has expired.
    Mr. Walberg?
    Mr. Walberg. Thank you, Mr. Chairman.
    And I thank the panel for being with us today, talking 
about a subject that is extremely important all across this 
nation in your districts, your areas, but also in mine.
    Ms. Noble, in your testimony you urged the workforce 
investment system to, and I quote--``manage results, not 
process.'' Could you describe for us what a State must 
currently measure in terms of reporting requirements, how much 
time this takes, on average, and why you believe it is 
currently--underemphasizes the performance aspect?
    Ms. Noble. Currently, we do important things like, one, 
look after the money to make sure the money is spent right, and 
that has to be there, but we also----
    Mr. Walberg. That is not a bad idea----
    Ms. Noble. That is not a bad idea. But also, we do data 
validation. We spend a lot of time doing data validation. We 
require almost 100 percent--the--at the local level, that they 
are spending their time looking and monitoring and going 
through files that have been put together by case managers, and 
then the State sends out people to go through those same files 
by one--and sees how you are keeping those, and counts them 
again. And then at the State level we monitor ourselves, and 
then the federal level of regents come in and they--this is 
just on data validation.
    Mr. Walberg. This is unnecessary redundancy, you would say?
    Ms. Noble. Yes. Just as one kind of example.
    We count how many people go to work. We are under common 
performance measures in Oklahoma, so ours already are less than 
others have. But we want to know, did you go to work? Did you 
receive--did you go to work in an area where you received 
training? Did you stay in that job 6 months later?
    And those are, to me, the common measures that should be--
for any program--should be able to tell, did you put someone in 
training? What were the results of that training? Did they get 
a job? Did they keep the job? That is what you need.
    Mr. Walberg. Well, in light of that, then how will the 
performance system set up under this bill, H.R. 4297, improve 
the accountability of federal funds?
    Ms. Noble. What we will have on the performance system is 
all of the programs--right now each program has its separate 
standards. For example, we were talking about rehab and Andy 
was correct that rehab currently says you serve those people 
who are the most--have the most disabilities. Now, if that is 
what you want to continue then put that in the bill.
    When we have fewer people, though, and we have lots of 
people who have disabilities and who need services, right now 
those are all referred to rehab. Yes, everybody could serve 
them. Adult education can serve them; WIA can serve them. But 
they get siloed, and that is the problem. If you happen to come 
on the wrong day to one of those siloed programs and I don't 
have any money you don't get service. Bringing it together 
allows me to pool the money and provide services to the people 
in my area that need the service.
    Mr. Walberg. Thank you.
    Ms. Harmsen, in your testimony you briefly talk about 
community colleges, which are having an outstanding resurgence 
in my district, looking toward real-world issues, including 
advanced manufacturing and the like. In Michigan we have 
pioneers in workforce development, like the Lansing Community 
College, helping job creators access a workforce trained for 
their specific needs. How would H.R. 4297 help organizations 
like community colleges participate in federal workforce 
development programs to educate and train potential employees?
    Ms. Harmsen. Well, I believe that the tenets of the 
legislation reference that, that we are working together with 
those community colleges and those institutions of higher 
learning, and I think that that is absolutely necessary for us 
to do, because they are in the--I, too, I believe in education.
    Education is so very important when you are looking at not 
only just a job, and I think that that is one thing to think 
about. When we think about the spill in all of those 
populations, which I am hearing is such a concern, and it is a 
concern for us on the ground level as we are serving those 
populations, because there are some folks who need to come in 
and just learn how to work, learn how to--I was thinking when 
someone was talking, I had someone tell me 2 weeks ago in a 
meeting that one of the biggest concerns they are starting to 
see is the insurgence of people coming into the centers that 
are 25 years old who have never worked.
    Mr. Walberg. That is amazing.
    Ms. Harmsen. Holy cow. But the community college piece, I 
think, so very important in working together. And what we have 
seen is our community colleges' ability to be flexible, working 
with the employers to tailor the programs to what they need, 
and we love the part--the piece of the bill that talks about 
being able to directly contract with those community colleges 
to work with employers, because that has been a remarkable 
thing that has shown great success in our county, and I know in 
other WIBs, as well.
    Mr. Walberg. Thank you.
    Mrs. Foxx [presiding]. The gentleman's time is expired.
    Mr. Loebsack?
    Mr. Loebsack. Thank you, Madam Chair.
    I really do appreciate the hearing today. This is 
something--I have been in Congress since January 2007 and we 
have been talking about reauthorization since that time--
reauthorization of WIA--so this--I think it is a really 
critical hearing.
    Also, I am very happy that there are some references to 
sector partnerships in the majority bill. I want to thank 
Representative Platts for working with me on a bipartisan basis 
on the SECTORS Act, which, I want to point out, did pass the 
House unanimously in the last Congress at the end of the last 
session, the 2010. I also want to thank Chairman Miller and Mr. 
Tierney for including the SECTORS Act in their Workforce 
Investment Act of 2012, and I urge the majority to continue to 
work in a bipartisan manner to produce a bill that can help get 
really millions of unemployed back to work and, of course, 
boost our overall economic growth.
    As I mentioned, I have been working to move forward this 
sector partnership for workforce and economic development for a 
number of years. I really do believe that we need to better 
organize training and education and bring together all the 
critical folks in a community around sector partnerships, and 
higher education, and community colleges. Very, very important. 
They are, as well, in my district, throughout Iowa, throughout 
the country. I think it is absolutely critical. Workers, 
unions, where they might have apprenticeship programs, for 
example, as well.
    And of course, management. Of course, employers that 
determine how to save and create new industries, how to 
streamline the system to get people the training they need, the 
skills that employers want. We are constantly hearing about the 
skills gap. It is a bipartisan concern, I think it is fair to 
say.
    I do have concerns about the bill and about the 
consolidation in the bill. I believe we really need to 
diversify input into workforce development systems through 
sector strategies because our communities are diverse, and to 
move forward we are going to need to work together and not 
divide our communities.
    I want to ask each one of you specifically to give a 
response to me when it comes to sector partnerships what you 
think about this particular bill and also the Democratic 
alternative, as far as incorporating the idea of sector 
partnerships and support for sector partnerships into any 
reauthorization of WIA that we see moving forward. And I would 
like to start with Mr. Van Kleunen, if I might.
    Mr. Van Kleunen. Well, and obviously to the extent that we 
are all talking about this concept and this strategy, which 
really has been developed without the support--direct support 
from the federal government since WIA was authorized. I mean, 
this is where the field is way out in front of where we have 
been with our national legislation, so let's at least put into 
legislation moving forward an investment in the very 
partnerships that up until now some states have developed using 
some of the 15 percent money, which now has been taken away and 
is actually is not included back in with 4297.
    Let's really make that a standard that we have some States 
that are doing this and some localities and some boards that 
are doing this; we have a lot that are not. Why do we not make 
that a standard that everyone who is receiving funding from the 
federal government for workforce development that there should 
be some effort to organize employers by industry with other 
stakeholders. That should be a baseline expectation. We can't 
achieve that unless we actually put it into law.
    I do think that the Democratic bill actually does that in a 
number of different ways that we don't achieve with the 
Republican proposal.
    Mr. Loebsack. Thank you.
    Ms. Noble?
    Ms. Noble. Sector partnerships, Congressman, are just 
vital. I will give you three examples.
    The Texhoma partnership in Oklahoma, and--which was funded 
with 15 percent funds--we trained each of our boards in how to 
do it, and these still exist today. They are very strong. This 
is Oklahoma and Texas together dealing with what are the 
important industries? They identified them, built those 
partnerships, and each of the chambers of commerce contributed. 
So that is the way you get--you finance some of this.
    Some of the best known States in--that I have worked with 
across the country have modeled after sector partnerships. 
Boston is important today in its workforce work because of the 
sector partnership that actually started under the PICK, which 
is--that shows how old I am. Washington State is doing a lot of 
avant-garde work, and it is led by its sector partnerships.
    We funded in Oklahoma and our--those areas, that is how our 
tribal nations, which are often separate, that is how they have 
come together with non-tribal entities. Sector partnerships is 
industry-leading. The key is industry-leading.
    Mr. Loebsack. Thank you, Ms. Noble.
    We are almost out of time. I would like to submit that 
question to the other two for the record and get your response, 
if I might do that, Madam Chair.
    And again, I introduced this bill when I did because I had 
heard from the communities about how important sector 
partnerships are, so thank you very much.
    Thank you, Madam Chair.
    Mrs. Foxx. Thank you, Mr. Loebsack.
    Mr. Tierney?
    I am sorry. Mr. Platts?
    Mr. Platts. Thank you, Madam Chair. I certainly would be 
glad to waive my turn behind Mr. Tierney, but I do appreciate 
the chance to----
    Mr. Tierney. Don't blow it. [Laughter.]
    Mr. Platts. Well, Madam Chair, I want to thank you for your 
efforts in the reauthorization, as well as the full committee 
chair and all the members, both sides of the aisle, who 
understand the importance of this reauthorization and that we 
not just do it but do it well.
    I am going to echo Mr. Loebsack's comments about sector 
partnerships and I appreciate--that was an issue I was going to 
address, but as a cosponsor with Congressman Loebsack don't 
want to repeat on that issue and maybe touch on one that goes, 
I think, hand-in-hand.
    In addition to being the lead Republican with Mr. Loebsack 
on the sectors partnership, I am the lead Republican with Mr. 
Donnelly on the America Works Act, which is to then promote 
the--what has been discussed here to some degree already--the 
nationally recognized, very portable skill credentials. I know 
in my district I certainly hear from my employers--mainly 
manufacturers--and I believe I have seen a number where 
hundreds of thousands of jobs in the manufacturing community 
today are empty because employers can't find the skilled labor 
force to match up to them.
    And I have to say, my--personally, my ninth grade son, 
T.J., who loves working with his hands, his newest endeavor 
is--in his--one of his classes at school he is getting more 
exposed to welding, to where now we have a portable home 
welding unit, where he has begun to heighten his skill level--
carefully, I have asked him and reminded him. Yes, we don't 
want to burn the house down.
    But as he was doing it I was thinking that, you know, I am 
glad to encourage him. I mean, he is in a college prep program 
but I am glad to encourage that skill as well, because it may 
be that in the end he decides that he doesn't want to go the 
college route, and I know today that if he had a welding skill 
he would be hired like that in a very well-paying job.
    And so in Representative Donnelly's bill, that I am the 
lead R with, with Joe on, is to try to promote that national 
recognition, the portability.
    And I apologize, running in and out, if you have already 
touched on this, but I know, Mr. Van Kleunen, your association 
really promotes this idea, I believe. If you want to comment or 
any of the witnesses on the importance of that portability--not 
just that we have credentials but the portability of those 
credentials and how you think that would benefit workforce 
training and filling these empty positions that are so 
important to our manufacturing community.
    Mr. Van Kleunen. Absolutely, Congressman. I mean, we think 
that there is room for both nationally recognized, portable 
credentials so that folks can move around the country. We also 
think there is also room where it is necessary when there are 
national credentials that don't necessarily meet the specific 
needs of the local labor market or the niche that that 
particular industry is trying to fill, where there is 
opportunity for those employers to come together to come up 
with their own skill standards. But we think that having a 
balanced approach between the two is exactly where we should be 
going to be making clear both to employers as well as to 
workers what it is that the skills are that we are expecting.
    Mr. Platts. And is it fair to say that if you partner the 
SECTORS Act with this idea of credentialing you really, then, 
kind of determine, with some that may be nationals, but those 
partnerships in a community, that they may--that partnership 
will lead to a community-wide credentialing, that they kind of 
go hand-in-hand?
    Mr. Van Kleunen. We think they go hand-in-hand. We think it 
is the right way to bring people to the table and it is the 
right way to set a standard that other folks can adopt.
    Mr. Platts. Okay. Thank you.
    Ms. Noble. Yes. Our manufacturers, for example, in our 
State have come to the State councilmen and asked for a--an 
Oklahoma version of NAM. They buy into the NAM portable skills 
but they also want some other things because they want to count 
it different than NAM counts it. And the aerospace community 
has similar--we have done aerospace studies and we can tell you 
what skills are needed, from a paint-striper to an engineer.
    And to do that, though, it takes a lot of work. But once 
you do it we can then prepare high school students as well as 
our engineering students.
    And just this week the deans of our private school and 
public universities--engineering schools--came together with 
our leading aerospace companies to talk that pathway.
    Mr. Platts. Great.
    Ms. Noble. That is what we have got to do in our country.
    Mr. Platts. Yes. I know I am about to run out of time. And 
I have seen this personally with my oldest brother, who was 
trained in--years back in heavy earth-moving equipment, top of 
his class in the training, graduated, but there were no jobs in 
that industry anywhere close, and so he got great training 
through, you know, the loss of jobs going overseas, but if it 
wasn't--there wasn't a job. So this partnership that we 
identify the jobs and the skills--together, appreciate all of 
your efforts.
    Thank you, Madam Chair.
    Mrs. Foxx. The gentleman's time is expired.
    Now, Mr. Tierney?
    Mr. Tierney. Well, thank you very much.
    The prospect of a 9-year-old Platts running around 
Pennsylvania with a torch ought to get us all unsettled, but 
particularly if we live in that State and that neighborhood.
    On that, thank you. Madam Chairman, I would like to ask 
unanimous consent to enter into the record about a dozen 
letters from various organizations commenting on the bill that 
is before us today and the Democratic alternative.
    [The information follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                                ------                                

    Mrs. Foxx. Without objection.
    Mr. Tierney. Thank you very much.
    I have prospects that this can be done on a bipartisan 
basis. Ms. Moran and others have mentioned that. And I am a 
little troubled that the bill was filed a day before we left 
for 2 weeks in the district, and the hearing is the day after 
we get back, and now I understand it is going to be marked up 
within a week. I would hope that we could spend some time and 
really sift through this.
    Let me ask folks, there have been comments favorable to the 
bill that is before us today, and some that have some concerns 
on that.
    Ms. Harmsen, do you think that there are some provisions in 
the bill that was filed by Mr. Miller, Mr. Hinojosa, and I that 
could improve upon the bill that is the subject of today's 
hearing?
    Ms. Harmsen. I think that the things that I have discussed 
are really something that should be a focus, is making sure 
that that local control is local at that local area.
    Mr. Tierney. And that would be one improvement?
    Ms. Harmsen. Yes, and business. Really focusing on that 
business.
    Mr. Tierney. Mr. Van Kleunen, do you see things in the bill 
that Mr. Miller, Mr. Hinojosa, and I filed that could be, in 
fact, be improvements on the bill that--today?
    Mr. Van Kleunen. Absolutely. I mean, there are a number of 
areas where I think, around issues of performance measurement, 
where I would think that it is aligned with the motivations of 
the Republican bill. I think that we could improve the 
Republican bill using some of those performance standards.
    I think the focus on business and sector partnerships that 
we have talked about--I think could also be another way that 
could help to define some of those standards on the local level 
for it to be meaningful in the business.
    Mr. Tierney. Thank you.
    Ms. Moran?
    Ms. Moran. And certainly I support the bipartisan effort 
because I think this is such a critical effort, that if we can 
look at those common areas and those shared principles that we 
have talked about--the business-led boards, having that local 
decision and that local delivery system, looking at outcomes 
that are meaningful and have value to employers and to job 
seekers--and then working on those areas.
    And I think there are some areas that we can look at as to 
how do we improve? You know, one of the areas from the Democrat 
bill that I would love to see readdressed is mandating the 
percentage of money that goes to training and allow that to be 
a local decision.
    Mr. Tierney. On that issue, let me ask this: The principles 
of the National Association of Workforce Boards have for 
policies state that locally-based, employer-led workforce 
investment boards are in the best position to develop 
strategies that align to the need and economic development 
investments. You go on to say the funds designated to statewide 
use should align with local or regional workforce and economic 
development strategies and that locally-based workforce 
investment boards should have a voice in those funding plans. 
Correct?
    Ms. Moran. Correct.
    Mr. Tierney. Now, I hope--we tried to address that in the 
bill that we filed, but I note in the bill 4297 that is before 
us today, it gives--it consolidates a number of programs, as we 
have talked about, it gives additional authority to governors, 
and in fact, it would allow a governor, if so inclined, to 
combine to just have one board statewide. Now, you state on 
page six that you have a--there is a delicate balance between 
State and local areas. Are you concerned by the prospect that a 
governor could have just one board statewide, might not strike 
that--that balance at all, as well?
    Ms. Moran. We would certainly encourage that that balance 
be between the State and the locals so that you do have local 
regions that make economic sense and that they are labor 
market-driven. So we would very strongly encourage that the 
local areas be engaged in that conversation and decision.
    Mr. Tierney. Okay. Now, one of your association principles 
is also that a physical one-stop shop infrastructure be funded 
separately. Do you see that anywhere in the bill by Ms. Foxx, 
Mr. Kline--the one we are discussing today?
    Ms. Moran. I have not seen that separate funding at this 
point.
    Mr. Tierney. Mr. Van Kleunen, you talked at length about 
the core reasons that we have a workforce investment bill, 
ensuring that all workers have access to education and training 
leading to skills and industry-recognized credentials that will 
allow them to keep family-supporting jobs--broadly stated on 
that. You also said that consolidation was not reform. What 
concerns do you have about consolidation and how it might 
detract from that original core goal that you set forth?
    Mr. Van Kleunen. Well, I think, as I said already, I mean, 
our concern about if we are not making sure that our publicly 
funded programs are giving a wide range of workers an 
opportunity to prepare for the skilled job in a local 
industry--and again, I believe that that is a role of the 
public sector. It is a role of industry to say, ``Here are the 
standards that we are looking for.'' It is the role of the 
public sector to make sure that anybody who wants to train for 
that job, whether it takes them 6 weeks or 6 months, that they 
are going to have an opportunity to do that. And we fear that 
the consolidation proposal will make it harder for those who 
are going to be the harder to serve to actually get to that 
point.
    Mr. Tierney. And harder still if the board doesn't reflect 
at least some people from community-based organizations, and in 
labor, and others.
    Mr. Van Kleunen. Absolutely. Because this is a shared 
process, right? This is something where we are trying to serve 
both businesses and workers and the broader community. And I 
think that we need to have all of those stakeholders around the 
table to figure that out.
    Mr. Tierney. Thank you all for your testimony today.
    Thank you, Madam Chairwoman.
    Mrs. Foxx. Your time is expired.
    I just want to say that I find it absolutely amazing that 
the United States of America got to the point it got to, got 
through World War II and won World War II without a single 
federal government worker training program, and now the world 
will end if we don't continue them and in silos.
    Dr. Roe, I believe you are next?
    Mr. Roe. Okay. Thank the chairman, and thank you for having 
this hearing, and I am sorry I have had to jump in and out but 
I have enjoying hearing the testimony, and certainly from the 
folks down at the grassroots level. And having been an employer 
for over 30 years and realizing that what you needed to do was 
to line up the skill set with what you needed as an employer.
    And to me, when I visit our--I am in the service industry 
as a physician, but I have visited a tremendous number of 
manufacturers in our area and you hear that all over every day. 
Can you pass a drug screen? And number two, do you have the 
skills that we need in this job?
    And I think, Ms. Noble, you made the best comment I have 
ever heard. It is really pretty simple. When you train 
somebody, and when industry comes in and you train these people 
do they get a job, and then 6 months later do they still have 
the job? And that is fairly common sense, what you just said, 
and I think that is the metric that you need, and that is the 
metric I would need if I am out there looking for work and I go 
to this one-stop shop and can they train me where I live, as 
Todd Platts was saying--they did not in that case. They did a 
lot of great training but there was not job.
    And having local community line those jobs up, I see that 
as the biggest detriment to people finding jobs. It may not be 
exactly what you want--welding was brought up. We have a 3-year 
wait in my area for people to get into welding. There is a huge 
need for it, and yet we are not training enough welders where 
we are for the jobs we need.
    So I would like to hear your comment, Ms. Noble, on that.
    Ms. Noble. I agree, obviously, that the industry needs must 
be met and must drive what we do. And that is really the best 
way to get services, I believe, to everyone. If I have no 
skills now and I have limited education, if you can show me a 
way to get those skills and to get some--I may start on the 
bottom rung but at least I have a pathway that I can get--that 
is why the State of Oklahoma has invested so much in career 
pathways that align with industry sector work.
    Mr. Roe. Congressman Hinojosa and I have worked on adult 
literacy together, and that is the least investment we see in 
Tennessee, it is several hundred dollars to get a GED but has 
the most bang for the buck. Does this bill address adult 
literacy--just any of you want to take this--in an adequate 
enough way? I am asking this as a question, rhetorically.
    Mr. Van Kleunen. The bill that we are talking about today, 
it does allow for the integration of adult literacy services 
into the larger pot. I think that we have--to your point, and I 
think we have said it several times, making adult literacy 
services guaranteed to be available and to be integrated with 
technical training is absolutely essential. We think the 
consolidation proposal actually may reduce the availability of 
adult literacy services because, again, those who require them 
are often harder to serve clients.
    And so I think that is the concern. We want to see them 
aligned but I don't think we want to see adult literacy 
services diluted by throwing them into the bigger pot.
    Mr. Roe. Okay.
    And, Ms. Moran, do you have a comment? I know the people 
that I really listen to are the people down in the trenches 
every day that do this job every day. Are we making this 
easier--will this bill make this easier for you to do your job, 
to provide the services that you have out there?
    Ms. Moran. I actually believe that the improvements we have 
been talking about today, the principles we have been talking 
about, making sure that it is employer-led, that the local 
areas have the decisions and are delivering the product will 
make it easier. Because I think it is difficult to mandate it 
from the federal government; I think it is difficult to mandate 
it from the State government. These are local decisions that 
really need to be responsive to the business environment in the 
local communities, and that will make it easier for employers 
and job seekers.
    Mr. Roe. And when a business is getting ready to expand or 
a business is going to move into your community you have to 
have those things. You have to have a ready, well-educated 
workforce.
    I am going to give you an example right now. In 
Chattanooga, Tennessee--I don't live there, but Volkswagen is 
expanding dramatically and they are having to bring workers 
into that area because they don't have the fully skilled people 
that they need.
    So community colleges, I think, are--make a turn a lot 
quicker than 4-year colleges and they are able to provide those 
workforce skills much quicker, and then what you all do, also. 
But I think the skills gap is the biggest--I think that is the 
biggest detriment we have in the country. Every employer I have 
gone to has told me that very thing.
    And I yield back my time.
    Mrs. Foxx. Thank you.
    The gentleman from Tennessee yields back and sets the 
record for ending before the end of time today. We thank him.
    I believe, Mrs. Davis, you are next?
    Mrs. Davis. Thank you, Madam Chair.
    And I appreciate you all for being here. I have to run out 
for another meeting but I wanted to come back to the question 
and in some ways identify my comments with Mr. Tierney's in 
terms of his questions, focusing on consolidation, because that 
seems to be the biggest difference.
    As I have sat here and listened to you all, sounds to me 
like there is a lot of agreement there and we keep going back 
and forth between two bills that would suggest to me that 
actually there are very good issues that are addressed in both. 
But the one that concerns me is the consolidation and the 
funding.
    One of the things that we know--and if we even go back to 
No Child Left Behind--you have to disaggregate data. You have 
to be able to judge whether all people who are part of 
workforce development have an equal chance of opportunity to be 
successful in the program--can't guarantee results, but an 
opportunity to do that. And what I think I have heard you all 
say in one way or another is that through consolidation, you 
are going to lose the ability to do that, and that is a very 
important thing for locals to be able to evaluate.
    Is that correct? Did I miss that? And could you speak to 
that, whoever wants to?
    Mr. Van Kleunen?
    Mr. Van Kleunen. Absolutely. I think by, again, by putting 
all of these programs together we have lost the ability to set 
standards and establish some accountability to make sure that 
all of those different types of workers are served. And so I 
think you are absolutely right.
    Strategically, it seems that there are a lot of ways that 
we could figure out some agreement across these two bills, but 
it is the funding mechanism that is making it hard for us to 
figure out how it is that we can actually come up with a way 
that is going to guarantee that everybody who wants that 
opportunity can actually train for a job in their local 
community.
    Mrs. Davis. Ms. Harmsen, did you want to----
    Ms. Harmsen. Yes. And I agree, it is the funding mechanism. 
Because I think that we are all concerned about all of those 
populations that are in our local areas that need to be served. 
And so I think that we need to make sure that if we are--what 
we are consolidating is, again, the guidelines over how we are 
serving those different populations----
    Mrs. Davis. Do you see, in the bill that we are addressing 
here today, then, do you see, particularly in 4297, do you see 
that--I mean, do you have questions about that? Because I think 
I have heard you say that on a number of occasions. Is that 
correct?
    Ms. Harmsen. Yes. Because, well, obviously I don't have 
that 50,000-foot view of what is going on with all of the other 
programs that may be--because when I read the bill and it was 
saying that there were programs that were not performing, I 
don't know that. I do know that--I don't know which programs 
are non-performing or performing. I do know that WIA has been 
performing and that we have been partnering with those other 
programs already, so if there was something that was able to be 
put in place to ensure, so that, like we are saying, that each 
of those populations are still serve some mechanism that, 
however you are consolidating this, I still think it is that 
concept of the funding for workforce services.
    Mrs. Davis. Ms. Moran?
    Ms. Moran. And I don't have a magic number of how many 
programs do we consolidate, collaborate, integrate, whatever 
the magic word of the day is, but I do think it is critical 
that the programs come under the umbrella of the workforce 
investment boards so that we do have consolidated efforts in 
the work we are doing, so that we are not duplicating efforts, 
so that we are building upon the strengths of what we need to 
do----
    Mrs. Davis. Could you tell me how you think that the bill--
the other bill that we are talking about here today--Mr. 
Tierney and others' bill--could you tell me how--why you think 
that doesn't do that?
    Ms. Moran. I am not saying that it doesn't do that. What it 
does allow, and I think what both allow as they look at the 
programs, is keeping it under the umbrella of the workforce 
investment board so that we have a common plan, that we have 
common outcomes.
    And by looking at how we consolidate some of the programs 
or integrate, then I think we also look at how we make 
investments that have the greatest payback and return on 
investment for our local communities. So I do think it is 
important that we have outcomes that are consistent across the 
board and that we are administered through the workforce 
investment system.
    Mrs. Davis. Ms. Noble, would you like to comment, too? 
Where do you see the problem in trying to bring all this 
together?
    Ms. Noble. I think the problem is the lack of a required 
unified plan. You can have separate programs if they are all 
driving toward the same goal, and if they are not driving 
toward the same goal you have what you have now.
    And it is not that individual programs are not performing, 
but they are not performing toward the same end. And the end is 
that you have jobs that are being filled by people who are 
acquiring skills.
    Senior programs, rehab programs, TANF programs, when we 
said--when the council said, we want you to focus on programs--
your funding toward health services, or--because we had such a 
tremendous shortage, TANF training said, ``We can do that 
through our contracted work. We didn't consolidate.'' WIBs took 
the same approach. They said, we can join together with other 
WIBs and other kinds of training entities. The rehab, in their 
plan of the year, could do the--the problem is that it is not 
mandated.
    Mrs. Davis. Can I just, really quickly--do you think we can 
do this but have far fewer resources to do it?
    Mrs. Foxx. Mrs. Davis, I am sorry. Your time is up so I 
can't let you ask any more questions. Thank you.
    Mr. Hurt is recognized.
    Mr. Hurt. Thank you, Madam Chair.
    I want to thank you, and thank the committee, and thank the 
chairman for allowing me to be a part of this hearing today. I 
want to thank the patrons who have led on this issue and have 
the bills there before the committee.
    And I also wanted to thank the panel for joining us.
    I come from rural Southside Virginia. I represent the 5th 
district of Virginia, and of course, as one of our panelists in 
particular knows, we have really faced tremendous economic 
challenges in the southern part of our district in particular, 
but all across the 5th district. In fact, textiles, furniture, 
tobacco have been a mainstay for our rural district for 
centuries, and we have seen over the last 10, 20 years how that 
economy has changed.
    Back in the 1950s, Dan River Mills, which is located--was 
located on the banks of the Dan River, employed 15,000 people. 
It was the second largest employer in Virginia after the 
shipyards in Newport News. Today Dan River Mills does not 
exist, and I think that that tells a very painful story for 
Southside Virginia, but it also tells a painful story for so 
many communities across our country.
    In fact, last week, or maybe earlier this week, we had 
unemployment numbers released for one of our localities in the 
5th district and it was at 16 percent. So that is the challenge 
we face. That is the challenge that I think we are all trying 
to grapple with here, and workforce training is obviously 
critical to finding our way towards the future.
    I think it is also important to remember that as we 
struggle with these issues that we are borrowing 40 cents on 
every dollar we spend and that we are approaching a debt in 
this country of $16 trillion, which is a tremendous drag on the 
economy and something that makes it more difficult for our 
private sector to perform.
    And so again, having an effort like this to really focus on 
those programs that work it seems to me is critical, because at 
the end of the day what we want is we want full employment in 
this country, and I think that we probably all agree that we 
want a balanced budget, and want to have the fiscal 
responsibility in Washington that has been lacking heretofore.
    I am proud, especially, to be here--to be with Laurie Moran 
who is, as was indicated, is not only the chair of the National 
Association for Workforce Boards but also is our Danville 
Pittsylvania Chamber president back in--back home, and I think 
that her expertise on this issue is welcome.
    I guess my question would be maybe--and maybe Laurie could 
answer first and then anyone who would like to add--Laurie, I 
guess my question is, is when you look back on the last 15 
years and how these programs have affected Southside Virginia 
in your experience, and as you, in a larger national position, 
are able to look across the country, can you talk about the--
specifically how these programs save jobs--how do they save 
jobs, specifically, that are in the community, keep them from 
going other places, and how do we use--how have you all been 
able to use, as a chamber and as a workforce investment board--
use these to attract new jobs, especially in an area where we 
have had to rebuild an economy and have had some measured 
success with advanced manufacturing, and the service sector, 
and so forth?
    Ms. Moran. Certainly. And I would have to confess and tell 
you, I come from a region of the country that probably didn't 
do a very well job--very good job when we first enacted WIA, 
and so it has been a learning curve for our region. But what we 
have seen in recent years is that our workforce board has 
placed the employer as the primary customer. We have focused on 
jobs that are in demand so we tie our training dollars to jobs 
that are in demand to make sure that people come out of 
training and get good employment in the community.
    We have implemented a business services component to the 
work that we are doing, and to help employers as well as--but 
especially employers to navigate through the many programs that 
are out there right now, because it is difficult and it is 
confusing, and about the 15th person who calls on an employer 
with a different type of program to offer to them, the employer 
throws their hands up in disgust because they no longer can 
understand it.
    So we have really tried to look at a collaborative model in 
our part of the commonwealth and in our part of the country to 
make sure that we are serving employers and that we are serving 
job seekers. And I think what we have today is a much more 
productive program and system that is helping job seekers and 
it is helping employers, and we are seeing measurable results 
as a result of that.
    Mrs. Foxx. Thank you very much.
    Thank you, Mr. Hurt.
    Mr. Hurt. [Off mic]
    Mrs. Foxx. Thank you very much.
    I want to thank, again, the witnesses for taking time--oh, 
I forgot Mr. Holt.
    I tried to give Mr. Tierney twice and then forget you. I 
apologize, Mr. Holt.
    Mr. Holt. Thank you, Madam Chair.
    It is long past time that we reauthorize WIA, and it is a 
tragedy that this reauthorization process is becoming partisan. 
The bill we are considering today cuts away at WIA under the 
guise of improving it.
    And some of you will remember that in 1998 the initial 
authorization of WIA was a model of bipartisan cooperation. I 
was not in Congress at the time but I was running. I was 
involved in a campaign as a candidate at that time and I 
followed the process closely, and remember eminent journalist 
David Broder wrote a column entitled, ``A Leg Up for U.S. 
Workers,'' which is exactly what WIA has become.
    He also noted that WIA was 5 years in the making and it 
only became law because of bipartisan efforts by members of 
Congress at the time. He reported Senator Wellstone and Senator 
DeWine, opposite sides of the aisle, leaving the floor 
together. Senator Wellstone turned to Senator DeWine and, 
according to Broder, said, ``Mike, this may not lead--this may 
not be the lead story tonight on the network news but it is a 
good piece of work.''
    We should be modernizing WIA and here we are considering 
a--what is a partisan reauthorization bill. I really want to 
thank Representatives Tierney, and Hinojosa, and Miller for 
introducing a sensible and comprehensible WIA reauthorization 
bill. You would think we could agree on measuring performance 
of each kind of activity and program and each kind of worker 
and prospective worker, and we can't even get that far.
    I want to mention two provisions in the Tierney bill that I 
am particularly interested in. A few years ago I introduced the 
Online Job Training Act to modernize WIA. It is based on a 
successful program at Rutgers that gave single mothers 
computers and Internet access, and people said, oh no, they 
will misuse it. They will play games. They will walk off with 
the computers.
    No. They were not being served by the traditional system 
and it worked.
    I also want to talk about another provision of the bill. 
You know, in this day and age our local libraries are job 
placement agencies. They are playing an important role in 
helping the public find employment.
    And I am pleased that Mr. Tierney's bill includes portions 
of legislation that I have called Workforce Investment through 
Local Libraries, the WILL Act. And that is what I wanted to ask 
you about. Let me start with Mr. Van Kleunen.
    Do you know of WIA-sponsored organizations coordinating or 
working with libraries with regard to workforce activities? And 
then as time allows, let me ask the others, please.
    Mr. Van Kleunen. So, yes. I mean, I think that one of the 
things that whatever we are doing in the future of WIA is that 
we need to figure out how to use community institutions that 
already are in existence whereby we are not forcing everybody 
to go down to one physical one-stop in order to be able to find 
out what jobs are available or what services are available to 
them.
    And I think that we have WIA systems throughout the country 
who are trying to do this with institutions like local 
libraries. I know in Philadelphia the library system is now 
playing a big, leading role in adult literacy services and 
trying to align that with what is going on with job training in 
the city.
    So I think it is an opportunity. I think it is kind of a 
lesson to a larger goal, which is trying to make sure that we 
are using our existing community-based infrastructure as 
different entry points into our WIA system.
    Mr. Holt. Ms. Harmsen?
    Ms. Harmsen. Yes. We, in San Bernardino County, do work 
with our libraries. We also work with other areas. We work in 
some areas, because our county is so big--our county is larger 
than many States, and so we have to address the needs, when you 
look at our high desert area and our low desert, very, very 
different from the looks of our East Valley and West Valley. 
And so what we have done is gone into those communities, and in 
some areas we have brought in the technology into the chambers 
offices or into the--actually into the city hall, they have 
made an office--provided office space for us to be able to 
provide services to their--to customers who come in, both 
business and jobseeker.
    Mr. Holt. Ms. Moran or Ms. Noble, could either of you give 
specifics of coordination with local libraries?
    Ms. Noble. Yes. Thank you, Congressman.
    The B-talk program was very successfully implemented in our 
state in that we focused that money to help rural areas get 
broadband. And because of that--and we specifically planned it 
so that the workforce community could deliver services through 
the libraries, because there are libraries all over the state.
    And before then our summer programs, for example, for our 
young people, it would take them 3 hours to go to a center to 
get the program, where by using the libraries and the 
infrastructure that was put in place we could do that. When we 
rolled out our OKJobMatch.com one of the first groups that we 
went to was to train librarians, and they applauded us because 
they had done their own survey and found that, as you said, a 
lot of time is being spent by librarians in helping people not 
to find a book but to find a job.
    Mr. Holt. Thank you, Madam Chair.
    Mrs. Foxx. Thank you, Mr. Holt.
    Well now let me say again, I would like to thank the 
witnesses for coming today, I know on behalf of the chairman 
and on behalf of the entire committee, for sharing your 
comments with us and enlightening all of us on issues that you 
are dealing with on a day-to-day basis. We really appreciate 
your making the effort to be here and sharing your wisdom and 
sharing your experiences, some of it for longer times than 
others, but we appreciate that.
    Mr. Tierney, I would like to recognize you for closing 
comments.
    Mr. Tierney. Thank you very much.
    And my appreciation, also, to all of the witnesses here 
today. You really did help this panel consider a lot of topics, 
and your considerable wisdom and experience has been enormously 
helpful.
    You know, we should be able to emulate what we did in 1998, 
and that is reach a bipartisan bill on this. We all profess to 
have similar goals; we all understand that that bill, which was 
created back when unemployment was probably 5 percent or less 
and when many of the industries and technologies that we talk 
about today didn't even exist, so there is certainly a need for 
modernization and a need for us to improve and take the lessons 
that have been learned over time.
    You know, I can see some of the larger issues may be 
difficult to deal with but I don't think they are 
insurmountable and I know that streamlining is important to 
some members, and my colleague to my left, in particular, but I 
think that also ensuring that all workers--that all workers, 
whether they are unskilled or lesser educated than others, or 
whether they are incumbent workers who need additional skills, 
or people that are very skilled that have been displaced, that 
all of them get the attention that they need in this bill.
    So I think that is a concern about making sure that 
everybody has access to education and training and that our 
boards both are informed because of local participation--I 
think everybody understands we want this to be a business-
oriented and majority board, but that we also, I think, would 
hope that we could make some recognition that perhaps that goal 
of getting everybody served in the long run might not do as 
well unless we have representation of others on the board as 
well, whether those are community-based organizations, or 
labor, or others, and that we could put that focus on that and 
come to some resolve on that basis.
    We need to make sure not just for the immediate needs of 
employers, which are important, but also most of our employers 
understand, even though it may not be their most pressing 
issue, that we have to have the pipeline down the line ready, 
and that means with the great diversity that we have here that 
so many of you spoke about today, that even people that may not 
speak the language as well as we would like, that don't have 
the skills that we want or whatever, they need attention and 
sometimes they need prioritization so that that pipeline of 
employees is there for us if we want to keep strong and keep 
competitive.
    And so that is why it is important to have the right 
representation on boards and to have the right protections in 
our law for the use of money to make sure that it gets placed 
where it needs to get placed to move those forward.
    I think that, you know, innovation is important, and in our 
bill we tried to make sure there was adequate attention to 
that, and we have done a lot of things in pilot programs and 
others over the time. Those best practices ought to be taken up 
to scale and our bills ought to be able to give attention to 
that and the flexibility to move in innovative ways so that we 
can move--do that.
    I also think that community colleges were mentioned by a 
number of our colleagues on both sides of the aisle with 
adequate emphasis. I think that that is a piece of work that 
ought to get good attention in this bill. The community 
colleges have a lot to offer and they can participate in great 
ways and create, both at the education level and in some 
respect with the training level, if we get everybody--
employers, employees, community people working together with 
them on that.
    I see great potential here and I hope others do, as well. I 
think all of your comments today were leading us in that 
direction to show us that we can take either bill as a base and 
improve it with some aspects of the other, and that hopefully 
we will be able to find some way to do that. And again, I want 
to thank you for your comments and your information today.
    Thank you, Ms. Chairman.
    Mrs. Foxx. Thank you, Mr. Tierney.
    I appreciate all my colleagues for being here today and 
asking their questions, and again, doing their best to bring 
out information. I agree with you. I think that there are 
places where we can agree on what needs to be in the bill that 
we pass. The panel in particular has emphasized local control, 
flexibility, the need for setting standards, and the need for 
accountability.
    One of the things we are attempting to fix in this bill is 
the lack of standards, the lack of accountability that has 
existed in the past, and not only from the GAO report but in 
just looking at other reports that have been made on existing 
programs we see almost a total lack of accountability. The 
American people are really frustrated right now. They are 
seeing these reports about the GSA; they know that is only the 
tip of the iceberg; they know that there is tremendous waste in 
the federal government and they want to see their money being 
well spent.
    They are also frustrated and being unemployed, and being 
unemployed for long periods of time. We know we have at least 
12 million unemployed Americans, and yet we have 3.5 million 
jobs that need to be filled, and they ought to be filled by 
well-educated Americans. They ought to help improve our 
economy.
    So how do we meet the need of the employers out there and 
also help those 12.5 million unemployed Americans get jobs?
    The government isn't going to create the jobs. We can 
create an environment where the private sector can create jobs 
and we can improve existing programs--we can eliminate poorly 
run programs and improve the existing programs to help match, 
again, the unemployed Americans with where there are jobs.
    So I do think there are a lot of areas where we can agree. 
As a former community college president I am always glad to 
hear the community colleges being emphasized, and I think that 
we certainly should be utilizing them more.
    But I appreciate, again, all of you all for being here 
today and helping share your expertise, and I look forward to 
our having a markup on this bill and our--hopefully solving 
some problems and not just talking about them. I am a big 
believer in doing things, not just trying to do things.
    So thank you all very much for being here.
    I thank my colleagues, I thank Mr. Tierney, and the 
committee stands adjourned.
    [Additional submissions of Mrs. Foxx follow:]

                                                    April 16, 2012.
Hon. John Kline, Chairman; Hon. George Miller, Ranking Member,
Committee on Education & Workforce, U.S. House of Representatives, 
        Washington, DC 20515
    Dear Chairman Kline and Ranking Member Miller: On behalf of 
Associated Builders and Contractors (ABC), a national association with 
74 chapters representing 22,000 merit shop construction and 
construction-related firms, I am writing in regard to the full 
committee hearing on the Workforce Investment Improvement Act of 2012 
(H.R. 4297). ABC supports this legislation because it will strengthen 
our nation's workforce development system by creating a more 
streamlined approach that focuses on businesses' hiring and training 
needs, which will increase employment opportunities.
    According to the Bureau of Labor Statistics, the number of wage and 
salary jobs in the construction industry is expected to grow 19 percent 
through 2018, while all industries combined are expected to grow by 11 
percent. ABC believes that one of the keys to attracting new workers 
and retaining current craft professionals is flexible training 
programs.
    Specifically, H.R. 4297 will enable small businesses, which create 
more than 65 percent of all new jobs in America, to continue developing 
training programs and career opportunities. By serving their 
communities through the local workforce investment boards that would be 
enhanced by this legislation, business leaders can become more involved 
in career development programs and serve as an authority on training, 
skills and job opportunities in their communities.
    Additionally, this legislation would eliminate current language in 
the Green Jobs Act included in the Workforce Investment Act. The 
current statutory language allows these training grants to be accessed 
by firms associated with a labor union, effectively barring contractors 
with employees that chose not to be associated with union training 
providers from accessing federal training dollars funded by their own 
taxes. This is grossly unfair to the 86 percent of employees in the 
construction industry who chose not to be affiliated with a labor 
organization.
    We appreciate your attention to this important matter, and urge 
immediate passage of the Workforce Investment Improvement Act of 2012.
            Sincerely,
                                             Geoffrey Burr,
                                   Vice President, Federal Affairs.
                                 ______
                                 
                                                    April 16, 2012.
Hon. John Kline,
U.S. House of Representatives, Washington, DC 20515.
Re: Support H.R. 4297, the Workforce Investment Improvement Act of 2012

    Dear Representative Kline: On behalf of the Associated General 
Contractors of America (AGC), I would like to thank you for holding the 
hearing on H.R. 4297, the ``Workforce Investment Improvement Act of 
2012,'' which will help reform the nation's job training system by 
strengthening employer engagement in state and local workforce 
decisions, as well as giving states and localities more flexibility. A 
strong and skilled workforce is vital to the nation's economic 
recovery.
    AGC is the nation's largest and most diverse trade association in 
the commercial construction industry. AGC's 32,000 members include 
7,000 general construction contractors, 12,000 specialty contractors, 
and 13,000 suppliers and service providers, in a nationwide network of 
95 chapters. AGC represents both union and open-shop contractors in the 
building, highway, heavy industrial, and municipal utility sectors of 
the construction industry.
    The construction industry is made up of predominantly small 
employers. In the past, many employers in the industry have had trouble 
connecting with local workforce investment systems or workforce 
investment boards (WIBs) due to the structure of the boards and types 
of training offered locally. However, H.R. 4297 will strengthen the 
presence and participation of employers on WIBs, and this increased 
participation by employers will be a welcomed change to the 
construction industry. Local employers can ensure local job training 
will address workforce gaps and better fit local population needs.
    The construction industry has many unique workforce demands that 
differentiate it from other industries. Currently, the industry has the 
highest unemployment rate of any industry and continues to suffer 
depression-like conditions. As the economy recovers, baby boomers 
retire, and the construction industry sees a renewed need for a strong 
and skilled workforce, H.R. 4297 will be a step in the right direction 
to offer unemployed construction workers--as well as workers displaced 
from other industries and veterans--a vital path to the training 
necessary for them to become a part of the nation's future economic 
well being.
            Sincerely,
                                          Jeffrey D. Shoaf,
                     Senior Executive Director, Government Affairs.
                                 ______
                                 
    [Additional submission of Mr. Ross follows:]

             Prepared Statement of Dwayne Ingram, Chairman,
               Workforce Florida, Inc. Board of Directors

    Thank you for this opportunity on behalf of Workforce Florida Inc. 
and the State of Florida to provide comments on H.R. 4297, the 
Workforce Investment Improvement Act of 2012.
    Workforce Florida is the statewide workforce investment board 
charged with developing strategies that help Floridians enter, remain 
and advance in the workforce while strengthening the state's business 
climate. We are proud that Florida has been and continues to be a 
recognized leader in workforce development. To that end, we offer the 
following comments for consideration on the Workforce Investment 
Improvement Act of 2012.
Funding for State-Level Activities
    Our primary concern is the proposed reduction in the Workforce 
Investment Act (WIA) State Set Aside/Governor's Reserve funding. 
Historically, 15 percent of WIA funding has been available to Governors 
to pay the cost of state-level administration and to support state 
workforce innovation. These state set aside funds are essential to 
allowing Governors maximum flexibility to advance statewide workforce 
development and economic development priorities.
    We strongly recommend the House Education and the Workforce 
Committee consider leaving intact the flexible 15 percent state set 
aside for Governors to continue using in innovative ways. Consistent 
with federal WIA and Chapter 445, Florida Statutes, Workforce Florida's 
Board of Directors has historically invested the 15 percent state set 
aside funds in:
    <bullet> customized projects that respond to both immediate and 
long-term employment and training needs as well as statewide economic 
development and strategic priorities;
    <bullet> incumbent worker training to ensure Florida businesses, 
especially small businesses, maintain a productive, well-trained and 
competitive workforce (Worth noting: state law requires that at least 
$2 million in WIA state set aside funds be used annually for the 
Incumbent Worker Training (IWT) Grant Program);
    <bullet> the development and operation of the Employ Florida 
Marketplace, Florida's online, comprehensive job-matching and labor 
market information tool for job seekers and employers, which also 
serves as the case management information system for Florida's 
workforce system;
    <bullet> programs targeting special populations who may need 
additional assistance to overcome barriers to employment; and
    <bullet> performance incentives for local workforce investment 
boards.
    <bullet> development of Employ Florida Banner Centers to support 
training in high-wage
    As a demonstration of the success Florida has had with utilizing 
state set aside funds in innovative ways, some recent examples include:
    <bullet> industry sectors that help diversify Florida's economy. In 
2008, the International Economic Development Council (IEDC) presented 
Workforce Florida with an Excellence Award for partnership with 
educational institutions for the Banner Centers initiative;
    <bullet> Incumbent Worker Training grants, which are used to 
bolster skills upgrade training for full-time employees, thus improving 
business productivity and job retention;
    <bullet> the Employ Florida Healthcare Workforce Initiative, 
designed to help Floridians get back to work in a growing economic 
sector as well as to aid healthcare workers already employed by 
advancing their careers; and
    <bullet> specially developed initiatives to support the education 
and training of:
      -low-income and at-risk youth;
      -people seeking to transition from welfare to work;
      -those receiving unemployment compensation; and
      -those who remain unemployed after exhausting their unemployment 
benefits.
    If there is a change made to the current funding structure, we 
propose as an alternative to the significant and immediate reduction in 
state set aside funds from 15 percent to 5percent, Florida proposes a 
``Hold Harmless'' provision that would allow for a graduated 
implementation of the targeted reduction. This graduated reduction by a 
small percentage on an annual basis would enable states to make 
adjustments to statewide programs incrementally until arriving at the 
Committee's proposed 5percent funding level after a few years. It will 
be extremely difficult, if not impossible, for state boards to continue 
to fund additional requirements within the bill at the 5 percent 
funding level.
Strengthening Business Engagement in State and Local Workforce 
        Decisions
    Florida supports the proposed change in state and local board 
structure that would require business leaders, including those 
representing in-demand industries, to make up a two-thirds majority on 
the boards. As Florida has demonstrated, private-sector leadership 
contributes greatly to our responsiveness to emerging needs and our 
strong emphasis on efficiency and accountability as well as our ongoing 
focus on substantive alignment with economic development priorities. We 
believe a business-led focus provides strong alignment with the 
increased emphasis on employers and business services in other sections 
of the bill.
    Furthermore, Florida supports the proposed streamlining that would 
remove all federal requirements on board membership, with the exception 
of business and economic development representation and chief elected 
officials at the state level and business representation at the local 
level. Providing Governors and chief elected officials the authority to 
appoint the remaining one-third membership of boards will make the 
boards more manageable and ensure that the workforce system is demand-
driven and focused on training individuals for the jobs of today and 
tomorrow.
    Florida supports the proposal within the bill to create regional 
approaches by eliminating grandfather clauses in current law that allow 
certain local areas to remain in place and by repealing automatic 
designations for areas with a population of 500,000 or more. We agree 
that Governors should have the authority to designate local workforce 
investment areas with consideration for existing labor market areas and 
economic development regions in order to end duplicative and 
overlapping service delivery areas.
    In conclusion, while Florida supports the proposed change in state 
and local board structure, Florida does not support the proposal to 
reduce funding for the Governor's Reserve to support innovation. 
Reductions to state set aside funds risk stifling the innovation and 
action that have been a hallmark of the workforce system and could 
result in a solely federally driven workforce development system in 
lieu of the federal-state-local system that exists today.
    We look forward to our continuing collaboration to create an even 
more effective and efficient workforce system for America. Please 
contact the President of Workforce Florida, Chris Hart IV, if you have 
any questions regarding Florida's initial comments on H.R. 4297.
                                 ______
                                 
    [Additional submission of Mr. Walberg follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                                ------                                

    [Additional submissions of Mr. Miller follow:]

Prepared Statement of Richard T. Foltin, Esq., Director of National and 
 Legislative Affairs, Office of Government and International Affairs, 
                       American Jewish Committee

    From its founding in 1906, the American Jewish Committee (AJC) has 
been a strong voice in support of fair and generous treatment of 
immigrants, participating actively in many of the major immigration 
debates of our time. AJC continues to reaffirm its commitment to fair 
and generous immigration policies, as fundamentally good for the United 
States and consistent with Jewish values. According to Jewish 
tradition, ``strangers'' are to be welcomed and valued, as we were once 
``strangers in the land of Egypt.'' The Torah tells us: ``The strangers 
who sojourn with you shall be to you as the natives among you, and you 
shall love them as yourself; for you were strangers in the land of 
Egypt'' (Leviticus 19:33-34).
    As American Jews, we recall how our parents and grandparents made 
their way to this country seeking a better life, often arriving without 
speaking even a word of English. We know that the American Jewish 
community has prospered because of all that this country has offered 
us, which included programs that taught English and helped them to 
integrate, and that same opportunity should be available to new 
generations of immigrants as well.
    We support the Workforce Investment Act of 2012 (H.R.4227) because 
each day in our congregations, service programs, health-care 
facilities, and schools we witness the human consequences of the lack 
of investment in new Americans. As the English language learner (ELL) 
population continues to grow, it is critical that Congress support 
English language acquisition and integration. According to the Census 
Bureau, more than 19% of the population (54.8 million) speaks a 
language other than English at home. In spite of this fact, there 
continues to be one- to three-year waitlists for English literacy 
education in many areas. This legislation acknowledges that immigrants 
want to learn English, become citizens, and participate fully in their 
adopted country, but are frequently unable to do so because the 
programs they need are underfunded or non-existent.
    These new immigrants deserve the opportunity to succeed, regardless 
of the outcome of current immigration debates. We support policies and 
measures which honor our heritage as a country that welcomes 
immigrants. We must ensure that we continue to be a nation that 
embraces newcomers and facilitates their integration into our society 
as full and equal partners. That is why we urge you to support the 
provisions of the Workforce Investment Act that encourage adult English 
language education, which would go a long way to help with immigrant 
integration and bolstering America's role as a leader in the 
competitive global economy.
    Thank you for considering our views on this matter.
                                 ______
                                 

       Prepared Statement of the Center for Law and Social Policy

    Chairman Kline, Representative Miller and Members of the Committee: 
Thank you for the opportunity to submit written testimony for the April 
17th hearing. CLASP develops and advocates for policies at the federal, 
state and local levels that improve the lives of low income people. In 
particular, we focus on policies that strengthen families and create 
pathways to education and work.
    Our testimony for the record describes our serious concerns about 
many provisions in H.R. 4297, which was recently introduced by Rep. 
Foxx, Rep. Heck and Rep. McKeon. It includes the following two 
documents that are available on the CLASP website at www.clasp.org:
1. Reauthorizing the Workforce Investment Act: The House Workforce 
        Block Grant Bill Heads in the Wrong Direction
http://www.clasp.org/admin/site/publications/files/Wrong-Direction-for-
WIA.pdf
2. Workforce Investment Act Reauthorization May Move Youth Development 
        Field Back a Decade
http://www.clasp.org/admin/site/publications/files/WIAYouthHR4297-
Final.pdf
Analysis of H.R. 4297
    To help advocates and stakeholders, CLASP has developed a set of 
criteria for evaluating this bill and other proposals that consolidate 
programs offering workforce services to low-income families and 
individuals. These criteria are informed by a review of the merits and 
problems of block grants, program consolidation and super-waivers. The 
six criteria for any such legislation are:
    <bullet> Does the stated purpose of the legislation include a 
vision and provide sufficient direction for improving outcomes for low-
income adults and youth?
    <bullet> What is the likely impact on funding?
    <bullet> What is the likely impact on access to services for 
populations currently targeted for services?
    <bullet> Are there strong safeguards or incentives to focus 
appropriate services on those most in need?
    <bullet> Does it support the capacity needed to administer and 
deliver services?
    <bullet> Does it include data collection and accountability 
provisions designed to ensure equitable service provision and robust 
outcomes?
    In applying these criteria to H.R. 4297, CLASP finds that the bill 
fails on most counts. It consolidates programs targeting specific 
populations into a block grant, which is expected to serve all job 
seekers without providing adequate assurances that individuals with 
employment challenges will receive suitable services. More 
specifically,
    1. It is likely to shift funding and services away from currently 
targeted populations and to weaken the capacity to serve them 
effectively.
    2. It limits the range of services needed to assist low-income 
individuals, low-wage workers, those with barriers and unemployed 
workers generally, instead of providing a more comprehensive set of 
services.
    3. It has inadequate safeguards or incentives to ensure that states 
and local areas improve outcomes for individuals with barriers to 
employment, although it strengthens some accountability provisions.
    H.R. 4297 is likely to shift funding and services away from 
currently targeted populations and weaken the capacity to serve them 
effectively.
    <bullet> Under the proposed Workforce Investment Fund, HR 4297 
eliminates a separate youth funding stream for local areas and pits 
youth against other populations. A large proportion (about two-fifths) 
of the fund comes from funding streams currently dedicated to serving 
low-income and disadvantaged youth. Yet it caps funding for Statewide 
Youth Challenge Grants at 18 percent of the total amount allotted to a 
state rather than setting this as a floor. In practice, a governor 
could spend much less than 18 percent on youth programs. The statewide 
competition for these youth grants would put national programs based on 
established models into direct competition with local programs. 
Together, these changes are likely to weaken or potentially dismantle 
local programs that exited about 122,000 young people in PY 2010.\1\
    <bullet> The new Statewide Youth Challenge Grants include no 
protections to prevent funding from shifting away from economically 
distressed communities toward other parts of the state. At the same 
time, the Workforce Investment Fund is likely to divert funding away 
from areas with large concentrations of disadvantaged adults because it 
drops this factor from the formula for distributing federal workforce 
dollars to states and within states.
    <bullet> The bill eliminates the current priority of service for 
low-income adults under the new Workforce Investment Fund, while 
allowing unlimited spending on incumbent workers regardless of income 
eligibility or barriers to employment. Trends observed under WIA are 
likely to accelerate if current programs are replaced by a broad block 
grant designed to serve a wide range of job seekers, including adults, 
dislocated workers, youth, older workers and others. Low-income adults 
now represent only about half of those receiving intensive or training 
services with adult employment and training funding. Elimination of the 
priority of service would further undercut access to services for the 
nearly 254,000 low-income adults who exited after receiving intensive 
or training services during PY 2010.\2\
    <bullet> Creating Statewide Grants for Adults with Barriers to 
Employment is likely to weaken existing capacity to provide services by 
depriving programs of reliable funding and by pitting national programs 
against local programs and for-profit organizations. It is also likely 
to shift management responsibilities and administrative costs from the 
federal government to the states without increasing efficiency. States 
do not have, and would have to build from scratch, the administrative 
capacity to procure and oversee programs serving the individuals 
currently served by the national programs.\3\ It is difficult to 
envision that requiring states to administer multiple competitive grant 
programs would add to the efficiency or effectiveness of delivering 
comprehensive services to adults or youth with barriers.
    <bullet> Equally troubling is the inclusion of a form of super-
waiver that allows states to consolidate funds from a list of mandatory 
and discretionary programs (including Temporary Assistance for Needy 
Families, Trade Adjustment Assistance and Unemployment Insurance as 
well as Adult Education and Vocational Rehabilitation programs). These 
funds can be diverted from serving unemployed and low-income 
individuals targeted by those programs and added to the new block grant 
for states--to be used for a wide range of functions and services 
without respect to the original intent of Congress.
    Instead of providing a more comprehensive set of services, H.R. 
4297 restricts the range of services needed to assist low-income 
individuals, low-wage workers, those with barriers and unemployed 
workers generally.
    <bullet> While the bill provides more options for delivering 
training, it eliminates the ability of local areas to provide 
supportive services, such as transportation and child care, and needs-
related payments for low-income individuals and unemployed workers who 
need assistance while participating in services. Supportive services 
are critical to helping participants stay engaged with and complete 
education and training programs.
    <bullet> Elimination of supportive services limits rather than 
expands customer choice by making it more difficult for participants to 
engage in long-term programs or participate in services that are 
unavailable in the community. A study of the use of Personal 
Reemployment Services Accounts during a U.S. Department of Labor 
demonstration found that dislocated workers, who had the choice of how 
to spend a fixed amount of money on a range of services, spent 
substantial funds on supportive services; in fact, in five of the seven 
sites, participants spent more on supportive services than on any other 
service.\4\
    <bullet> The bill eliminates the 10 youth program elements 
authorized in WIA, including leadership development and adult 
mentoring, which are based on research and what is known about 
effective youth development. Elimination of this framework for youth 
services would diminish the appropriate capacity to serve youth, which 
is quite different from the service capacity typically available to 
adult participants through one-stop centers.
    <bullet> The bill reduces the voice in state and local governance 
of community organizations and stakeholders with expertise and interest 
in serving vulnerable populations.
    Although H.R. 4297 strengthens some accountability provisions in 
WIA, it lacks strong safeguards or incentives to require or encourage 
states and local areas to improve outcomes for vulnerable populations.
    <bullet> To its credit, the bill includes some improvements to 
performance accountability for workforce programs. These proposed 
changes include the introduction of shared measures for programs; the 
use of robust outcomes including longer-term employment and credential 
attainment; and, most important, a new requirement for adjusting state 
and local performance levels that should remove some disincentives for 
providing services to participants who are least job-ready. These 
provisions could be strengthened by including a wage-gains measure in 
addition to or in place of the proposed earnings measure. A wage-gains 
measure better captures successful earnings outcomes for welfare 
recipients and other low-income individuals who receive employment and 
training services.\5\
    <bullet> The bill includes enhanced state and local planning 
requirements that ask for information on how the needs of low-income 
individuals and other populations are to be met. Yet such requirements 
are likely to prove hollow because the bill does not hold states and 
local areas accountable for achieving goals or meeting the needs 
identified in the plans.
    <bullet> Apart from the requirement to adjust performance levels, 
the bill lacks safeguards to prevent services from shifting from 
vulnerable populations to more job-ready individuals with fewer 
barriers. Under the proposed framework of performance measures and 
reporting requirements, a state or local area could meet the benchmarks 
while serving few disadvantaged individuals and without improving 
outcomes for those with severe employment challenges. In a little-
noticed but potentially significant change, the bill also requires the 
Secretary of Labor to reduce funding for states that fail to meet 
performance levels (and there is a corresponding requirement for 
governors to reduce local funding). By strengthening financial 
sanctions and removing performance incentives, the bill is likely to 
increase the pressure on states and local areas to meet negotiated 
levels in a way that may dilute or even counteract any benefit to be 
derived from adjusting performance levels.
    <bullet> The experience of implementing block grants suggests that 
tracking and measuring results are a major challenge.\6\ In a review of 
block grants begun during the 1980s, the Government Accountability 
Office found that Congress received ``limited information on program 
activities, services delivered and clients served'' as a result of a 
reduction in reporting requirements.\7\ A more recent review found 
that, under the Program Assessment Rating Tool system previously used 
by the Office of Management and Budget, one-third of block grant 
programs were rated ``results not demonstrated.'' \8\
    <bullet> The experience of implementing WIA suggests that data 
collection and reporting are already problem areas. In a series of 
reports, GAO found that the diversity of local policies for registering 
and tracking participants made it difficult to obtain comparable and 
meaningful data.\9\ It is already difficult under WIA to track spending 
by level or type of service--that is, to determine precisely how WIA 
funds are being used at the state and local levels. Under a broad block 
grant it would be even more difficult to obtain good data and evaluate 
services provided to multiple populations.
Conclusion
    As this analysis indicates, H.R. 4297 does not meet the criteria 
that CLASP has developed for evaluating workforce legislation. Of 
primary concern is the lack of strong safeguards to ensure that 
vulnerable populations receive services and that appropriate services 
reach those most in need. In fact, the bill proposes to eliminate an 
existing safeguard in WIA--the priority of service for low-income 
adults. This provision is based on a long-standing principle shared by 
members on both sides of the aisle.
    Focusing public resources on disadvantaged individuals ensures that 
appropriate services go to those who need them and who are likely to 
benefit from them. It is also important to ensure that federal funds 
have maximum impact. In a tight budget environment, public resources 
should target those who are generally not the beneficiaries of 
education and training investments made by the private sector.\10\
    As research shows, training and intensive services for 
participants, particularly for disadvantaged adults, are likely to pay 
off.\11\ Recent evaluations of WIA found that workforce services, 
particularly occupational training, increased employment and earnings 
for participants served with adult employment and training funds.\12\ 
As WIA reauthorization proceeds, policymakers should not ignore this 
evidence; rather, they should build on the capacity of the workforce 
system to improve outcomes for low-income adults, disconnected youth 
and individuals with barriers to employment.
Analysis of H.R. 4279 through a Youth Advocacy Lens
    More than a decade ago, the Workforce Investment Act (WIA) of 1998 
restructured the youth service delivery system in this country by 
enabling youth services organizations to provide more intensive 
services of longer duration; infuse the best of what was learned from 
research and practice into youth development programming; build the 
youth service delivery capacity in high-poverty communities; and, 
through youth councils, introduce more strategic and collaborative 
approaches to youth programming. As a result, during the last decade, 
many innovative practices and comprehensive interventions to meet the 
needs of low-income youth occurred within the local WIA system, through 
partnerships with education and other funding streams. The local 
workforce system enrolled nearly 250,000 low-income youth in 2011. Of 
the quarter million youth who exited WIA during 2010 and 2011, nearly 
two-thirds were minority youth, 45 percent were out of school, and 72 
percent found employment or enrolled in postsecondary education or 
advanced training. Of those who were high school dropouts upon entry, 
50 percent earned a high school diploma or GED.\13\
    This is the time to be fortifying our local WIA youth delivery 
system and building on its strengths. The ongoing recession has been 
unforgiving for youth, and youth employment rates are at a 60-year low; 
fewer than one in five minority teens had a job at the height of last 
summer, and nearly half of youth in many of our poor and minority 
school districts are dropping out of school. For many low-income youth, 
WIA services are the only resources that provide a lifeline and an 
opportunity to get back on track, train for and get jobs, and earn 
wages.
    On March 29, 2012, Rep. Virginia Foxx, Rep. Joseph J. Heck, and 
Rep. Howard P. McKeon introduced the Workforce Investment Improvement 
Act of 2012 (H.R. 4297), which, among other things, consolidates 27 
federal employment and training programs into a single workforce 
investment fund, devolves more power and decision making to state and 
local workforce boards, eliminates many of the requirements and 
mandates that governed the now consolidated streams and increases the 
role of employers on state and local workforce boards.
    H.R. 4297, if enacted, would dissolve the local youth workforce and 
development system in the nation and its ability to respond to current 
and future education and employment challenges facing low-income youth. 
In short, the bill would result in a reduction of employment and 
training services for youth.
    In 2010, in anticipation of a WIA reauthorization, CLASP released a 
set of recommendations explaining how reauthorization could be a 
vehicle to create an even more robust youth delivery system to prepare 
low-income and disconnected youth for opportunities in a twenty-first 
century economy. Our recommendations focused on five areas of concern: 
1) increasing the focus on dropouts and high-risk youth: 2) 
strengthening the strategic role of youth councils and workforce 
boards; 3) building a comprehensive, integrated local youth delivery 
system; 4) removing from performance systems some disincentives to 
serving high-risk youth; and 5) increasing opportunities for youth to 
obtain work exposure. This paper analyzes the impact of the Workforce 
Investment Improvement Act of 2012 for youth services against the 
backdrop of these original recommendations.
1. Increasing the Focus on Youth in High-Risk Categories
    Current WIA law provides a separate funding stream for youth 
activities and requires that a minimum of 30 percent of funds be 
expended on interventions directed to out-of-school youth without a 
high school diploma or those with a secondary school credential who 
have significant barriers to obtaining employment. The inclusion of 
this ``set-aside'' serves as a safeguard to ensure local areas plan and 
program for youth with significant barriers. Even with these 
provisions, youth in high-risk categories, such as dropouts and 
offenders, are underserved by the WIA system. WIA reauthorization 
provides the opportunity to strengthen priorities for serving these 
disconnected youth, who have few other options to connect to pathways 
to labor market credentials.
    As it is currently drafted, however, H.R. 4297 moves in the 
opposite direction. The bill eliminates an estimated $2.6 billion of 
funding that was previously dedicated to serving the needs of low-
income youth and consolidates it into the approximately $6 billion, 
adult-focused ``Workforce Investment Fund.'' Although the youth funding 
streams that were consolidated into this single fund account for 42 
percent of the total fund amount, there is no language in the bill that 
requires expenditures for youth programming and no accountability 
measures that would ensure equitable and comprehensive services are 
provided to youth. While the bill does allow governors to set aside up 
to 18 percent of the fund for ``Youth Challenge Grants,'' this is at a 
governor's discretion and, because many competing workforce priorities 
exist, governors might choose much reduced levels of service to youth 
instead.
    Current WIA law recognizes that the low-income youth population 
needs services and supports that are differentiated from those targeted 
to adult and dislocated worker groups. There is much to lose by 
consolidating the youth funds into the ``Workforce Investment Fund'' 
and no value added. Simply folding youth into the broad pool of 
unemployed adults to be served by the ``Workforce Investment Fund'' 
ignores decades of practice, experience, and research about what works 
best to prepare youth for labor market success.
    Recommendation: Maintain a separate WIA youth funding stream that 
is allocated by formula to local areas to serve youth ages 16 to 24. 
Require that at least 50 percent of those served with formula funding 
be in the high-risk category, to include dropouts along with homeless 
youth, young offenders, disabled youth, low-income pregnant and 
parenting teens, and youth in the foster care system.
2. Strengthening the Role of Youth Councils and Workforce Boards as 
        Focal Points for Strategic Coordination of Youth Service 
        Activity
    H.R. 4297 would eliminate youth councils. The establishment of 
youth councils was a key component of the original WIA legislation, 
designed to bring strategic focus to youth programming in local areas 
around the country. In communities like Los Angeles, San Diego, 
Seattle, Hartford, Philadelphia, Boston, and many others, youth 
councils, in conjunction with workforce boards, work to bring 
stakeholders together and leverage resources from multiple sources and 
systems to support programming for vulnerable youth. This function 
should be encouraged, built upon, and expanded, rather than disabled. 
The elimination of youth councils would be a significant step backwards 
and result in the loss of expertise and leadership at the local level 
on behalf of youth.
    H.R. 4297 would also change requirements for local board membership 
by requiring a two-thirds business majority and removing requirements 
for representation on the board of other types of relevant 
stakeholders, including education entities, community-based 
organizations, and others with a record of working with disadvantaged 
populations, including youth. There is also no requirement that local 
boards develop a strategic youth plan.
    Together, these changes raise many concerns. The elimination of the 
strategic planning body, weak requirements relating to youth in the 
local plan, the limitation of participation of key stakeholders on 
local boards, and the lack of a floor for youth services in the 
``Workforce Investment Fund'' together make it easier for states and 
local areas to retreat from investing in a youth population, which is 
more complicated to serve and whose interventions are much more costly.
    Recommendation: Reauthorization legislation should maintain youth 
councils or require an alternative entity--designated by local elected 
officials in consultation with the local Workforce Investment Board 
that assembles the stakeholders in the field of youth policy and 
practice, leadership from key education and youth-serving systems, 
employers, and youth--to advise on programs, strategies and cross-
system alignment. Youth councils and workforce boards should be charged 
with identifying how vulnerable youth populations will be served in the 
local area and how WIA resources will work in conjunction with 
education, other funding streams, and youth-serving systems to meet the 
needs of vulnerable youth populations. The current WIA statute is 
overly prescriptive about board membership, responsibilities, and 
authority. New language is needed in the reauthorization legislation to 
allow local areas the flexibility to configure youth council 
membership, roles, and responsibilities appropriate for their areas--as 
long as the council consists of experts and stakeholders in the local 
youth arena, including youth.
3. Building a Comprehensive, Integrated Local Youth Delivery System
    H.R. 4297 would eliminate the 10 youth program elements authorized 
in WIA. The required elements are based on research-driven youth 
development principles and support a comprehensive framework to serving 
youth, including integrated approaches that consist of blended 
education and basic skills instruction, career preparation, work 
exposure and work experience, leadership, mentoring opportunities, and 
strong case management, to deliver a variety of support services--such 
as mental and physical health services, transportation, financial 
support and housing assistance. The bill assumes existing one-stop 
centers will have the expertise, knowledge base, and capacity to serve 
youth. This is not likely, given the fact that under the current WIA 
system youth are not typically provided comprehensive services through 
the one-stop system. The elimination of both the youth program elements 
and the youth council would stifle a community's ability to ensure the 
quality of youth program design or coordinate across systems to promote 
data sharing, quality improvement, and partnerships with other youth-
serving systems--justice, child welfare, and education.
    As mentioned, H.R. 4297 does include a statewide ``Youth Challenge 
Fund,'' which is targeted to youth ages 16 to 24 and is designed to 
support five primary program activities: training and internships for 
out-of-school youth in high-demand industries; dropout recovery 
activities that lead to a secondary school credential; interventions 
specific to special youth populations, including foster care and 
homeless youth, court-involved youth, young parents, and youth with 
disabilities; contextualized learning strategies that link to 
postsecondary education opportunities and career pathways; and 
operating a residential center, such as Job Corps. The inclusion of a 
``Youth Challenge Fund'' and the five program activities are laudable. 
The construction of this fund, however, is problematic for several 
reasons: (1) its 18 percent funding cap is less than current dedicated 
spending levels, and the amounts to be spent in this fund are at a 
governor's discretion, which could jeopardize continuous and consistent 
funding for innovation; (2) there are no real requirements to target 
the most vulnerable youth, as this fund can serve any low-income youth 
ages 16 to 24 without regard to education status or barriers; thus, 
college students and college graduates are also eligible, and no 
priority is assigned to youth with greater needs; and (3) the ``Youth 
Challenge Fund'' is the only funding stream made available to fund the 
national youth programs that were repealed by this legislation. The 
U.S. Department of Labor national youth programs, including YouthBuild 
and Job Corps, will only continue to be funded through the ``Youth 
Challenge Fund'' and at the discretion of the state. This pits local 
programs against national program models to compete for a very limited 
pool of dollars.
    Recommendation: Retain the existing 10 WIA youth program elements 
and include a ``Youth Challenge Fund'' that is not subject to a 
governor's discretion for funding. Specifically:
    <bullet> Require local plans to identify the vulnerable youth 
populations that will be served, how the 10 program elements will be 
built into service delivery, and how WIA dollars will be used to 
leverage other resources, including education and other youth-serving 
systems, to provide more comprehensive programming for youth.
    <bullet> Eliminate the current funding mechanism for ``Youth 
Challenge Grants'' and establish a set funding stream for them. 
Strengthen the fund and direct funding to local, cross-system 
partnerships, led by existing youth councils or other appropriately 
designated entities, in high-poverty areas, and assign priority to 
youth in high-risk categories.
4. Removing Disincentives to Serving High-Risk Youth that Currently 
        Exist in the Performance System
    H.R. 4297 establishes a performance accountability system of core 
indicators which apply to the employment and training activities in the 
``Workforce Investment Fund,'' adult education and literacy program 
authorized under Title II and much of the vocational and rehabilitation 
programs for individuals with disabilities authorized in Title I, and 
is presumably designed to assess outcomes for the entire workforce 
system. Yet, there are no specific performance measures established for 
youth within the ``Workforce Investment Fund''. This represents a stark 
departure from current law, which takes into account age-appropriate 
factors and includes measures for both older and younger youth. 
Instead, the bill includes youth-specific measures that only apply to 
the ``Youth Challenge Fund''.
    Both funds have six similar measures related to 1) entered 
employment rates 2) retaining employment 3) wage gains 4) credential 
attainment 5) interim academic progress, and 6) obtaining training 
related employment. The measures for the ``Youth Challenge Fund'' allow 
entrance in unsubsidized employment and enrollment in education, 
training, or the military upon exit to count in the calculation of the 
first two outcome measures. This is not the case for youth served in 
the ``Workforce Investment Fund,'' which only counts those individuals 
who obtain unsubsidized employment in the first two measures. Thus, 
local areas that use the ``Workforce Investment Fund'' to serve young 
dropouts and transition them to postsecondary education and training 
may experience a negative impact on their performance outcomes on the 
two entered employment measures. It also means that there will be 
different performance standards for youth across the various WIA 
funding streams, making it more difficult to integrate programming.
    Though H.R. 4297 presents deficits in terms of appropriately 
assessing youth outcomes within the larger ``Workforce Investment 
Fund,'' it does incorporate important changes that represent a step in 
the right direction and an improvement over current measures. The bill 
includes a measure of interim progress toward achieving a credential or 
employment. This is an important addition to the performance system 
because providing adequate interventions for out-of-school youth and 
those with limited basic skills may require longer and more intensive 
services. The bill also requires a governor to ensure that standards 
are adjusted to take into account differing economic factors of the 
local area and demographic characteristics of populations served. This 
is important because it helps remove disincentives to serving difficult 
populations.
    Recommendation: Draw from the existing youth performance measures 
incorporated in the ``Youth Challenge Fund'' and establish one set of 
youth performance measures to be administered across the various funds 
within the bill for youth ages 16 to 24. It is recommended that further 
adjustments to these measures be added that take into account the 
challenges associated with the multiple barriers vulnerable youth can 
face, including being a high school dropout, teen parent, or criminal 
offender, living in foster care, or having limited English proficiency.
5. Increasing Opportunities for Youth Work Exposure
    Youth have been hit particularly hard by the economic recession and 
slow job growth. The rate of joblessness in our low-income and minority 
communities is of great concern. The development of appropriate work 
skills and a work ethic is best learned through exposure to the 
workplace and consistent, progressive work experiences. At a time when 
youth employment is at a 60-year low, the role of the workforce system 
in brokering opportunities for youth work experiences, summer jobs, and 
internships should be paramount. WIA reauthorization should provide the 
mechanisms for local areas to provide low-income youth with access to 
summer jobs and year-round work experiences. When funding was made 
available through the American Recovery and Reinvestment Act of 2009 
for summer jobs, the local workforce system responded by putting over a 
quarter million youth to work, demonstrating that the capacity exists 
to implement quality efforts. Research studies have shown that early 
work experience correlates with labor market success and higher 
earnings.\14\ Thus, this type of investment would pay off in the long 
run in terms of a better equipped pool of new entrants into the 
workforce.
    Recommendation: Establish a separate funding stream for work 
experience and work exposure activities, including summer and year-
round jobs, apprenticeships, internships, youth corps, transitional 
jobs, and on-the-job training to serve low-income youth ages 14 to 24.
                                endnotes
    \1\ Social Policy Research Associates, PY 2010 WIASRD Data Book, 
November 2011.
    \2\ Social Policy Research Associates, PY 2010 WIASRD Data Book, 
November 2011.
    \3\ Kenneth Finegold, Laura Wherry, and Stephanie Schardin, Block 
Grants: Historical Overview and Lessons Learned, The Urban Institute, 
April 2004, http://www.urban.org/uploadedPDF/310991--A-63.pdf. This 
analysis suggests the difficulties of building new state capacity for 
administering services under a block grant.
    \4\ Responses to Personal Reemployment Accounts (PRAs): Findings 
from the Demonstration States, Mathematica Policy Research, Inc. and 
Coffey Consulting, LLC, 2008.
    \5\ Evelyn Ganzglass, Recommendations on Performance Accountability 
in the Workforce Education and Training System, CLASP, 2010. http://
www.clasp.org/admin/site/publications/files/Workforce--Investment--
Act--Recommendations--for--Shared--Accountability--System.pdf.
    \6\ Margy Waller, Block Grants: Flexibility vs. Stability in Social 
Services, Center on Children and Families Policy Brief #34, The 
Brookings Institution, December 2005, http://www.brookings.edu/papers/
2005/12welfare--waller.aspx.
    \7\ Government Accountability Office, Block Grants: 
Characteristics, Experience and Lessons Learned, Government 
Accountability Office, February 1995, http://www.gao.gov/products/HEHS-
95-74.
    \8\ Congressional Research Service, Block Grants: Perspectives and 
Controversies, April 5, 2011.
    \9\ Government Accountability Office, Workforce Investment Act: 
Additional Actions Would Further Improve the Workforce System, June 28, 
2007, http://www.gao.gov/products/GAO-07-1051T.
    \10\ The Aspen Institute, Sector Strategies in Brief, Workforce 
Strategies Initiative, November 2007. Employers tend to invest in 
training for more educated workers and are least likely to invest in 
those who earn low wages, have low education and skill levels or occupy 
entry-level positions.
    \11\ Neil Ridley and Elizabeth Kenefick, Research Shows the 
Effectiveness of Workforce Programs: A Fresh Look at the Evidence, 
CLASP, May 2011, http://www.clasp.org/admin/site/publications/files/
workforce-effectiveness.pdf.
    \12\ In a recent letter to Congress, seven researchers cited the 
evidence showing the value of workforce services to participants, 
especially disadvantaged adults.
    \13\ PY 2010 WIASRD Data Book (2011). Prepared by Social Policy 
Research Associates for the Office of Performance and Technology, 
Employment and Training Administration, U.S. Department of Labor, 
http://www.doleta.gov/performance/results/pdf/py--2010--wiasrd--data--
book.pdf
    \14\ Sum, Andrew, Joseph McLaughlin, and Ishwar Khatiwada. 2006. 
Still Young, Idle, and Jobless: The Continued Failure of the Nation's 
Teens to Benefit from Renewed Job Growth. Boston: Center for Labor 
Market Studies, Northeastern University.
                                 ______
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                ------                                

    [Additional submission of Ms. Harmsen follows:]

         Additional Submission for the Record From Ms. Harmsen

    Thank you for recognizing Local Workforce Investment Boards as a 
program that is instrumental in developing a comprehensive workforce 
development system. The San Bernardino County Workforce Investment 
Board believes in a workforce system that serves customers--businesses 
and job seekers alike--in an efficient manner that maximizes resources.
    In response to multiple questions relating to program consolidation 
asked by several Committee Members:
    The San Bernardino County Workforce Investment Board (WIB) fully 
supports the effort to create a solid, receptive workforce development 
system. We support that there is a need to address the shrinking 
availability of funding by creating an effective, efficient workforce 
development system. We recognize that congress has the ability to view 
programs at a higher level and can identify under-performing workforce 
programs. We understand there may be a need for consolidating some of 
these programs in order to preserve resources and increase efficiency 
in providing workforce development activities. If consolidation of some 
programs needs to take place, it should be under the local WIBs. Local 
WIBs across the nation currently collaborate with other entities to 
serve special populations through contracted services. We recognize 
that different populations have different priorities, needs and skill 
sets. Through collaborative contracted services local WIBs provide 
needs assessment, career assessment, employability skills development, 
job training and job placement for special populations. With a private 
business majority, the WIBs also have knowledge of the skills needed by 
the local workforce and can effectively develop strategies to train 
individuals in those skills. Strong collaborations maximize funding and 
efficiency at the local level instead of relying on small, targeted 
national programs to accomplish this goal. Flexible performance 
standards to address special populations and the effective utilization 
of funding through collaboration enable communities to effectively 
respond to the job training needs of all job seekers.
    In response to various questions relating to the membership of 
Local Workforce Investment Boards by several Committee Members:
    Local flexibility is necessary to serve specific needs in a 
designated area. A strong majority of private business is a key 
component to the workforce development system because it enables the 
WIB to identify local demand occupations and local growth industry 
sectors. With a private business majority, the WIBs are able to 
identify skills needed by the local workforce and can effectively 
develop strategies to train individuals in those skills. Flexibility in 
determining membership will enable local officials to establish boards 
that are effective, efficient and representative of the entities and 
populations present in their local areas. To ensure that boards do not 
become homogenous, local WIBs should be able to demonstrate the process 
they used to determine their design.
    In response to various questions relating to national industry-
recognized training certificates by several Committee Members:
    The San Bernardino County WIB agrees that industry-recognized 
certificates are important to ensuring that America has a well-trained 
workforce to support job growth. Our WIB helped establish a local 
Manufacturing Industry Council and a Transportation and Logistics 
Council. The WIB is also active as members of the Aviation Industry 
Council, the Healthcare Workforce Advisory Board, and the California 
Clean Energy Collaboration. These councils in turn connect to national 
industry organizations. We recognize that to be effective, local 
workforce development systems must actively develop and participate in 
these types of networks in order to develop nationally recognized 
certificates.
    In response to various questions relating to flexibility in 
utilizing community colleges and trade schools in workforce development 
system by several Committee Members:
    The San Bernardino County WIB fully supports local flexibility in 
using community colleges and trade schools. We recognize it is an 
effective and efficient utilization of our training funding. Recently, 
the WIB worked with a local community college to implement a training 
program for the region's growing mining industry. The WIB and the 
Manufacturers Industry Council worked with two other community colleges 
to develop and implement an Electrical and Mechanical training program 
in Advanced Manufacturing to develop skill sets needed by local 
manufactures. The WIB also worked with a local vocational school to 
develop a work-based training program to provide skilled machinists for 
the manufacturing industry. This initiative was recognized in the 
January 2012 GAO Report.
    In response to various questions relating to adequate funding for a 
workforce development system by several Committee Members:
    The San Bernardino County WIB recognizes the reality of shrinking 
national resources and the importance of ensuring that public funds are 
utilized in the most effective and efficient manner. To this end, we 
believe that local control of workforce development programs through 
local Workforce Investment Boards is key in reducing administrative 
overhead, eliminating duplication of efforts and ensuring that training 
is tied to local business needs and employment opportunities.
                                 ______
                                 
    [Whereupon, at 12:27 p.m., the committee was adjourned.]

                                 <all>

</pre></body></html>
